Transaction Detail
Table D.1
CPP TRANSACTION DETAIL, AS OF 6/30/2012
                                                                                                                              Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
12/23/2008   1st Constitution Bancorp, Cranbury, NJ               Preferred Stock w/ Warrants                   $12,000,000   10/27/2010        $12,000,000              $—     11/18/2011      P             $326,576           $9.41                        $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49             Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011            $4,400,000             $—     9/1/2011        R             $220,000
                                                                                                                                                                                                                               $13.00                         $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49         Preferred Stock                                $6,000,000   9/1/2011            $6,000,000             $—     N/A                                 N/A
11/14/2008   1st FS Corporation, Hendersonville, NC               Preferred Stock w/ Warrants                   $16,369,000                                                                                                                                   $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN               Preferred Stock w/ Warrants                 $111,000,000    12/29/2010       $111,000,000              $—     3/9/2011        R           $3,750,000         $22.60                        $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants         $10,000,000   11/18/2009        $10,000,000              $—     11/18/2009      R             $500,000           $6.21                          $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC             Preferred Stock w/ Warrants                    $3,500,000                                                                                                      $0.90                          $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                        Preferred Stock w/ Exercised Warrants         $12,720,000   7/21/2011         $12,720,000              $—     7/21/2011       R             $636,000                                        $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2         Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                                     $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK          Preferred Stock w/ Warrants                    $4,781,000                                                                                                      $8.20                          $784,605
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2               Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                                     $469,599
12/19/2008   Alliance Financial Corporation, Syracuse, NY         Preferred Stock w/ Warrants                   $26,918,000   5/13/2009         $26,918,000              $—     6/17/2009       R             $900,000         $34.34                           $538,360
                                                                  Subordinated Debentures
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                  $12,000,000                                                                                                                                     $388,742
                                                                  w/ Exercised Warrants
4/24/2009    Allied First Bancorp, Inc., Oswego, IL2              Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                      $0.27                          $409,753
3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2      Preferred Stock w/ Exercised Warrants         $70,000,000                                                                                                                                  $12,082,539
1/30/2009    AMB Financial Corp., Munster, IN2,50                 Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011           $3,674,000             $—     9/22/2011       R             $184,000           $6.85                          $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49      Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011           $2,492,000             $—     9/15/2011       R             $125,000                                          $343,021
1/9/2009     American Express Company, New York, NY               Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009       $3,388,890,000             $—     7/29/2009       R        $340,000,000          $58.21                        $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2               Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011           $1,800,000             $—     1/26/2011       R              $90,000                                          $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2     Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011           $6,000,000             $—     11/2/2011       R             $300,000                                          $920,142
11/21/2008   Ameris Bancorp, Moultrie, GA85                       Preferred Stock w/ Warrants                   $52,000,000   6/13/2012         $47,665,332              $—                                                    $12.60        698,554          $9,302,107
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50            Preferred Stock w/ Warrants                   $21,000,000   8/11/2011         $21,000,000              $—     11/2/2011       R             $825,000           $2.82                        $2,776,667
                                                                  Subordinated Debentures w/ Exercised
8/21/2009    AmFirst Financial Services, Inc., McCook, NE8                                                       $5,000,000                                                                                                                                   $1,146,635
                                                                  Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI           Preferred Stock w/ Warrants                 $110,000,000                                                                                                       $0.45     7,399,103
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD               Preferred Stock w/ Warrants                    $8,152,000   4/18/2012           $4,076,000      $4,076,000                                                     $6.80       299,706          $1,326,398
                                                                                                                              4/6/2011         $262,500,000     $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WI                  Preferred Stock w/ Warrants                 $525,000,000                                                      11/30/2011      A           $3,435,006         $13.19                        $68,104,167
                                                                                                                              9/14/2011        $262,500,000              $—
                                                       2,10
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC              Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                      $0.70                          $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49   Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011           $7,400,000             $—     9/15/2011       R             $370,000                                        $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49             Preferred Stock w/ Exercised Warrants         $21,100,000   7/14/2011         $21,100,000              $—     7/14/2011       R           $1,055,000                                        $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49        Preferred Stock w/ Exercised Warrants         $13,669,000   8/18/2011         $13,669,000              $—     8/18/2011       R             $410,000                                        $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI           Preferred Stock w/ Warrants                   $30,000,000   8/5/2009          $30,000,000              $—     9/30/2009       R           $1,400,000                                          $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30              Preferred Stock w/ Exercised Warrants         $48,000,000   9/29/2010         $48,000,000              $—     9/29/2010       R           $2,400,000                                        $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                          Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                                   $1,460,782
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL          Preferred Stock w/ Warrants                   $50,000,000                                                                                                      $2.99       730,994          $7,888,889
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2     Preferred Stock w/ Exercised Warrants          $1,004,000                                                                                                                                     $150,577
10/28/2008   Bank of America Corporation, Charlotte, NC1b         Preferred Stock w/ Warrants               $15,000,000,000   12/9/2009      $15,000,000,000             $—     3/3/2010        A        $183,547,824            $8.18                     $835,416,667
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b      Preferred Stock w/ Warrants               $10,000,000,000   12/9/2009      $10,000,000,000             $—     3/3/2010        A        $122,365,216                                      $458,333,333
1/16/2009    Bank of Commerce, Charlotte, NC2                     Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $421,921
11/14/2008   Bank of Commerce Holdings, Redding, CA49             Preferred Stock w/ Warrants                   $17,000,000   9/27/2011         $17,000,000              $—     10/26/2011      R             $125,000           $2.80                        $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                       Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                                     $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CA                    Preferred Stock w/ Warrants                   $28,000,000   3/31/2009         $28,000,000              $—     11/18/2011      P           $1,703,984         $37.01                           $451,111
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC    Preferred Stock w/ Warrants                   $13,179,000                                                                                                      $0.23       475,204          $1,039,677
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012




12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR            Preferred Stock w/ Warrants                   $75,000,000   11/4/2009         $75,000,000              $—     11/24/2009      R           $2,650,000         $30.08                         $3,354,167
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                         Preferred Stock w/ Exercised Warrants         $12,639,000                                                                                                                                   $1,061,947
             Denver, CO2
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             239
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                       (Continued)                                                                                                                                                                         240
                                                                                                                                   Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
1/23/2009    BankFirst Capital Corporation, Macon, MS2,49              Preferred Stock w/ Exercised Warrants         $15,500,000   9/8/2011          $15,500,000              $—     9/8/2011        R             $775,000                                        $2,217,469
2/13/2009    BankGreenville, Greenville, SC2                           Preferred Stock w/ Exercised Warrants          $1,000,000                                                                                                                                     $177,428
11/21/2008   Banner Corporation, Walla Walla, WA74                     Preferred Stock w/ Warrants                 $124,000,000    3/28/2012        $108,071,915              $—                                                    $21.91        243,998         $20,873,747
2/6/2009     Banner County Ban Corporation, Harrisburg, NE2,49         Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011            $795,000              $—     7/28/2011       R              $40,000                                          $107,411
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                     Preferred Stock w/ Warrants                   $18,751,000   2/24/2010         $18,751,000              $—     7/28/2010       R             $250,000         $36.00                         $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                             Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             $—     7/22/2009       R          $67,010,402         $30.85                        $92,703,517
             BBCN Bancorp, Inc.
12/12/2008                                                             Preferred Stock w/ Warrants                   $55,000,000   6/27/2012         $55,000,000              $—                                                                                   $9,739,583
             (Center Financial Corporation), Los Angeles, CA66
                                                                                                                                                                                                                                    $10.89        337,480
             BBCN Bancorp, Inc.
11/21/2008                                                             Preferred Stock w/ Warrants                   $67,000,000   6/27/2012         $67,000,000              $—                                                                                  $12,060,000
             (Nara Bancorp, Inc.), Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2                  Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                                     $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                         Preferred Stock w/ Warrants                   $10,800,000   1/26/2011         $10,800,000              $—                                                    $13.50        183,465          $1,129,500
                                                                                                                                   7/6/2011            $1,500,000      $4,500,000
                                                                                                                                   10/19/2011          $1,500,000      $3,000,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2                 Preferred Stock w/ Exercised Warrants          $6,000,000   3/7/2012            $1,500,000      $1,500,000    6/27/2012       R             $300,000           $9.18                          $963,317
                                                                                                                                   6/6/2012            $1,200,000        $300,000
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                   6/27/2012            $300,000              $—
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA             Preferred Stock w/ Warrants                   $40,000,000   5/27/2009         $40,000,000              $—     6/24/2009       R           $1,040,000         $22.00                           $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                       Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              $—     9/1/2011        R              $50,000           $8.80                          $137,063
             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                              Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             $—     7/28/2011       R              $82,000
             Birmingham, MI2,49
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                             Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             $—     N/A                                 N/A          $3.30                          $342,023
             Birmingham, MI2,10a,49

                                                                8,10   Subordinated Debentures
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL                                                             $6,400,000                                                                                                                                   $1,516,271
                                                                       w/ Exercised Warrants
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI2                      Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $7.02                        $1,728,861
5/22/2009    Blackridge Financial, Inc., Fargo, ND2                    Preferred Stock w/ Exercised Warrants          $5,000,000   6/27/2012           $2,250,000      $2,750,000                                                                                    $825,326
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2            Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                   $1,760,350
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2,71          Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                      $0.02                          $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                   Preferred Stock w/ Warrants                   $21,750,000                                                                                                      $3.55       111,083            $211,458
             BNB Financial Services Corporation, New York,
4/17/2009                                                              Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                     $440,542
             NY2
12/5/2008    BNC Bancorp, Thomasville, NC                              Preferred Stock w/ Warrants                   $31,260,000                                                                                                      $7.86       543,337          $5,383,667
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49             Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             $—     8/4/2011        R             $240,000         $13.00                           $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                              Preferred Stock w/ Exercised Warrants         $20,093,000                                                                                                      $2.11                          $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                       Preferred Stock w/ Exercised Warrants         $10,000,000   7/14/2011         $10,000,000              $—     7/14/2011       R             $500,000                                        $1,283,777
                                                                       Subordinated Debentures w/ Exercised
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                     $5,586,000                                                                                                                                     $468,624
                                                                       Warrants

             Boston Private Financial Holdings, Inc.,                                                                              1/13/2010         $50,000,000     $104,000,000    2/1/2011        A           $6,202,523
11/21/2008                                                             Preferred Stock w/ Warrants                 $154,000,000                                                                                                       $8.93                       $11,022,222
             Boston, MA                                                                                                            6/16/2010        $104,000,000              $—
                                                                                                                                   2/23/2011         $15,000,000       $8,864,000    4/20/2011       R           $1,395,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                     Preferred Stock w/ Warrants                   $23,864,000                                                                                                    $16.15                         $2,613,582
                                                                                                                                   3/16/2011           $8,864,000             $—
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL2                 Preferred Stock w/ Exercised Warrants         $38,000,000                                                                                                                                   $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                             Preferred Stock                                $9,000,000
             Los Angeles, CA3a,72
                                                                                                                                                                                                                                      $1.30                          $810,417
             Broadway Financial Corporation,
12/4/2009                                                              Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,72
                                                                       Subordinated Debentures w/ Exercised
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                   $2,400,000                                                                                                                                     $402,720
                                                                       Warrants
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS2,49         Preferred Stock w/ Exercised Warrants         $11,000,000   9/15/2011         $11,000,000              $—     9/15/2011       R             $550,000                                        $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2                   Preferred Stock w/ Exercised Warrants         $15,000,000   5/23/2012           $6,000,000      $9,000,000                                                                                  $2,506,855
3/13/2009    Butler Point, Inc., Catlin, IL2                           Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011            $607,000              $—     11/2/2011       R              $30,000                                           $87,124
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                    (Continued)
                                                                                                                                Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
                                                                                                                                7/27/2011         $10,000,000      $10,000,000
1/9/2009     C&F Financial Corporation, West Point, VA              Preferred Stock w/ Warrants                   $20,000,000                                                                                                    $40.16        167,504          $2,902,778
                                                                                                                                4/11/2012         $10,000,000              $—
12/23/2008   Cache Valley Banking Company , Logan, UT2,49           Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             $—     7/14/2011       R             $238,000
                                                                                                                                                                                                                                                                $1,029,334
12/18/2009   Cache Valley Banking Company, Logan, UT2,10a,49        Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             $—     N/A                                 N/A
1/9/2009     Cadence Financial Corporation, Starkville, MS33        Preferred Stock w/ Warrants                   $44,000,000   3/4/2011          $38,000,000              $—     N/A                                 N/A                                       $3,984,063
2/27/2009    California Bank of Commerce, Lafayette, CA2,49         Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $200,000                                          $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2         Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             $—     12/8/2010       R             $165,000                                          $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2            Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                                     $187,178
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2           Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                      $0.28                          $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                  Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010          $4,700,000             $—     12/30/2010      R             $235,000                                          $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                Preferred Stock w/ Warrants                   $41,279,000   1/28/2011         $41,279,000              $—     N/A                                 N/A          $2.28       749,619          $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2         Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                                     $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA          Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009       $3,555,199,000             $—     12/3/2009       A        $146,500,065          $54.66                      $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2                 Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $739,989

                                                         8,50       Subordinated Debentures
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO                                                             $6,251,000   9/8/2011            $6,251,000             $—     9/8/2011        R             $313,000                                          $983,480
                                                                    w/ Exercised Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC           Preferred Stock w/ Warrants                   $16,000,000                                                                                                      $5.82       357,675          $2,297,625
2/6/2009     Carolina Trust Bank, Lincolnton, NC                    Preferred Stock w/ Warrants                    $4,000,000                                                                                                      $3.00        86,957            $505,000
2/13/2009    Carrollton Bancorp, Baltimore, MD                      Preferred Stock w/ Warrants                    $9,201,000                                                                                                      $5.35       205,379            $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30                  Preferred Stock                               $18,980,000   8/27/2010         $18,980,000              $—     N/A                                 N/A          $2.65                        $1,531,581
11/21/2008   Cascade Financial Corporation, Everett, WA47           Preferred Stock w/ Warrants                   $38,970,000   6/30/2011         $16,250,000              $—     N/A                                 N/A                                       $1,428,900
12/5/2008    Cathay General Bancorp, Los Angeles, CA                Preferred Stock w/ Warrants                 $258,000,000                                                                                                     $16.51      1,846,374         $44,433,333
2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49        Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011           $3,000,000             $—     7/21/2011       R             $150,000
                                                                                                                                                                                                                                 $17.75                           $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49    Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011           $3,500,000             $—     7/21/2011       R             $113,000
                                          2,63
5/29/2009    CB Holding Corp., Aledo, IL                            Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                                     $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2                         Preferred Stock w/ Exercised Warrants          $2,644,000
                                                                                                                                                                                                                                                                  $674,671
12/29/2009   CBB Bancorp, Cartersville, GA2,10a                     Preferred Stock                                $1,753,000
3/27/2009    CBS Banc-Corp., Russellville, AL2                      Preferred Stock w/ Exercised Warrants         $24,300,000                                                                                                                  523,076          $4,217,049
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                        Preferred Stock w/ Warrants                   $11,560,000                                                                                                      $0.70       261,538            $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                          Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                                     $636,071
1/9/2009     Center Bancorp, Inc., Union, NJ49                      Preferred Stock w/ Warrants                   $10,000,000   9/15/2011         $10,000,000              $—     12/7/2011       R             $245,000         $11.25                         $1,341,667
5/1/2009     CenterBank, Milford, OH2                               Preferred Stock w/ Exercised Warrants          $2,250,000                                                                                                                                     $372,781
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL       Preferred Stock w/ Warrants                   $27,875,000   9/30/2009         $27,875,000              $—     10/28/2009      R             $212,000                                        $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2       Preferred Stock w/ Exercised Warrants         $15,000,000   3/31/2009         $15,000,000              $—     4/15/2009       R             $750,000           $7.15                          $172,938
12/5/2008    Central Bancorp, Inc., Garland, TX50                   Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     10/19/2011      R           $2,525,000         $31.72                         $2,411,625
2/27/2009    Central Bancorp, Inc., Somerville, MA2                 Preferred Stock w/ Exercised Warrants         $22,500,000                                                                                                                                   $1,361,111
1/30/2009    Central Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011            $5,800,000             $—     7/6/2011        R             $290,000                                          $769,177
2/20/2009    Central Community Corporation, Temple, TX2             Preferred Stock w/ Exercised Warrants         $22,000,000                                                                                                                                   $3,880,097
12/5/2008    Central Federal Corporation, Fairlawn, OH              Preferred Stock w/ Warrants                    $7,225,000                                                                                                                   67,314            $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                   Preferred Stock w/ Warrants                   $11,300,000   11/24/2010        $11,300,000              $—     12/1/2010       R             $319,659           $1.56                        $1,084,486
                                                                                                                                6/17/2011         $35,883,281      $99,116,719
1/9/2009     Central Pacific Financial Corp., Honolulu, HI37,46     Common Stock w/ Warrants                    $135,000,000                                                                                                     $14.12         79,288          $2,362,500
                                                                                                                                3/29/2012         $36,039,222              $—
1/30/2009    Central Valley Community Bancorp, Fresno, CA50         Preferred Stock w/ Warrants                    $7,000,000   8/18/2011           $7,000,000             $—     9/28/2011       R             $185,017           $6.90                          $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA        Preferred Stock w/ Warrants                   $11,385,000                                                                                                      $0.57       263,542            $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49   Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011           $6,056,000             $—     7/14/2011       R             $182,000                                          $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                  Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011           $7,500,000             $—     7/28/2011       R             $375,000         $19.30                         $1,012,791
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I July 25, 2012




1/9/2009     Centrue Financial Corporation, St. Louis, MO           Preferred Stock w/ Warrants                   $32,668,000                                                                                                                  508,320            $571,690
             Century Financial Services Corporation,                Subordinated Debentures
6/19/2009                                                                                                         $10,000,000                                                                                                                                   $2,437,761
             Santa Fe, NM8                                          w/ Exercised Warrants
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               241
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                      (Continued)                                                                                                                                                                      242
                                                                                                                               Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
                                                                   Subordinated Debentures
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                            $19,817,000                                                                                                                                   $4,923,341
                                                                   w/ Exercised Warrants
7/31/2009    Chicago Shore Corporation , Chicago, IL2              Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                                   $1,065,021
12/31/2008   CIT Group Inc., New York, NY16                        Contingent Value Rights                    $2,330,000,000   2/8/2010                  $—               $—     N/A                                 N/A        $35.64                        $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                     Common Stock w/ Warrants                  $25,000,000,000   **             $25,000,000,000             $—     1/25/2011       A          $54,621,849         $27.41                      $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA        Preferred Stock w/ Warrants                   $26,440,000   8/4/2010          $26,440,000              $—     9/1/2010        R             $400,000         $19.05                         $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                 Preferred Stock w/ Exercised Warrants         $10,400,000                                                                                                      $0.01                          $223,571
5/29/2009    Citizens Bancshares Co., Chillicothe, MO2             Preferred Stock w/ Exercised Warrants         $24,990,000                                                                                                                                     $628,033
3/6/2009     Citizens Bancshares Corporation, Atlanta, GA3,30      Preferred Stock                                $7,462,000   8/13/2010           $7,462,000             $—     N/A                                 N/A          $4.00                          $535,813
3/20/2009    Citizens Bank & Trust Company, Covington, LA2         Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $248,883
             Citizens Commerce Bancshares, Inc.,
2/6/2009                                                           Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                                     $180,259
             Versailles, KY2
12/23/2008   Citizens Community Bank, South Hill, VA2,49           Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011           $3,000,000             $—     7/28/2011       R             $150,000                                          $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY         Preferred Stock w/ Warrants                    $8,779,000   2/16/2011           $2,212,308      $6,566,692                                                     $8.45       254,218          $1,356,907
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI            Preferred Stock w/ Warrants                 $300,000,000                                                                                                     $17.13      1,757,813         $13,875,000
12/12/2008   Citizens South Banking Corporation, Gastonia, NC50    Preferred Stock w/ Warrants                   $20,500,000   9/22/2011         $20,500,000              $—     11/9/2011       R             $225,157           $6.78                        $2,847,222
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 25, 2012




             City National Bancshares Corporation,
4/10/2009                                                          Preferred Stock                                $9,439,000                                                                                                                                     $281,859
             Newark, NJ2,3
                                                                                                                               12/30/2009       $200,000,000     $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA          Preferred Stock w/ Warrants                 $400,000,000                                                      4/7/2010        R          $18,500,000         $48.58                        $23,916,667
                                                                                                                               3/3/2010         $200,000,000              $—
                                                              2
3/27/2009    Clover Community Bankshares, Inc., Clover, SC         Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $307,925
             Coastal Banking Company, Inc.,
12/5/2008                                                          Preferred Stock w/ Warrants                    $9,950,000                                                                                                      $4.25       205,579            $967,361
             Fernandina Beach, FL
             CoastalSouth Bancshares, Inc.,
8/28/2009                                                          Preferred Stock w/ Exercised Warrants         $16,015,000                                                                                                                                   $1,235,449
             Hilton Head Island, SC2,10
12/19/2008   CoBiz Financial Inc., Denver, CO50                    Preferred Stock w/ Warrants                   $64,450,000   9/8/2011          $64,450,000              $—     11/18/2011      P             $143,677           $6.26                        $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49              Preferred Stock w/ Warrants                   $16,500,000   8/18/2011         $16,500,000              $—     9/28/2011       R             $526,604         $13.84                         $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                 Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                                                   $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2        Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011           $574,000              $—     10/26/2011      R              $29,000                                           $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                 Preferred Stock w/ Warrants                   $28,000,000                                                                                                      $4.73       500,000          $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA             Preferred Stock w/ Warrants                   $76,898,000   8/11/2010         $76,898,000              $—     9/1/2010        R           $3,301,647         $18.79                         $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49          Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011           $2,260,000             $—     9/22/2011       R             $113,000                                          $316,479
11/14/2008   Comerica Inc., Dallas, TX                             Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010       $2,250,000,000             $—     5/6/2010        A        $181,102,043          $30.71                      $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA             Preferred Stock w/ Warrants                    $5,000,000   10/7/2009           $5,000,000             $—                                                      $9.50        87,209             $36,111
                                                                   Subordinated Debentures
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8                                                      $20,400,000                                                                                                                                   $5,101,405
                                                                   w/ Exercised Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2          Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                      $9.61                          $445,348
1/16/2009    Community 1st Bank, Roseville, CA2                    Preferred Stock w/ Exercised Warrants          $2,550,000                                                                                                                                     $139,020
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2       Preferred Stock w/ Exercised Warrants           $500,000                                                                                                                                       $86,973
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                          Preferred Stock w/ Exercised Warrants         $52,000,000   9/29/2010         $52,000,000              $—     9/29/2010       R           $2,600,000                                        $2,975,700
             Brandon, MS2,30
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10           Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                                     $573,012
1/16/2009    Community Bank of the Bay, Oakland, CA3,30            Preferred Stock                                $1,747,000   9/29/2010           $1,747,000             $—     N/A                                 N/A                                          $76,189
             Community Bank Shares of Indiana, Inc., New
5/29/2009                                                          Preferred Stock w/ Warrants                   $19,468,000   9/15/2011         $19,468,000              $—     10/19/2011      R           $1,100,870         $12.58                         $2,233,412
             Albany, IN49
             Community Bankers Trust Corporation, Glen
12/19/2008                                                         Preferred Stock w/ Warrants                   $17,680,000                                                                                                      $1.80       780,000          $1,982,529
             Allen, VA
2/27/2009    Community Business Bank, West Sacramento, CA2         Preferred Stock w/ Exercised Warrants          $3,976,000                                                                                                      $6.10                          $697,084
12/19/2008   Community Financial Corporation, Staunton, VA         Preferred Stock w/ Warrants                   $12,643,000                                                                                                      $3.68       351,194          $2,152,822
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2     Preferred Stock w/ Exercised Warrants          $6,970,000                                                                                                      $2.20                          $569,865
3/20/2009    Community First Bancshares Inc., Union City, TN2,49   Preferred Stock w/ Exercised Warrants         $20,000,000   8/18/2011         $20,000,000              $—     8/18/2011       R           $1,000,000                                        $2,628,111
4/3/2009     Community First Bancshares, Inc., Harrison, AR2       Preferred Stock w/ Exercised Warrants         $12,725,000                                                                                                                                   $2,161,377
2/27/2009    Community First Inc., Columbia, TN2                   Preferred Stock w/ Exercised Warrants         $17,806,000                                                                                                                                   $1,908,453
                                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                      (Continued)
                                                                                                                                  Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
             Community Holding Company of Florida, Inc.,
2/6/2009                                                              Preferred Stock w/ Exercised Warrants          $1,050,000                                                                                                                                     $186,676
             Miramar Beach, FL2
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH2          Preferred Stock w/ Exercised Warrants          $2,600,000                                                                                                                                     $480,993
1/30/2009    Community Partners Bancorp, Middletown, NJ49             Preferred Stock w/ Warrants                    $9,000,000   8/11/2011           $9,000,000             $—     10/26/2011      R             $460,000           $5.70                        $1,138,750
             Community Pride Bank Corporation,                        Subordinated Debentures
11/13/2009                                                                                                           $4,400,000                                                                                                                                     $448,253
             Ham Lake, MN8,10                                         w/ Exercised Warrants
             Community Trust Financial Corporation,
1/9/2009                                                              Preferred Stock w/ Exercised Warrants         $24,000,000   7/6/2011          $24,000,000              $—     7/6/2011        R           $1,200,000                                        $3,259,100
             Ruston, LA2,49
12/19/2008   Community West Bancshares, Goleta, CA                    Preferred Stock w/ Warrants                   $15,600,000                                                                                                      $2.50       521,158          $2,461,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2                    Preferred Stock w/ Exercised Warrants          $3,285,000                                                                                                      $2.70                          $608,728
             Corning Savings and Loan Association,
2/13/2009                                                             Preferred Stock w/ Exercised Warrants           $638,000                                                                                                                                      $113,228
             Corning, AR2
1/30/2009    Country Bank Shares, Inc., Milford, NE2                  Preferred Stock w/ Exercised Warrants          $7,525,000                                                                                                                                   $1,349,880
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2          Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                     $810,989
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2            Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                      $7.10                          $546,741
             Crescent Financial Bancshares, Inc.
1/9/2009                                                              Preferred Stock w/ Warrants                   $24,900,000                                                                                                      $4.52                        $4,230,091
             (Crescent Financial Corporation), Cary, NC65
1/23/2009    Crosstown Holding Company, Blaine, MN2                   Preferred Stock w/ Exercised Warrants         $10,650,000                                                                                                                                   $1,922,001
3/27/2009    CSRA Bank Corp., Wrens, GA2                              Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $180,940
             Customers Bancorp, Inc.
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011          $2,892,000             $—     12/28/2011      R             $145,000                                          $407,478
             (Berkshire Bancorp, Inc.), Phoenixville, PA2,60
                                                                                                                                  8/26/2009         $97,500,000      $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                          Preferred Stock w/ Warrants                 $130,000,000                                                      10/28/2009      R           $1,307,000         $11.65                         $4,739,583
                                                                                                                                  9/2/2009          $32,500,000              $—
2/27/2009    D.L. Evans Bancorp, Burley, ID2,49                       Preferred Stock w/ Exercised Warrants         $19,891,000   9/27/2011         $19,891,000              $—     9/27/2011       R             $995,000                                        $2,800,592

                                                               8,49   Subordinated Debentures
5/15/2009    Deerfield Financial Corporation, Deerfield, WI                                                          $2,639,000   9/8/2011            $2,639,000             $—     9/8/2011        R             $132,000                                          $512,339
                                                                      w/ Exercised Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                              Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                                     $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2                       Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                                    $387,509
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a                   Preferred Stock                                $1,508,000
                                                                      Subordinated Debentures
5/22/2009    Diamond Bancorp, Inc., Washington, MO8                                                                 $20,445,000                                                                                                                                   $5,112,555
                                                                      w/ Exercised Warrants
1/16/2009    Dickinson Financial Corporation II, Kansas City, MO2     Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                                    $2,631,197
3/13/2009    Discover Financial Services , Riverwoods, IL             Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010       $1,224,558,000             $—     7/7/2010        R        $172,000,000          $34.58                        $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49             Preferred Stock w/ Warrants                   $11,750,000   8/4/2011          $11,750,000              $—     9/21/2011       R             $458,000         $13.50                         $1,475,278
                                                                      Subordinated Debentures
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                           $12,000,000                                                                                                                                   $3,076,173
                                                                      w/ Exercised Warrants
                                                                                                                                  12/23/2009        $15,000,000      $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49                      Preferred Stock w/ Warrants                   $38,235,000                                                     11/18/2011      P           $2,794,422         $15.75                         $3,817,732
                                                                                                                                  7/14/2011         $23,235,000              $—
12/5/2008    East West Bancorp, Pasadena, CA                          Preferred Stock w/ Warrants                 $306,546,000    12/29/2010       $306,546,000              $—     1/26/2011       R          $14,500,000         $23.46                        $31,676,420
             Eastern Virginia Bankshares, Inc.,
1/9/2009                                                              Preferred Stock w/ Warrants                   $24,000,000                                                                                                      $3.72       373,832          $2,220,000
             Tappahannock, VA
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                         Preferred Stock w/ Warrants                   $17,949,000                                                                                                      $9.36       144,984          $2,989,008
12/23/2008   Emclaire Financial Corp., Emlenton, PA49                 Preferred Stock w/ Warrants                    $7,500,000   8/18/2011           $7,500,000             $—     12/7/2011       R              $51,113         $19.95                           $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50                    Preferred Stock w/ Warrants                   $34,000,000   9/27/2011         $34,000,000              $—     11/18/2011      P             $637,071         $20.63                         $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO       Preferred Stock w/ Warrants                   $35,000,000                                                                                                    $10.96        324,074          $5,959,722
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011           $4,000,000             $—     8/25/2011       R             $200,000                                          $480,206
             Allison Park, PA2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS2,49                 Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011           $8,750,000             $—     8/11/2011       R             $438,000                                        $1,206,873
12/19/2008   Exchange Bank, Santa Rosa, CA2                           Preferred Stock w/ Exercised Warrants         $43,000,000                                                                                                                                   $7,395,044
                                                                      Subordinated Debentures
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




5/22/2009    F & C Bancorp, Inc., Holden, MO8                                                                        $2,993,000                                                                                                                                     $748,600
                                                                      w/ Exercised Warrants
                                                     2
1/30/2009    F & M Bancshares, Inc., Trezevant, TN                    Preferred Stock w/ Exercised Warrants          $4,609,000
                                                                                                                                                                                                                                                                  $1,272,996
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a               Preferred Stock                                $3,535,000
                                                          2
2/6/2009     F & M Financial Corporation, Salisbury, NC               Preferred Stock w/ Exercised Warrants         $17,000,000                                                                                                                                   $3,034,288
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 243
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                     (Continued)                                                                                                                                                                         244
                                                                                                                                 Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
2/13/2009    F&M Financial Corporation, Clarksville, TN2             Preferred Stock w/ Exercised Warrants         $17,243,000                                                                                                                                   $3,059,343
1/9/2009     F.N.B. Corporation, Hermitage, PA                       Preferred Stock w/ Warrants                 $100,000,000    9/9/2009         $100,000,000              $—     11/18/2011      P             $690,100         $10.87        819,640          $4,808,414
             F.N.B. Corporation (Parkvale Financial
12/23/2008                                                           Preferred Stock w/ Warrants                   $31,762,000   1/3/2012          $31,762,000              $—                                                                                   $3,333,333
             Corporation), Monroeville, PA67
             Farmers & Merchants Bancshares, Inc.,
3/6/2009                                                             Preferred Stock w/ Exercised Warrants         $11,000,000                                                                                                                                   $1,913,405
             Houston, TX2
             Farmers & Merchants Financial Corporation,
3/20/2009                                                            Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                       $75,919
             Argonia, KS2
1/23/2009    Farmers Bank , Windsor, VA2                             Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                                   $1,579,466
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY87       Preferred Stock w/ Warrants                   $30,000,000   6/13/2012         $21,594,229              $—                                                      $6.57       223,992          $5,166,600

                                                            8        Subordinated Debentures
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS                                                             $12,000,000                                                                                                                                   $2,925,316
                                                                     w/ Exercised Warrants
3/20/2009    Farmers State Bankshares, Inc., Holton, KS2, 50         Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000              $—     7/21/2011       R              $40,000                                           $90,174
                                                                     Subordinated Debentures
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                               $3,035,000   3/9/2011             $650,000              $—     N/A                                 N/A                                         $154,592
                                                                     w/ Exercised Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                         Preferred Stock w/ Exercised Warrants         $21,042,000                                                                                                                                     $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                   Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000             $—     9/22/2011       R             $465,000                                        $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2                            Preferred Stock w/ Exercised Warrants          $7,289,000                                                                                                                                   $1,352,721
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                                     Subordinated Debentures
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA8                                                                $3,942,000                                                                                                                                     $979,300
                                                                     w/ Exercised Warrants
12/12/2008   Fidelity Bancorp, Inc., Pittsburgh, PA                  Preferred Stock w/ Warrants                    $7,000,000                                                                                                    $10.41        121,387          $1,198,750
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10            Preferred Stock w/ Exercised Warrants          $6,657,000                                                                                                                                           $—
12/19/2008   Fidelity Financial Corporation, Wichita, KS2            Preferred Stock w/ Exercised Warrants         $36,282,000                                                                                                                                   $6,734,009
12/19/2008   Fidelity Southern Corporation, Atlanta, GA92            Preferred Stock w/ Warrants                   $48,200,000   6/27/2012         $42,757,786              $—                                                      $8.64     2,462,439          $8,207,389
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                     Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000             $—     3/16/2011       R        $280,025,936          $13.40                      $355,946,667
                                                                                                                                 2/23/2011         $12,505,000      $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                Preferred Stock w/ Warrants                   $37,515,000                                                     5/11/2011       R           $2,079,963         $16.88                         $4,192,649
                                                                                                                                 3/30/2011         $25,010,000              $—
2/13/2009    Financial Security Corporation, Basin, WY2,50           Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000             $—     7/21/2011       R             $250,000                                          $664,597
                                                                     Subordinated Debentures
7/31/2009    Financial Services of Winger, Inc., Winger, MN8,10,49                                                  $3,742,000   9/1/2011            $3,742,000             $—     9/1/2011        R             $112,000                                          $633,322
                                                                     w/ Exercised Warrants
5/22/2009    First Advantage Bancshares Inc., Coon Rapids, MN2       Preferred Stock w/ Exercised Warrants          $1,177,000                                                                                                                                     $191,232
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2           Preferred Stock w/ Exercised Warrants          $3,422,000                                                                                                                                     $538,231
             First American Bank Corporation,                        Subordinated Debentures
7/24/2009                                                                                                          $50,000,000   12/21/2011        $15,000,000      $35,000,000                                                                                 $11,318,975
             Elk Grove Village, IL8                                  w/ Exercised Warrants
3/13/2009    First American International Corp., Brooklyn, NY3,30    Preferred Stock                               $17,000,000   8/13/2010         $17,000,000              $—     N/A                                 N/A                                       $1,204,167
1/9/2009     First BanCorp, San Juan, PR50                           Preferred Stock w/ Warrants                   $65,000,000   9/1/2011          $65,000,000              $—     11/18/2011      P             $924,462           $8.89       389,484         $32,999,386
1/16/2009    First Bancorp, Troy, NC28                               Common Stock w/ Warrants                    $424,174,000                                                                                                     $17.00        616,308          $8,594,444
2/20/2009    First BancTrust Corporation, Paris, IL2                 Preferred Stock w/ Exercised Warrants          $7,350,000   1/18/2012           $3,675,000      $3,675,000                                                   $10.77                         $1,236,732
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50      Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000             $—     7/21/2011       R             $167,000                                          $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50         Preferred Stock w/ Exercised Warrants         $10,000,000   9/8/2011          $10,000,000              $—     9/8/2011        R             $500,000         $23.50                         $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                         Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                                    $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50                   Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000              $—     11/18/2011      P              $63,677           $4.82                       $12,347,222
4/10/2009    First Business Bank, N.A., San Diego, CA2               Preferred Stock w/ Exercised Warrants          $2,211,000
                                                                                                                                                                                                                                                                   $620,001
12/11/2009   First Business Bank, N.A., San Diego, CA2,10a           Preferred Stock                                $2,032,000
             First California Financial Group, Inc, Westlake
12/19/2008                                                           Preferred Stock w/ Warrants                   $25,000,000   7/14/2011         $25,000,000              $—     8/24/2011       R             $599,042           $6.88                        $3,211,806
             Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA90           Preferred Stock w/ Warrants                   $10,958,000   6/13/2012           $9,931,327             $—                                                      $2.34       250,947          $1,759,344
2/13/2009    First Choice Bank, Cerritos, CA2, 30                    Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000             $—     9/24/2010       R             $110,000
                                                                                                                                                                                                                                                                   $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                 Preferred Stock                                $2,836,000   9/24/2010           $2,836,000             $—     N/A                                 N/A
1/23/2009    First Citizens Banc Corp, Sandusky, OH94                Preferred Stock w/ Warrants                   $23,184,000   6/27/2012         $20,689,633              $—                                                      $8.45       469,312          $3,838,240
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49        Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000             $—     9/22/2011       R             $225,000                                          $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VA          Preferred Stock w/ Warrants                   $41,500,000   7/8/2009          $41,500,000              $—     11/18/2011      P              $30,600         $14.43                         $1,308,403
                                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                        (Continued)
                                                                                                                                  Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
             First Community Bancshares, Inc,
5/15/2009                                                             Preferred Stock w/ Exercised Warrants         $14,800,000                                                                                                                                     $604,950
             Overland Park, KS2
             First Community Bank Corporation of America,
12/23/2008                                                            Preferred Stock w/ Warrants                   $10,685,000   5/31/2011           $7,754,267             $—     N/A                                 N/A                                         $744,982
             Pinellas Park, FL39
11/21/2008   First Community Corporation, Lexington, SC               Preferred Stock w/ Warrants                   $11,350,000                                                                                                      $8.00       195,915          $1,976,792
12/11/2009   First Community Financial Partners, Inc., Joliet, IL2    Preferred Stock w/ Exercised Warrants         $22,000,000                                                                                                                                   $2,910,906
12/5/2008    First Defiance Financial Corp., Defiance, OH89           Preferred Stock w/ Warrants                   $37,000,000   6/13/2012         $35,084,144              $—                                                    $17.12        550,595          $6,546,862
                                                                      Subordinated Debentures w/ Exercised
9/11/2009    First Eagle Bancshares, Inc., Hanover Park, IL8,30                                                      $7,500,000   9/17/2010           $7,500,000             $—     9/17/2010       R             $375,000                                          $639,738
                                                                      Warrants
                                                            2
2/6/2009     First Express of Nebraska, Inc., Gering, NE              Preferred Stock w/ Exercised Warrants          $5,000,000   2/15/2012           $5,000,000             $—     2/15/2012       R             $250,000                                          $824,313
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                              Preferred Stock w/ Warrants                   $16,500,000   5/3/2011            $6,000,000             $—     N/A                                 N/A          $8.10                          $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                  Preferred Stock w/ Warrants                   $80,000,000   2/24/2010         $80,000,000              $—     6/2/2010        A           $2,966,288         $15.98                         $4,677,778
                                                                      Subordinated Debentures
6/12/2009    First Financial Bancshares, Inc., Lawrence, KS8,10,49                                                   $3,756,000   9/22/2011           $3,756,000             $—     9/22/2011       R             $113,000                                          $694,280
                                                                      w/ Exercised Warrants
12/5/2008    First Financial Holdings Inc., Charleston, SC75          Preferred Stock w/ Warrants                   $65,000,000   3/28/2012         $55,926,478              $—                                                    $10.72        241,696         $10,815,494
             First Financial Service Corporation,
1/9/2009                                                              Preferred Stock w/ Warrants                   $20,000,000                                                                                                      $2.25       215,983          $1,600,000
             Elizabethtown, KY
12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10          Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                   $1,099,102
             First Gothenburg Bancshares, Inc.,
2/27/2009                                                             Preferred Stock w/ Exercised Warrants          $7,570,000                                                                                                                                   $1,327,473
             Gothenburg, NE2
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49         Preferred Stock w/ Exercised Warrants         $20,699,000   9/22/2011         $20,699,000              $—     9/22/2011       R           $1,030,000                                        $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN          Preferred Stock w/ Warrants                 $866,540,000    12/22/2010       $866,540,000              $—     3/9/2011        R          $79,700,000           $8.65                       $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3           Preferred Stock                                $3,223,000                                                                                                                                     $437,343
3/13/2009    First Intercontinental Bank, Doraville, GA2              Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                                     $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT   Preferred Stock w/ Warrants                   $10,000,000   4/7/2010          $10,000,000              $—     4/7/2010        R           $1,488,046                                          $659,722
2/27/2009    First M&F Corporation, Kosciusko, MS30                   Preferred Stock w/ Warrants                   $30,000,000   9/29/2010         $30,000,000              $—                                                      $5.18       513,113          $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2            Preferred Stock w/ Exercised Warrants         $12,000,000   5/27/2009         $12,000,000              $—     5/27/2009       R             $600,000         $15.45                           $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011           $4,797,000             $—     9/15/2011       R             $240,000                                          $676,865
                                                                      Preferred Stock w/ Warrants                   $69,600,000   9/22/2011         $69,600,000              $—                                                                                  $12,167,111
2/20/2009    First Merchants Corporation, Muncie, IN27,49,50                                                                                                                        11/18/2011      P             $367,500         $12.46
                                                                      Trust Preferred Securities                    $46,400,000   9/22/2011         $46,400,000              $—                                                                                   $2,848,444
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                  Preferred Stock w/ Warrants                 $193,000,000    11/23/2011       $193,000,000              $—     12/21/2011      R             $900,000         $10.98                        $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2               Preferred Stock w/ Exercised Warrants         $13,900,000                                                                                                                                   $2,403,117
             First NBC Bank Holding Company,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants         $17,836,000   8/4/2011          $17,836,000              $—     8/4/2011        R             $892,000                                        $2,305,990
             New Orleans, LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY              Preferred Stock w/ Warrants                 $184,011,000    5/27/2009        $184,011,000              $—     6/24/2009       R           $2,700,000           $7.65                        $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49            Preferred Stock w/ Warrants                   $17,390,000   9/15/2011         $17,390,000              $—     11/16/2011      R             $375,000           $6.00                        $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA            Preferred Stock w/ Warrants                   $19,300,000   12/15/2010        $19,300,000              $—     1/5/2011        R           $1,003,227         $11.86      3,670,822          $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                  Preferred Stock w/ Warrants                   $72,927,000                                                                                                      $0.62                        $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2             Preferred Stock w/ Exercised Warrants          $4,579,000
                                                                                                                                                                                                                                                                  $1,361,039
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a         Preferred Stock                                $4,596,000
                                                                2
3/6/2009     First Reliance Bancshares, Inc., Florence, SC            Preferred Stock w/ Exercised Warrants         $15,349,000                                                                                                      $3.55                        $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50                       Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011           $2,600,000             $—     9/15/2011       R             $130,000
                                                                                                                                                                                                                                                                    $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49                   Preferred Stock                                $2,417,000   9/15/2011           $2,417,000             $—     N/A                                 N/A
1/9/2009     First Security Group, Inc., Chattanooga, TN              Preferred Stock w/ Warrants                   $33,000,000                                                                                                      $3.00       823,627          $1,402,500
12/23/2008   First Sound Bank, Seattle, WA                            Preferred Stock w/ Warrants                    $7,400,000                                                                                                      $0.03       114,080            $330,944
                                                                      Subordinated Debentures
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                              $50,000,000   9/28/2011         $13,125,000      $36,875,000                                                                                 $11,225,272
                                                                      w/ Exercised Warrants
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants         $10,900,000   6/16/2010         $10,900,000              $—     6/16/2010       R             $545,000                                          $818,468
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




3/6/2009     First Southwest Bancorporation, Inc., Alamosa, CO2       Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                     $207,327
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2              Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010            $731,000              $—     4/14/2010       R              $37,000                                           $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                Preferred Stock w/ Exercised Warrants         $13,533,000   9/15/2011         $13,533,000              $—     9/15/2011       R             $677,000                                        $1,862,389
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 245
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                 (Continued)                                                                                                                                                                         246
                                                                                                                             Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                         Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
                                                                 Subordinated Debentures
6/5/2009     First Trust Corporation, New Orleans, LA8                                                         $17,969,000                                                                                                                                   $1,046,896
                                                                 w/ Exercised Warrants
1/23/2009    First ULB Corp., Oakland, CA2                       Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009           $4,900,000             $—     4/22/2009       R             $245,000                                           $66,021
1/30/2009    First United Corporation, Oakland, MD               Preferred Stock w/ Warrants                   $30,000,000                                                                                                      $4.31       326,323          $2,312,500
6/12/2009    First Vernon Bancshares, Inc., Vernon, AL2,10,30    Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010           $6,000,000             $—     9/29/2010       R             $245,000                                          $417,770
2/6/2009     First Western Financial, Inc., Denver, CO2          Preferred Stock w/ Exercised Warrants          $8,559,000
                                                                                                                                                                                                                                                             $2,969,910
12/11/2009   First Western Financial, Inc., Denver, CO2,10a      Preferred Stock                               $11,881,000
1/30/2009    Firstbank Corporation, Alma, MI97                   Preferred Stock w/ Warrants                   $33,000,000   6/27/2012         $30,587,530              $—                                                      $9.80       578,947          $5,431,250
1/9/2009     FirstMerit Corporation, Akron, OH                   Preferred Stock w/ Warrants                 $125,000,000    4/22/2009        $125,000,000              $—     5/27/2009       R           $5,025,000         $16.51                         $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                    Preferred Stock w/ Warrants                 $266,657,000                                                                                                       $0.84     6,451,379         $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                Preferred Stock w/ Exercised Warrants         $20,471,000                                                                                                                                   $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49     Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011           $9,495,000             $—     9/22/2011       R             $475,000                                        $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY    Preferred Stock w/ Warrants                   $70,000,000   10/28/2009        $70,000,000              $—     12/30/2009      R             $900,000         $13.63                         $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50            Preferred Stock w/ Exercised Warrants         $12,000,000   9/15/2011         $12,000,000              $—     9/15/2011       R             $600,000         $16.15                         $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                    Common Stock w/ Warrants                      $51,500,000                                                                                                    $12.99         22,071          $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2      Preferred Stock w/ Exercised Warrants         $15,000,000                                                                                                    $12.80                         $2,452,500
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I July 25, 2012




5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2,82     Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                                      $87,185
4/3/2009     Fortune Financial Corporation, Arnold, MO2,50       Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011           $3,100,000             $—     9/15/2011       R             $155,000                                          $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55             Preferred Stock w/ Warrants                    $5,800,000                                                                                                      $0.02       183,158            $273,889
                                                                                                                             12/16/2009          $1,000,000      $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                   Preferred Stock w/ Exercised Warrants          $3,240,000                                                     6/16/2010       R             $162,000                                          $221,722
                                                                                                                             6/16/2010           $2,240,000             $—
5/22/2009    Franklin Bancorp, Inc., Washington, MO2             Preferred Stock w/ Exercised Warrants          $5,097,000                                                                                                                                     $827,998
                                                                 Subordinated Debentures
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                           $3,000,000                                                                                                                                     $759,993
                                                                 w/ Exercised Warrants
                                                                 Subordinated Debentures
6/26/2009    Fremont Bancorporation, Fremont, CA8                                                              $35,000,000                                                                                                                                   $8,475,080
                                                                 w/ Exercised Warrants
1/23/2009    Fresno First Bank, Fresno, CA2                      Preferred Stock w/ Exercised Warrants          $1,968,000                                                                                                                                     $321,660

                                                                 Subordinated Debentures                                     11/24/2009          $1,600,000      $1,400,000
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                                                             $3,000,000                                                     10/6/2010       R             $150,000                                          $258,192
                                                                 w/ Exercised Warrants                                       10/6/2010           $1,400,000             $—
12/23/2008   Fulton Financial Corporation, Lancaster, PA         Preferred Stock w/ Warrants                 $376,500,000    7/14/2010        $376,500,000              $—     9/8/2010        R          $10,800,000           $9.99                       $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2,80          Preferred Stock w/ Exercised Warrants          $6,000,000   4/13/2012           $6,000,000             $—     4/13/2012       R             $300,000                                          $960,795
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2     Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011           $8,700,000             $—     2/16/2011       R             $435,000                                          $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                  Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                           $—
             Germantown Capital Corporation, Inc.,
3/6/2009                                                         Preferred Stock w/ Exercised Warrants          $4,967,000                                                                                                                                     $864,059
             Germantown, TN2
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10               Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                                      $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2               Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                                     $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49            Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011            $4,000,000             $—     9/8/2011        R             $200,000                                          $517,145
                                                                 Subordinated Debentures
9/25/2009    Grand Financial Corporation, Hattiesburg, MS8                                                      $2,443,320                                                                                                                                     $540,896
                                                                 w/ Exercised Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2        Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                           $—
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50       Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011            $9,000,000             $—     9/8/2011        R             $450,000
                                                                                                                                                                                                                                $4.50                        $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49   Preferred Stock                                $6,319,000   9/8/2011            $6,319,000             $—     N/A                                 N/A
                                                                 Subordinated Debentures
7/17/2009    Great River Holding Company, Baxter, MN8                                                           $8,400,000                                                                                                                                     $759,575
                                                                 w/ Exercised Warrants
12/5/2008    Great Southern Bancorp, Springfield, MO50           Preferred Stock w/ Warrants                   $58,000,000   8/18/2011         $58,000,000              $—     9/21/2011       R           $6,436,364         $27.58                         $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59           Preferred Stock w/ Warrants                   $72,278,000   9/7/2011          $68,700,000              $—     N/A                                 N/A                                       $5,942,858
2/27/2009    Green Circle Investments, Inc., Clive, IA2          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $420,740
2/27/2009    Green City Bancshares, Inc., Green City, MO2        Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010            $651,000              $—     7/14/2010       R              $33,000                                           $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2           Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                                      $4.50                          $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                  Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                                       $45,190
                                                                                                                                                                                                                                                   Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                  (Continued)
                                                                                                                              Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50           Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011           $6,920,000             $—     9/15/2011       R             $346,000                                          $969,040
9/25/2009    Guaranty Capital Corporation, Belzoni, MS3,8,30      Subordinated Debentures                       $14,000,000   7/30/2010         $14,000,000              $—     N/A                                 N/A                                         $913,299
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO   Preferred Stock w/ Warrants                   $17,000,000   6/13/2012           $5,000,000     $12,000,000                                                     $7.91       459,459          $2,817,361
9/25/2009    GulfSouth Private Bank, Destin, FL10,21              Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                     $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50          Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011           $7,500,000             $—     8/18/2011       R             $375,000                                          $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2             Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011           $7,000,000             $—     4/13/2011       R             $350,000                                          $819,166
12/31/2008   Hampton Roads Bankshares, Inc., Norfolk, VA31        Common Stock w/ Warrants                      $80,347,000                                                                                                      $1.09        53,034          $2,510,844
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3      Preferred Stock                                $6,800,000                                                                                                                                     $282,744
             Hartford Financial Services Group, Inc.,
6/26/2009                                                         Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010       $3,400,000,000             $—     9/21/2010       A        $706,264,560          $17.63                      $129,861,111
             Hartford, CT
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2             Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010           $425,000              $—     12/29/2010      R              $21,000                                           $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO         Preferred Stock w/ Warrants                   $30,255,000   5/9/2012          $12,000,000      $18,255,000                                                     $9.23       276,090          $5,141,755
3/6/2009     HCSB Financial Corporation, Loris, SC                Preferred Stock w/ Warrants                   $12,895,000                                                                                                      $0.25        91,714          $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10         Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                    $13.25                         $1,009,349
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50         Preferred Stock w/ Warrants                   $81,698,000   9/15/2011         $81,698,000              $—     9/28/2011       R           $1,800,000         $24.00                        $11,188,087
                                                                                                                              3/16/2011           $2,606,000      $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50        Preferred Stock w/ Exercised Warrants         $10,103,000                                                     8/11/2011       R             $303,000         $12.20                           $947,284
                                                                                                                              8/11/2011           $7,497,000             $—
11/21/2008   Heritage Commerce Corp., San Jose, CA                Preferred Stock w/ Warrants                   $40,000,000   3/7/2012          $40,000,000              $—                                                      $6.50       462,963          $6,761,267
11/21/2008   Heritage Financial Corporation, Olympia, WA          Preferred Stock w/ Warrants                   $24,000,000   12/22/2010        $24,000,000              $—     8/17/2011       R             $450,000         $14.65                         $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA               Preferred Stock w/ Warrants                   $21,000,000                                                                                                      $5.57       611,650          $3,435,502
11/21/2008   HF Financial Corp., Sioux Falls, SD                  Preferred Stock w/ Warrants                   $25,000,000   6/3/2009          $25,000,000              $—     6/30/2009       R             $650,000         $19.00                           $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                          Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011           $3,091,000             $—     9/22/2011       R             $155,000           $4.25                          $547,251
             Vernon, NJ2,13 ,49
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                        Preferred Stock                                $2,359,000   9/22/2011           $2,359,000             $—     N/A                                 N/A
             Vernon, NJ2,10a,13,49
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants          $6,700,000                                                                                                                                     $617,712
             Sebring, FL2
1/30/2009    Hilltop Community Bancorp, Inc., Summit, NJ2         Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010           $4,000,000             $—     4/21/2010       R             $200,000           $5.75                          $267,050
12/23/2008   HMN Financial, Inc., Rochester, MN                   Preferred Stock w/ Warrants                   $26,000,000                                                                                                      $3.00       833,333          $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                    Preferred Stock w/ Warrants                   $50,000,000   7/6/2011          $50,000,000              $—     7/27/2011       R           $1,300,000         $30.58                         $6,180,556
2/20/2009    Hometown Bancorp of Alabama, Inc., Oneonta, AL2      Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                                     $573,342
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2               Preferred Stock w/ Exercised Warrants          $1,900,000                                                                                                                                     $337,113
             HomeTown Bankshares Corporation,
9/18/2009                                                         Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $4.95                        $1,456,279
             Roanoke, VA2,10
12/12/2008   HopFed Bancorp, Hopkinsville, KY                     Preferred Stock w/ Warrants                   $18,400,000                                                                                                      $7.20       253,666          $3,151,000
                                                                                                                              11/10/2010          $6,250,000     $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50                 Preferred Stock w/ Warrants                   $25,000,000                                                     11/18/2011      P           $1,750,551         $26.30                         $3,106,771
                                                                                                                              8/25/2011         $18,750,000              $—
                                                       2,49
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD              Preferred Stock w/ Exercised Warrants          $5,983,000   9/22/2011           $5,983,000             $—     9/22/2011       R             $299,000           $6.55                          $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a          Preferred Stock w/ Exercised Warrants          $5,000,000
                                                                                                                                                                                                                                                              $1,321,339
5/1/2009     HPK Financial Corporation, Chicago, IL2              Preferred Stock w/ Exercised Warrants          $4,000,000
11/14/2008   Huntington Bancshares, Columbus, OH                  Preferred Stock w/ Warrants                $1,398,071,000   12/22/2010      $1,398,071,000             $—     1/19/2011       R          $49,100,000           $6.40                     $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2                     Preferred Stock w/ Exercised Warrants          $1,552,000                                                                                                                                     $277,131
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                     Preferred Stock w/ Exercised Warrants          $5,976,000                                                                                                                                     $837,500
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                 Subordinated Debentures                        $4,205,000   9/10/2010           $4,205,000             $—     N/A                                 N/A                                         $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                Preferred Stock w/ Warrants                   $90,000,000   3/31/2009         $90,000,000              $—     5/20/2009       R           $1,200,000         $50.45                         $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                       Preferred Stock w/ Exercised Warrants          $2,295,000                                                                                                                                     $391,980
3/13/2009    IBW Financial Corporation , Washington, DC2,3a,30    Preferred Stock                                $6,000,000   9/3/2010            $6,000,000             $—     N/A                                 N/A        $10.50                           $453,067
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012




3/6/2009     ICB Financial, Ontario, CA2                          Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                      $3.76                        $1,043,675
1/16/2009    Idaho Bancorp, Boise, ID2                            Preferred Stock w/ Exercised Warrants          $6,900,000                                                                                                      $0.02                          $124,306
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49        Preferred Stock w/ Exercised Warrants          $6,272,000   9/22/2011           $6,272,000             $—     9/22/2011       R             $314,000
                                                                                                                                                                                                                                                              $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49    Preferred Stock w/ Exercised Warrants          $4,000,000   9/22/2011           $4,000,000             $—     9/22/2011       R              $92,000
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             247
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                   (Continued)                                                                                                                                                                        248
                                                                                                                              Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
1/9/2009     Independence Bank, East Greenwich, RI2               Preferred Stock w/ Exercised Warrants          $1,065,000                                                                                                                                     $194,367
1/9/2009     Independent Bank Corp., Rockland, MA                 Preferred Stock w/ Warrants                   $78,158,000   4/22/2009         $78,158,000              $—     5/27/2009       R           $2,200,000         $29.21                         $1,118,094
                                                                  Mandatorily Convertible Preferred
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                          $74,426,000                                                                                                      $2.47       346,154          $2,430,000
                                                                  Stock w/ Warrants
4/24/2009    Indiana Bank Corp., Dana, IN2                        Preferred Stock w/ Exercised Warrants          $1,312,000                                                                                                                                     $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN              Preferred Stock w/ Warrants                   $21,500,000                                                                                                    $22.05        188,707          $3,681,875
2/27/2009    Integra Bank Corporation, Evansville, IN14,57        Preferred Stock w/ Warrants                   $83,586,000                                                                                                                7,418,876          $1,950,340
12/19/2008   Intermountain Community Bancorp, Sandpoint, ID       Preferred Stock w/ Warrants                   $27,000,000                                                                                                      $1.05       653,226          $1,222,500
12/23/2008   International Bancshares Corporation, Laredo, TX     Preferred Stock w/ Warrants                 $216,000,000                                                                                                     $19.52      1,326,238         $36,660,000
12/23/2008   Intervest Bancshares Corporation, New York, NY       Preferred Stock w/ Warrants                   $25,000,000                                                                                                      $3.83       691,882          $1,118,056
             Investors Financial Corporation of Pettis County,    Subordinated Debentures
5/8/2009                                                                                                         $4,000,000                                                                                                                                     $174,325
             Inc., Sedalia, MO8                                   w/ Exercised Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                   Preferred Stock w/ Warrants               $25,000,000,000   6/17/2009      $25,000,000,000             $—     12/10/2009      A        $936,063,469          $35.73                      $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49           Preferred Stock w/ Exercised Warrants         $10,449,000   8/18/2011         $10,449,000              $—     8/18/2011       R             $522,000         $13.00                         $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                               Preferred Stock w/ Warrants                $2,500,000,000   3/30/2011       $2,500,000,000             $—     4/20/2011       R          $70,000,000           $7.74                     $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2            Preferred Stock w/ Exercised Warrants           $470,000                                                                                                                                       $80,900
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I July 25, 2012




8/21/2009    KS Bancorp, Inc., Smithfield, NC2                    Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                      $4.00                          $595,867
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30              Preferred Stock w/ Exercised Warrants          $1,998,000   9/29/2010           $1,998,000             $—     9/29/2010       R             $100,000
                                                                                                                                                                                                                                                                $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30          Preferred Stock                                $2,453,000   9/29/2010           $2,453,000             $—     N/A                                 N/A
                                                                                                                              8/4/2010          $20,000,000      $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ                Preferred Stock w/ Warrants                   $59,000,000   3/16/2011         $20,000,000      $19,000,000    2/29/2012       R           $2,800,000         $10.52                         $6,460,833
                                                                                                                              2/8/2012          $19,000,000              $—
2/27/2009    Lakeland Financial Corporation, Warsaw, IN           Preferred Stock w/ Warrants                   $56,044,000   6/9/2010          $56,044,000              $—     11/18/2011      P             $877,557         $26.83                         $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2          Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $393,763
1/9/2009     LCNB Corp., Lebanon, OH                              Preferred Stock w/ Warrants                   $13,400,000   10/21/2009        $13,400,000              $—     11/18/2011      P             $602,557         $13.33                           $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                 Preferred Stock w/ Exercised Warrants          $5,830,000   11/24/2010          $5,830,000             $—     11/24/2010      R             $292,000                                          $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53              Preferred Stock                                $5,498,000                                                                                                                                     $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50          Preferred Stock w/ Exercised Warrants         $57,500,000   7/21/2011         $57,500,000              $—     7/21/2011       R           $2,875,000                                        $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50        Preferred Stock w/ Exercised Warrants         $21,900,000   8/18/2011         $21,900,000              $—     8/18/2011       R           $1,095,000                                        $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10         Preferred Stock w/ Exercised Warrants          $6,500,000                                                                                                                                     $838,516
             Liberty Financial Services, Inc., New Orleans,
2/6/2009                                                          Preferred Stock                                $5,645,000   9/24/2010           $5,645,000             $—     N/A                                 N/A                                         $461,009
             LA3,30
2/20/2009    Liberty Shares, Inc., Hinesville, GA2                Preferred Stock w/ Exercised Warrants         $17,280,000                                                                                                                                   $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA             Preferred Stock w/ Warrants                 $950,000,000    6/30/2010        $950,000,000              $—     9/16/2010       A        $213,671,319          $21.87                        $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH 88                      Preferred Stock w/ Warrants                   $25,223,000   6/13/2012         $21,863,750              $—                                                      $6.58       561,343          $4,438,492
2/6/2009     Lone Star Bank, Houston, TX2                         Preferred Stock w/ Exercised Warrants          $3,072,000                                                                                                                                           $—
12/12/2008   LSB Corporation, North Andover, MA                   Preferred Stock w/ Warrants                   $15,000,000   11/18/2009        $15,000,000              $—     12/16/2009      R             $560,000                                          $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30               Preferred Stock                               $11,735,000   8/20/2010         $11,735,000              $—     N/A                                 N/A                                         $674,763
             M&T Bank Corporation (Provident Bancshares
12/23/2008                                                        Preferred Stock w/ Warrants                 $600,000,000    5/18/2011        $370,000,000     $230,000,000                                                   $82.57        407,542          $9,489,792
             Corp.), Baltimore, MD
11/14/2008   M&T Bank Corporation, Buffalo, NY                    Preferred Stock w/ Warrants                 $151,500,000                                                                                                                 1,218,522       $100,531,250
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                        Preferred Stock w/ Warrants                 $330,000,000    5/13/2011        $330,000,000              $—                                                                   95,383         $39,920,833
             Corporation), Wilmington, DE43
4/24/2009    Mackinac Financial Corporation, Manistique, MI       Preferred Stock w/ Warrants                   $11,000,000                                                                                                      $5.99       379,310          $1,682,083
3/13/2009    Madison Financial Corporation, Richmond, KY2         Preferred Stock w/ Exercised Warrants          $3,370,000                                                                                                                                     $169,422
                                                                                                                              11/24/2009          $3,455,000     $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                          Preferred Stock w/ Exercised Warrants         $13,795,000   6/8/2011            $3,455,000      $6,885,000    8/18/2011       R             $690,000                                        $1,661,468
                                                                                                                              8/18/2011           $6,885,000             $—
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2, 73           Preferred Stock w/ Exercised Warrants          $4,500,000   3/9/2012            $4,500,000             $—     3/9/2012        R             $225,000         $69.50                           $538,188
1/16/2009    MainSource Financial Group, Inc., Greensburg, IN78   Preferred Stock w/ Warrants                   $57,000,000   3/28/2012         $52,277,171              $—                                                    $11.83        571,906          $9,159,773
12/5/2008    Manhattan Bancorp, El Segundo, CA                    Preferred Stock w/ Warrants                    $1,700,000   9/16/2009           $1,700,000             $—     10/14/2009      R              $63,364           $3.85                           $66,347
                                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                     (Continued)
                                                                                                                                Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
                                                                    Subordinated Debentures
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8                                                            $2,639,000                                                                                                                                     $643,345
                                                                    w/ Exercised Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2           Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2           Preferred Stock w/ Exercised Warrants          $2,060,000                                                                                                                                     $138,778
                                                                    Subordinated Debentures
5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL8                                                      $20,300,000                                                                                                                                   $5,109,510
                                                                    w/ Exercised Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2           Preferred Stock w/ Exercised Warrants         $35,500,000                                                                                                   $107.00                         $6,588,899
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44         Preferred Stock w/ Warrants                $1,715,000,000   7/5/2011        $1,715,000,000             $—     7/5/2011        R           $3,250,000                                     $226,522,917
3/27/2009    Maryland Financial Bank, Towson, MD2                   Preferred Stock w/ Exercised Warrants          $1,700,000                                                                                                                                     $197,653
12/5/2008    MB Financial Inc., Chicago, IL                         Preferred Stock w/ Warrants                 $196,000,000    3/14/2012        $196,000,000              $—     5/2/2012        R           $1,518,072         $21.54                        $32,095,000
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50             Preferred Stock w/ Exercised Warrants          $6,000,000   8/18/2011           $6,000,000             $—     8/18/2011       R             $300,000                                          $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49                 Preferred Stock w/ Exercised Warrants         $11,800,000   7/21/2011         $11,800,000              $—     7/21/2011       R             $590,000
                                                                                                                                                                                                                                                                $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49             Preferred Stock w/ Exercised Warrants          $9,698,000   7/21/2011           $9,698,000             $—     7/21/2011       R              $55,000
                                                                                                                                4/4/2012          $10,500,000      $10,500,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI          Preferred Stock w/ Warrants                   $21,000,000                                                                                                    $18.45        616,438          $3,166,021
                                                                                                                                6/6/2012          $10,500,000              $—
2/6/2009     Mercantile Capital Corp., Boston, MA2,49               Preferred Stock w/ Exercised Warrants          $3,500,000   8/4/2011            $3,500,000             $—     8/4/2011        R             $175,000                                          $475,815
             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                           Preferred Stock w/ Exercised Warrants          $3,510,000   9/8/2011            $3,510,000             $—     9/8/2011        R             $176,000                                          $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc., Toone,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants          $1,881,000   9/7/2011            $1,881,000             $—     9/7/2011        R              $94,000                                          $256,560
             TN2,62
2/13/2009    Meridian Bank, Devon, PA2                              Preferred Stock w/ Exercised Warrants          $6,200,000
                                                                                                                                                                                                                                                                $1,869,051
12/11/2009   Meridian Bank, Devon, PA2,10a                          Preferred Stock                                $6,335,000
                                              2
1/30/2009    Metro City Bank, Doraville, GA                         Preferred Stock w/ Exercised Warrants          $7,700,000                                                                                                                                   $1,381,348
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX95              Preferred Stock w/ Warrants                   $45,000,000   6/27/2012         $43,490,360              $—                                                    $10.67        771,429          $7,528,750
             Metropolitan Bank Group, Inc.
6/26/2009                                                           Preferred Stock w/ Exercised Warrants         $74,706,000                                                                                                                                     $332,256
             (NC Bancorp, Inc.), Chicago, IL2,41
                                                          2,41
6/26/2009    Metropolitan Bank Group, Inc., Chicago, IL             Preferred Stock w/ Exercised Warrants          $7,186,000                                                                                                                                   $3,454,185
4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2       Preferred Stock w/ Exercised Warrants          $2,040,000
                                                                                                                                                                                                                                                                  $636,219
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a   Preferred Stock                                $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                Preferred Stock w/ Warrants                   $10,000,000                                                                                                    $10.95         73,099          $1,702,778
1/30/2009    Middleburg Financial Corporation, Middleburg, VA       Preferred Stock w/ Warrants                   $22,000,000   12/23/2009        $22,000,000              $—     11/18/2011      P             $301,001                                          $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2           Preferred Stock w/ Exercised Warrants         $10,189,000   12/23/2009        $10,189,000              $—     12/23/2009      R             $509,000                                          $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49                Preferred Stock w/ Warrants                   $20,000,000   8/25/2011         $20,000,000              $—     11/18/2011      P             $206,557                                        $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2             Preferred Stock w/ Exercised Warrants          $5,222,000                                                                                                                                     $275,105
                                                                    Mandatorily Convertible Preferred
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                   $89,388,000                                                                                                                4,282,020            $824,289
                                                                    Stock w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2            Preferred Stock w/ Exercised Warrants           $700,000    11/10/2009           $700,000              $—     11/10/2009      R              $35,000                                           $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA        Preferred Stock w/ Warrants                   $16,000,000   7/6/2011          $16,000,000              $—     7/27/2011       R           $1,000,000         $21.50                         $1,933,333
2/20/2009    Mid-Wisconsin Financial Services, Inc., Medford, WI2   Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $6.00                        $1,082,431
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2,84              Preferred Stock w/ Exercised Warrants          $7,260,000                                                                                                                                     $343,053
1/9/2009     Mission Community Bancorp, San Luis Obispo, CA3        Preferred Stock                                $5,116,000   12/28/2011          $5,116,000             $—     N/A                                 N/A          $3.01                          $759,584
12/23/2008   Mission Valley Bancorp, Sun Valley, CA3,30             Preferred Stock                                $5,500,000   8/20/2010           $5,500,000             $—     N/A                                 N/A                                         $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2             Preferred Stock w/ Exercised Warrants          $1,834,000                                                                                                      $4.95                          $190,517
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI         Preferred Stock w/ Warrants                    $6,785,000                                                                                                      $1.21       260,962            $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA       Preferred Stock w/ Warrants                   $14,700,000   12/23/2009        $14,700,000              $—     2/10/2010       R             $260,000           $9.85                          $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50             Preferred Stock w/ Exercised Warrants          $9,516,000   9/15/2011           $9,516,000             $—     9/15/2011       R             $476,000                                        $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                        Preferred Stock w/ Exercised Warrants          $4,734,000   8/11/2011           $4,734,000             $—     8/11/2011       R             $237,000                                          $652,959
10/28/2008   Morgan Stanley, New York, NY                           Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     8/12/2009       R        $950,000,000          $14.59                      $318,055,555
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I July 25, 2012




1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                 Preferred Stock w/ Exercised Warrants         $13,000,000   7/20/2011         $13,000,000              $—     7/20/2011       R             $650,000                                        $1,779,122
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                   Preferred Stock w/ Exercised Warrants          $6,216,000   4/25/2012           $1,100,000      $5,116,000                                                                                  $1,118,716
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2       Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                                     $474,604
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               249
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                    (Continued)                                                                                                                                                                         250
                                                                                                                                Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
3/27/2009    MS Financial, Inc., Kingwood, TX2                      Preferred Stock w/ Exercised Warrants          $7,723,000   10/19/2011          $7,723,000             $—     10/19/2011      R             $386,000                                        $1,097,290
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50              Preferred Stock w/ Warrants                   $32,382,000   8/25/2011         $32,382,000              $—     9/28/2011       R             $900,194         $10.50                         $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2                      Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2             Preferred Stock w/ Exercised Warrants         $24,664,000                                                                                                                                   $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA          Preferred Stock w/ Warrants                 $150,000,000    3/16/2011        $150,000,000              $—     4/13/2011       R           $1,000,000           $9.55                       $16,958,333
                                                                    Subordinated Debentures
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                          $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000                                          $176,190
                                                                    w/ Exercised Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                         Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $1.96                        $1,311,028
                                                                    Subordinated Debentures
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                    $2,330,000                                                                                                                                     $568,199
                                                                    w/ Exercised Warrants
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                           Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     2/15/2012       R             $737,100         $12.75                         $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                            Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                                   $48,797,641
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                      Preferred Stock w/ Warrants                   $52,372,000                                                                                                      $4.38     2,567,255          $8,968,705
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49            Preferred Stock w/ Exercised Warrants         $14,964,000   9/1/2011          $14,964,000              $—     9/1/2011        R             $748,000                                        $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA         Preferred Stock w/ Warrants                   $10,200,000   12/14/2011        $10,200,000              $—     1/11/2012       R             $600,000         $30.55                         $1,494,583
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 25, 2012




12/12/2008   Northeast Bancorp, Lewiston, ME                        Preferred Stock w/ Warrants                    $4,227,000                                                                                                      $8.48        67,958            $723,874
5/15/2009    Northern State Bank, Closter, NJ2                      Preferred Stock w/ Exercised Warrants          $1,341,000   3/28/2012           $1,341,000             $—     3/28/2012       R              $67,000
                                                                                                                                                                                                                                                                  $349,782
12/18/2009   Northern State Bank, Closter, NJ2,10a                  Preferred Stock                                $1,230,000   3/28/2012           $1,230,000             $—     N/A                                 N/A
             Northern States Financial Corporation,
2/20/2009                                                           Preferred Stock w/ Warrants                   $17,211,000                                                                                                      $0.82       584,084            $418,323
             Waukegan, IL
11/14/2008   Northern Trust Corporation, Chicago, IL                Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009       $1,576,000,000             $—     8/26/2009       R          $87,000,000         $46.02                        $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49               Preferred Stock w/ Exercised Warrants         $10,000,000   9/15/2011         $10,000,000              $—     9/15/2011       R             $500,000         $11.35                         $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2           Preferred Stock w/ Exercised Warrants         $10,500,000                                                                                                                                     $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2               Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                                     $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC      Preferred Stock w/ Warrants                    $7,700,000                                                                                                      $4.54       163,830          $1,267,292
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                      Preferred Stock w/ Warrants                   $13,500,000   8/11/2011         $13,500,000              $—     9/28/2011       R             $560,000           $6.96                        $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ             Preferred Stock w/ Warrants                   $38,263,000   12/30/2009        $38,263,000              $—     2/3/2010        R             $430,797         $14.36                         $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                         Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                                      $5.25                          $316,463
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                   Preferred Stock w/ Warrants                    $7,000,000   7/15/2009           $7,000,000             $—     9/2/2009        R             $225,000         $10.27                           $213,889
12/12/2008   Old National Bancorp, Evansville, IN                   Preferred Stock w/ Warrants                 $100,000,000    3/31/2009        $100,000,000              $—     5/8/2009        R           $1,200,000         $12.01                         $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                   Preferred Stock w/ Warrants                   $73,000,000                                                                                                      $1.30       815,339          $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                     Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                                      $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                      Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                           $—
                                                                    Subordinated Debentures
6/5/2009     OneFinancial Corporation , Little Rock, AR8,10                                                       $17,300,000                                                                                                                                   $3,782,991
                                                                    w/ Exercised Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                          Preferred Stock                               $12,063,000                                                                                                                                      $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                       Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                                      $8.00                          $536,095
                                                                    Subordinated Debentures w/ Exercised
5/1/2009     OSB Financial Services, Inc., Orange, TX8                                                             $6,100,000   10/5/2011           $6,100,000             $—     10/5/2011       R             $305,000                                        $1,257,315
                                                                    Warrants
                                                           29
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA             Common Stock w/ Warrants                    $195,045,000                                                                                                     $45.73         15,120          $2,107,397
12/19/2008   Pacific City Financial Corporation, Los Angeles, CA2   Preferred Stock w/ Exercised Warrants         $16,200,000                                                                                                                                     $358,065
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                          Preferred Stock w/ Exercised Warrants         $11,600,000   7/28/2011         $11,600,000              $—     7/28/2011       R             $580,000                                        $1,641,964
             San Francisco, CA2,50
             Pacific Coast National Bancorp,
1/16/2009                                                           Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                 $—               $—     N/A                                 N/A                                          $18,088
             San Clemente, CA2,19
12/23/2008   Pacific Commerce Bank, Los Angeles, CA2                Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                                      $3.49                          $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA             Preferred Stock w/ Warrants                    $6,500,000                                                                                                      $1.99                          $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2                Preferred Stock w/ Exercised Warrants         $23,200,000                                                                                                                                   $4,035,543
12/23/2008   Park National Corporation, Newark, OH                  Preferred Stock w/ Warrants                 $100,000,000    4/25/2012        $100,000,000              $—     5/2/2012        R           $2,842,400         $69.75                        $16,694,444
1/30/2009    Parke Bancorp, Inc., Sewell, NJ                        Preferred Stock w/ Warrants                   $16,288,000                                                                                                      $5.21       399,006          $2,680,733
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                   (Continued)
                                                                                                                               Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                          Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
             Pascack Bancorp, Inc.(Pascack Community Bank),
2/6/2009                                                          Preferred Stock w/ Exercised Warrants           $3,756,000   10/19/2011          $3,756,000             $—     10/19/2011      R             $188,000                                          $553,313
             Westwood, NJ2,13
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD2                 Preferred Stock w/ Exercised Warrants           $6,000,000                                                                                                      $0.62                          $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49               Preferred Stock w/ Warrants                     $6,771,000   9/1/2011            $6,771,000             $—     2/1/2012        R             $537,633           $9.00                          $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                          Preferred Stock w/ Exercised Warrants           $3,727,000                                                                                                                                      $77,852
12/19/2008   Patriot Bancshares, Inc., Houston, TX2               Preferred Stock w/ Exercised Warrants          $26,038,000                                                                                                                                   $2,704,136
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2            Preferred Stock w/ Exercised Warrants           $3,690,000   3/7/2012             $250,000       $3,440,000                                                                                    $635,844
                                                                                                                               1/6/2010            $7,172,000     $21,513,000
             Peapack-Gladstone Financial Corporation,
1/9/2009                                                          Preferred Stock w/ Warrants                    $28,685,000   3/2/2011            $7,172,000     $14,341,000    4/4/2012        R             $110,000         $15.51                         $3,280,740
             Gladstone, NJ
                                                                                                                               1/11/2012         $14,341,000              $—
1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA            Preferred Stock w/ Warrants                     $6,000,000                                                                                                                   81,670          $1,008,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49          Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011            $9,960,000             $—     9/1/2011        R             $498,000                                        $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                      Preferred Stock w/ Exercised Warrants          $18,000,000   8/3/2011          $18,000,000              $—     8/3/2011        R             $900,000                                        $2,425,250
                                                                                                                               2/2/2011          $21,000,000      $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                   Preferred Stock w/ Warrants                    $39,000,000                                                     2/15/2012       R           $1,200,724         $21.98                         $4,725,833
                                                                                                                               12/28/2011        $18,000,000              $—
             Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                        Preferred Stock w/ Warrants                    $25,054,000   6/27/2012         $23,033,635              $—                                                      $7.95       357,234          $4,252,221
             Newton, NC93
4/24/2009    Peoples Bancorporation, Inc., Easley, SC2,83         Preferred Stock w/ Exercised Warrants          $12,660,000   4/24/2012         $12,660,000              $—     4/24/2012       R             $633,000                                        $2,069,910
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2     Preferred Stock w/ Exercised Warrants           $3,900,000                                                                                                                                     $670,123
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2         Preferred Stock w/ Exercised Warrants          $12,325,000                                                                                                                                   $2,143,811
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50   Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011           $1,500,000             $—     8/25/2011       R              $71,000                                          $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                  Preferred Stock                                 $3,000,000   8/13/2010           $3,000,000             $—     N/A                                 N/A                                         $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                                     $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                                  267,455            $284,999
             Orange City, FL2
                                                                                                                               12/28/2011        $23,750,000      $71,250,000
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN     Preferred Stock w/ Warrants                    $95,000,000                                                                                                    $19.51                        $16,163,194
                                                                                                                               6/20/2012         $71,250,000              $—
12/19/2008   Plains Capital Corporation, Dallas, TX2,49           Preferred Stock w/ Exercised Warrants          $87,631,000   9/27/2011         $87,631,000              $—     9/27/2011       R           $4,382,000                                       $13,239,940
                                                                  Subordinated Debentures w/ Exercised
7/17/2009    Plato Holdings Inc., Saint Paul, MN8,10                                                              $2,500,000                                                                                                                                     $534,286
                                                                  Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                           Preferred Stock w/ Warrants                    $11,949,000                                                                                                      $3.12       237,712            $622,344
12/5/2008    Popular, Inc., San Juan, PR12                        Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                     $16.61      2,093,284       $148,171,528
11/21/2008   Porter Bancorp Inc., Louisville, KY                  Preferred Stock w/ Warrants                    $35,000,000                                                                                                      $1.51       330,561          $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2           Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                                     $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30            Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000             $—     N/A                                 N/A                                         $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2       Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                                     $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV      Preferred Stock w/ Warrants                    $22,252,000                                                                                                      $7.35       628,588          $2,924,868
                                                                  Subordinated Debentures
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                 $6,349,000                                                                                                                                     $522,263
                                                                  w/ Exercised Warrants
                                                    2
2/20/2009    Premier Service Bank, Riverside, CA                  Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                                      $1.45                           $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                     Preferred Stock w/ Warrants                    $41,400,000                                                                                                      $1.37       109,039          $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10                 Preferred Stock w/ Exercised Warrants          $10,800,000                                                                                                      $7.75                        $1,415,219
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL      Preferred Stock w/ Warrants                    $25,083,000                                                                                                      $0.20       155,025          $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                                 $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a   Preferred Stock                                 $3,262,000
1/30/2009    PrivateBancorp, Inc., Chicago, IL                    Preferred Stock w/ Warrants                  $243,815,000                                                                                                     $14.76        645,013         $40,127,885
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49              Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $175,000                                          $421,312
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 25, 2012




             Provident Community Bancshares, Inc.,
3/13/2009                                                         Preferred Stock w/ Warrants                     $9,266,000                                                                                                      $0.16       178,880            $543,091
             Rock Hill, SC
2/27/2009    PSB Financial Corporation, Many, LA2,30              Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010           $9,270,000             $—     9/29/2010       R             $464,000                                          $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                   Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011           $4,500,000             $—     8/11/2011       R             $225,000           $9.75                          $630,157
                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                              251
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                    (Continued)                                                                                                                                                                         252
                                                                                                                                Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO96              Preferred Stock w/ Warrants                   $32,538,000   6/27/2012         $28,460,338              $—                                                      $7.41       778,421          $5,418,481
2/13/2009    QCR Holdings, Inc., Moline, IL49                       Preferred Stock w/ Warrants                   $38,237,000   9/15/2011         $38,237,000              $—     11/16/2011      R           $1,100,000         $13.10                         $4,949,567
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2           Preferred Stock w/ Exercised Warrants          $6,229,000                                                                                                                                     $608,163
6/19/2009    RCB Financial Corporation, Rome, GA2,10                Preferred Stock w/ Exercised Warrants          $8,900,000                                                                                                                                     $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49                Preferred Stock w/ Exercised Warrants          $3,800,000   7/21/2011           $3,800,000             $—     7/21/2011       R             $190,000           $7.00                          $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49          Preferred Stock w/ Exercised Warrants          $2,995,000   8/18/2011           $2,995,000             $—     8/18/2011       R             $150,000         $11.60                           $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                       Preferred Stock w/ Exercised Warrants          $9,982,000                                                                                                                                     $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49             Preferred Stock w/ Exercised Warrants          $2,655,000   7/21/2011           $2,655,000             $—     7/21/2011       R             $133,000                                          $347,328
10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10,69         Preferred Stock w/ Exercised Warrants         $12,700,000   1/27/2012         $12,700,000              $—     1/27/2012       R             $381,000                                        $1,513,339
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2             Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                     $266,142
11/14/2008   Regions Financial Corporation, Birmingham, AL          Preferred Stock w/ Warrants                $3,500,000,000   4/4/2012        $3,500,000,000             $—     5/2/2012        R          $45,000,000           $6.75                     $593,055,555
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2              Preferred Stock w/ Exercised Warrants         $40,000,000                                                                                                      $0.70                        $3,827,111
2/27/2009    Ridgestone Financial Services, Inc., Brookfield, WI2   Preferred Stock w/ Exercised Warrants         $10,900,000                                                                                                                                     $277,224
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                    Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                                     $195,637
                                                                    Subordinated Debentures
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI8                                                       $15,000,000   6/6/2012          $10,500,000       $4,500,000                                                   $15.64                         $3,728,275
                                                                    w/ Exercised Warrants
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 25, 2012




                                                                    Subordinated Debentures
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR8                                                          $1,100,000                                                                                                                                     $276,870
                                                                    w/ Exercised Warrants
                                                         2
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR               Preferred Stock w/ Exercised Warrants         $25,000,000                                                                                                                                     $738,021
             Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                           Preferred Stock w/ Warrants                   $30,407,000                                                                                                      $1.81     1,104,370            $358,971
             Narberth, PA
1/16/2009    S&T Bancorp, Indiana, PA                               Preferred Stock w/ Warrants                 $108,676,000    12/7/2011        $108,676,000              $—                                                    $18.47        517,012         $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                 Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                      $0.66                                $—
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49               Preferred Stock w/ Warrants                    $8,816,000   8/25/2011           $8,816,000             $—     11/2/2011       R             $205,000         $24.65                         $1,079,960
                                                                                                                                7/21/2010         $41,547,000      $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                  Preferred Stock w/ Warrants                   $83,094,000                                                     2/23/2011       R           $4,450,000         $18.00                         $7,593,868
                                                                                                                                12/15/2010        $41,547,000              $—
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA2        Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                                      $5.26                          $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64                  Preferred Stock w/ Warrants                    $4,000,000   10/21/2011          $2,800,000             $—     N/A                                 N/A          $0.34                          $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                    Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011           $4,000,000             $—     8/11/2011       R             $200,000                                          $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC               Preferred Stock w/ Warrants                   $64,779,000   5/20/2009         $64,779,000              $—     6/24/2009       R           $1,400,000         $35.25                         $1,115,639
             Seacoast Banking Corporation of Florida,
12/19/2008                                                          Preferred Stock w/ Warrants                   $50,000,000   3/28/2012         $40,404,700              $—     5/30/2012       R              $55,000           $1.49                        $8,585,770
             Stuart, FL77
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA2,49            Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011            $1,800,000             $—     9/1/2011        R              $90,000           $4.25                          $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                           Preferred Stock w/ Exercised Warrants          $2,152,000                                                                                                                                     $381,942
             Waynesville, MO2
                                                             2,49
1/9/2009     Security Business Bancorp, San Diego, CA               Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011           $5,803,000             $—     7/14/2011       R             $290,000                                          $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49         Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011           $6,815,000             $—     9/15/2011       R             $341,000           $9.65                          $996,698
6/26/2009    Security Capital Corporation, Batesville, MS2,10,30    Preferred Stock w/ Exercised Warrants         $17,388,000   9/29/2010         $17,388,000              $—     9/29/2010       R             $522,000                                        $1,153,111
12/19/2008   Security Federal Corporation, Aiken, SC30              Preferred Stock w/ Warrants                   $18,000,000   9/29/2010         $18,000,000              $—                                                      $8.50       137,966          $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49    Preferred Stock w/ Exercised Warrants         $12,500,000   9/22/2011         $12,500,000              $—     9/22/2011       R             $625,000                                        $1,763,680
             Security State Bank Holding-Company,                   Subordinated Debentures
5/1/2009                                                                                                          $10,750,000                                                                                                                                   $1,414,005
             Jamestown, ND8                                         w/ Exercised Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                    Preferred Stock w/ Warrants                   $23,393,000                                                                                                      $3.12       556,976          $3,781,869
1/9/2009     Shore Bancshares, Inc., Easton, MD                     Preferred Stock w/ Warrants                   $25,000,000   4/15/2009         $25,000,000              $—     11/16/2011      R              $25,000           $5.98       172,970            $333,333

                                                     8              Subordinated Debentures
6/26/2009    Signature Bancshares, Inc., Dallas, TX                                                                $1,700,000   12/15/2010          $1,700,000             $—     12/15/2010      R              $85,000                                          $209,588
                                                                    w/ Exercised Warrants
12/12/2008   Signature Bank, New York, NY                           Preferred Stock w/ Warrants                 $120,000,000    3/31/2009        $120,000,000              $—     3/10/2010       A          $11,150,940         $60.97                         $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ              Preferred Stock w/ Warrants                    $7,414,000   5/20/2009           $7,414,000             $—     6/24/2009       R             $275,000           $8.50                          $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                  Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                                     $347,164
1/9/2009     Sound Banking Company, Morehead City, NC2              Preferred Stock w/ Exercised Warrants          $3,070,000                                                                                                      $4.30                          $560,656
12/5/2008    South Financial Group, Inc., Greenville, SC26          Preferred Stock w/ Warrants                 $347,000,000    9/30/2010        $130,179,219              $—     9/30/2010       R             $400,000                                       $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2    Preferred Stock w/ Exercised Warrants         $12,900,000                                                                                                      $4.00                          $933,494
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                         (Continued)
                                                                                                                                     Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                                Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30                Preferred Stock                                $11,000,000   8/6/2010          $11,000,000              $—     N/A                                 N/A                                         $855,556
             Southern Community Financial Corp.,
12/5/2008                                                               Preferred Stock w/ Warrants                    $42,750,000                                                                                                      $3.16     1,623,418          $4,156,250
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC98          Preferred Stock w/ Warrants                    $17,299,000   6/27/2012         $15,403,722              $—                                                      $8.50       399,970          $2,782,256
             Southern Heritage Bancshares, Inc.,
5/15/2009                                                               Preferred Stock w/ Exercised Warrants           $4,862,000   9/8/2011            $4,862,000             $—     9/8/2011        R             $243,000                                          $613,111
             Cleveland, TN2,50
1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49             Preferred Stock w/ Exercised Warrants           $5,000,000   8/25/2011           $5,000,000             $—     8/25/2011       R             $250,000                                          $705,472
12/5/2008    Southern Missouri Bancorp, Inc., Poplar Bluff, MO49        Preferred Stock w/ Warrants                     $9,550,000   7/21/2011           $9,550,000             $—                                                    $21.50        114,326          $1,254,764
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2                Preferred Stock w/ Exercised Warrants           $2,760,000                                                                                                      $1.75                          $364,796
12/5/2008    Southwest Bancorp, Inc., Stillwater, OK                    Preferred Stock w/ Warrants                    $70,000,000                                                                                                      $9.41       703,753          $8,555,556
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49                 Preferred Stock w/ Exercised Warrants          $18,215,000   9/22/2011         $18,215,000              $—     9/22/2011       R             $911,000                                        $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                        Preferred Stock w/ Exercised Warrants          $30,000,000                                                                                                                                   $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2                 Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                                     $518,658
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2              Preferred Stock w/ Exercised Warrants          $60,000,000                                                                                                                                   $6,730,750
                                                                                                                                     8/12/2009         $12,500,000      $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                         Preferred Stock w/ Exercised Warrants          $50,000,000                                                     6/29/2011       R           $2,500,000                                        $5,508,472
                                                                                                                                     6/29/2011         $37,500,000              $—
                                                           2,30
2/13/2009    State Capital Corporation, Greenwood, MS                   Preferred Stock w/ Exercised Warrants          $15,000,000   9/29/2010         $15,000,000              $—     9/29/2010       R             $750,000                                        $1,330,709
10/28/2008   State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009       $2,000,000,000             $—     7/8/2009        R          $60,000,000         $44.64                        $63,611,111
                                                                        Subordinated Debentures
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                          $24,900,000   1/18/2012         $24,900,000              $—     1/18/2012       R           $1,245,000                                        $5,350,442
                                                                        w/ Exercised Warrants

                                                              8,10,50   Subordinated Debentures
9/25/2009    Steele Street Bank Corporation, Denver, CO                                                                $11,019,000   9/1/2011          $11,019,000              $—     9/1/2011        R             $331,000                                        $1,728,673
                                                                        w/ Exercised Warrants
                                                                                                                                     4/13/2011           $7,500,000     $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                    $30,000,000                                                                                                    $12.48        302,623          $4,271,875
                                                                                                                                     12/28/2011        $22,500,000              $—
12/23/2008   Sterling Bancorp, New York, NY                             Preferred Stock w/ Warrants                    $42,000,000   4/27/2011         $42,000,000              $—     5/18/2011       R             $945,775           $9.98                        $4,923,333
12/12/2008   Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                  $125,198,000    5/5/2009          125,198,000              $—     6/9/2010        A           $2,857,915                                        $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24              Common Stock w/ Warrants                     $303,000,000                                                                                                     $18.89         97,541          $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                               Preferred Stock w/ Warrants                    $10,000,000   9/1/2011          $10,000,000              $—     10/26/2011      R             $107,398           $4.60                        $1,293,055
             Midland Park, NJ49
                                                                                                                                     1/14/2011           $4,000,000     $11,568,000
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2           Preferred Stock w/ Exercised Warrants          $15,568,000                                                     3/16/2011       R             $778,000                                        $1,755,554
                                                                                                                                     3/16/2011         $11,568,000              $—
1/23/2009    Stonebridge Financial Corp., West Chester, PA2             Preferred Stock w/ Exercised Warrants          $10,973,000                                                                                                                                     $634,609
                                                                        Subordinated Debentures
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL8                                                            $15,000,000                                                                                                                                   $2,083,520
                                                                        w/ Exercised Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                        Preferred Stock w/ Warrants                     $8,500,000   8/4/2011            $8,500,000             $—     9/14/2011       R             $315,000           $5.75                        $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                            Preferred Stock w/ Warrants                    $89,310,000   4/8/2009          $89,310,000              $—     5/27/2009       R           $2,100,000           $2.68                        $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011       $3,500,000,000             $—     9/22/2011       A          $14,069,763
                                                                                                                                                                                                                                      $24.23                      $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011       $1,350,000,000             $—     9/22/2011       A          $15,996,899
12/5/2008    Superior Bancorp Inc., Birmingham, AL17,54                 Trust Preferred Securities w/ Warrants         $69,000,000                                                                                                                1,923,792          $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                            Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000           $9.00                          $214,972
                                                                                                                                     4/21/2010        $200,000,000     $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA                    Preferred Stock w/ Warrants                  $300,000,000                                                      1/19/2011       R           $5,269,179         $10.28                        $23,722,222
                                                                                                                                     12/22/2010       $100,000,000              $—
4/10/2009    SV Financial, Inc., Sterling, IL2                          Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011           $4,000,000             $—     8/31/2011       R             $200,000                                          $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                       Preferred Stock w/ Warrants                  $235,000,000    12/23/2009       $235,000,000              $—     6/16/2010       R           $6,820,000         $58.72                        $12,109,028
                                                                        Subordinated Debentures
5/8/2009     Sword Financial Corporation , Horicon, WI8,49                                                             $13,644,000   9/15/2011         $13,644,000              $—     9/15/2011       R             $682,000                                        $2,693,234
                                                                        w/ Exercised Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                      Preferred Stock w/ Warrants                  $967,870,000                                                                                                       $1.98    15,510,737       $164,806,753
1/16/2009    Syringa Bancorp, Boise, ID2                                Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                      $0.04                          $253,122
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 25, 2012




11/21/2008   Taylor Capital Group, Rosemont, IL86                       Preferred Stock w/ Warrants                  $104,823,000    6/13/2012         $92,254,460              $—                                                    $16.39      1,462,647         $18,751,438
                                                                        Subordinated Debentures
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                      $9,720,000   9/8/2011            $9,720,000             $—     9/8/2011        R             $292,000                                        $1,599,381
                                                                        w/ Exercised Warrants
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    253
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                   (Continued)                                                                                                                                                                         254
                                                                                                                               Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                          Preferred Stock w/ Exercised Warrants         $11,730,000                                                                                                                                     $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN                Preferred Stock w/ Warrants                 $361,172,000    4/22/2009        $361,172,000              $—     12/15/2009      A           $9,449,981         $11.48                         $7,925,719
12/23/2008   TCNB Financial Corp., Dayton, OH2                     Preferred Stock w/ Exercised Warrants          $2,000,000   8/3/2011            $2,000,000             $—     8/3/2011        R             $100,000                                          $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN70      Preferred Stock w/ Warrants                   $30,000,000                                                                                                                  461,538          $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                         Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX            Preferred Stock w/ Warrants                   $75,000,000   5/13/2009         $75,000,000              $—     3/11/2010       A           $6,559,066         $40.39                         $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2      Preferred Stock w/ Exercised Warrants          $3,981,000   5/19/2010           $3,981,000             $—     5/19/2010       R             $199,000                                          $295,308
8/7/2009     The ANB Corporation, Terrell, TX2,49                  Preferred Stock w/ Exercised Warrants         $20,000,000   8/25/2011         $20,000,000              $—     8/25/2011       R           $1,000,000                                        $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                     Preferred Stock w/ Warrants                   $45,220,000   3/10/2010         $45,220,000              $—     9/8/2010        R           $4,753,985           $9.43                        $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                 Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010           $1,742,850             $—     N/A                                 N/A                                         $169,834

             The Bank of Kentucky Financial Corporation,                                                                       12/22/2010        $17,000,000      $17,000,000
2/13/2009                                                          Preferred Stock w/ Warrants                   $34,000,000                                                                                                    $26.64        274,784          $3,940,694
             Crestview Hills, KY                                                                                               11/23/2011        $17,000,000              $—
             The Bank of New York Mellon Corporation,
10/28/2008                                                         Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009       $3,000,000,000             $—     8/5/2009        R        $136,000,000          $21.95                        $95,416,667
             New York, NY
                                                          2
1/16/2009    The Baraboo Bancorporation, Baraboo, WI               Preferred Stock w/ Exercised Warrants         $20,749,000                                                                                                      $4.00                        $3,766,127
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 25, 2012




             The Connecticut Bank and Trust Company,
12/19/2008                                                         Preferred Stock w/ Warrants                    $5,448,000   4/19/2012           $5,448,000             $—     4/19/2012       R             $792,783           $8.40                          $662,083
             Hartford, CT81
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49            Preferred Stock w/ Warrants                    $9,090,000   8/25/2011           $9,090,000             $—                                                    $19.28        116,538          $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME             Preferred Stock w/ Warrants                   $25,000,000   8/24/2011         $12,500,000      $12,500,000                                                   $17.00        225,904          $3,734,375
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30         Preferred Stock w/ Warrants                    $5,000,000   9/29/2010           $5,000,000             $—                                                                   54,705            $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                  Preferred Stock w/ Exercised Warrants           $301,000                                                                                                                                       $53,710
10/28/2008   The Goldman Sachs Group, Inc., New York, NY           Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     7/22/2009       R      $1,100,000,000          $95.86                      $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                 Preferred Stock w/ Exercised Warrants         $15,000,000   8/18/2011         $15,000,000              $—     8/18/2011       R             $750,000                                        $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2           Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                   $1,387,480
             The PNC Financial Services Group Inc.,
12/31/2008                                                         Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010       $7,579,200,000             $—     4/29/2010       A        $320,277,984          $61.11                      $421,066,667
             Pittsburgh, PA
2/20/2009    The Private Bank of California, Los Angeles, CA2,49   Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011            $5,450,000             $—     9/1/2011        R             $273,000                                          $751,752
1/9/2009     The Queensborough Company, Louisville, GA2            Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                     $882,900
                                                                   Subordinated Debentures
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                        $1,697,000   9/22/2011           $1,697,000             $—     9/22/2011       R              $51,000                                          $282,299
                                                                   w/ Exercised Warrants
             The Victory Bancorp, Inc. (The Victory Bank),
12/11/2009                                                         Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011           $1,505,000             $—     9/22/2011       R              $34,000
             Limerick, PA2,10a,49                                                                                                                                                                                                                                $215,183
2/27/2009    The Victory Bancorp, Inc., Limerick, PA2,13,49        Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011            $541,000              $—     9/22/2011       R              $27,000
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                          Preferred Stock w/ Exercised Warrants          $5,677,000                                                                                                                                   $1,024,491
             National Bank & Trust), Orlando, FL2,13
                                            32
12/5/2008    TIB Financial Corp, Naples, FL                        Preferred Stock w/ Warrants                   $37,000,000   9/30/2010         $12,119,637              $—     9/30/2010       R              $40,000         $10.83                         $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC         Preferred Stock w/ Warrants                   $14,448,000                                                                                                                  571,821          $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                     $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA                 Preferred Stock w/ Warrants                   $16,641,000                                                                                                      $5.05                        $1,952,236
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                 Preferred Stock w/ Exercised Warrants          $2,117,000   4/4/2012            $2,117,000             $—     4/4/2012        R             $106,000                                          $346,491
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2              Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $713,950
12/12/2008   TowneBank, Portsmouth, VA50                           Preferred Stock w/ Warrants                   $76,458,000   9/22/2011         $76,458,000              $—                                                    $14.00        554,330         $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36              Warrants                                       $3,268,000   2/15/2011            $500,000              $—                                                      $0.25     3,098,341            $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011           $3,700,000             $—     9/22/2011       R             $185,000                                          $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49     Preferred Stock w/ Exercised Warrants         $15,540,000   9/22/2011         $15,540,000              $—     9/22/2011       R             $777,000                                        $2,336,116
3/27/2009    Trinity Capital Corporation , Los Alamos, NM2         Preferred Stock w/ Exercised Warrants         $35,539,000                                                                                                                                   $6,107,966
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30          Preferred Stock                                $2,795,000   8/13/2010           $2,795,000             $—     N/A                                 N/A                                         $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2      Preferred Stock w/ Exercised Warrants         $23,000,000                                                                                                                                   $4,036,268
4/3/2009     TriSummit Bank, Kingsport, TN2                        Preferred Stock w/ Exercised Warrants          $2,765,000
                                                                                                                                                                                                                                                                 $977,440
12/22/2009   TriSummit Bank, Kingsport, TN2,10a                    Preferred Stock                                $4,237,000
                                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                     (Continued)
                                                                                                                                 Capital                                           Final                                            Stock        Current          Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding     Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     6/29/2012        Warrants             Treasury
11/21/2008   Trustmark Corporation, Jackson, MS                      Preferred Stock w/ Warrants                 $215,000,000    12/9/2009        $215,000,000              $—     12/30/2009      R          $10,000,000         $24.48                        $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49          Preferred Stock w/ Exercised Warrants         $12,000,000   9/1/2011          $12,000,000              $—     9/1/2011        R             $600,000         $15.10                         $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                           Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009       $6,599,000,000             $—     7/15/2009       R        $139,000,000          $32.16                      $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                           Preferred Stock w/ Exercised Warrants         $50,236,000                                                                                                                                     $745,312
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49                Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011           $8,950,000             $—     8/11/2011       R             $450,000                                        $1,234,912
11/14/2008   UCBH Holdings, Inc., San Francisco, CA14                Preferred Stock w/ Warrants                 $298,737,000                                                                                                                 7,847,732          $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                     Preferred Stock w/ Warrants                 $214,181,000    2/17/2010        $214,181,000              $—     3/31/2010       R           $4,500,000         $13.16                        $13,475,555
5/1/2009     Union Bank & Trust Company, Oxford, NC2,50              Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011           $3,194,000             $—     9/22/2011       R             $160,000
                                                                                                                                                                                                                                                                   $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49          Preferred Stock                                $2,997,000   9/22/2011           $2,997,000             $—     N/A                                 N/A
                                                              2,10
12/29/2009   Union Financial Corporation, Albuquerque, NM            Preferred Stock w/ Exercised Warrants          $2,179,000                                                                                                                                     $272,969
             Union First Market Bankshares Corporation
2/6/2009                                                             Preferred Stock                               $33,900,000   12/7/2011         $35,595,000              $—     N/A                                 N/A                                       $5,239,859
             (First Market Bank, FSB), Bowling Green, VA18
                                                                                                                                                                                                                                  $14.45
             Union First Market Bankshares Corporation (Union
12/19/2008                                                           Preferred Stock w/ Warrants                   $59,000,000   11/18/2009        $59,000,000              $—     12/23/2009      R             $450,000                                        $2,695,972
             Bankshares Corporation), Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                    Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                           $—
1/16/2009    United Bancorp, Inc., Tecumseh, MI91                    Preferred Stock w/ Warrants                   $20,600,000   6/13/2012         $16,750,221              $—                                                      $9.01       311,492          $3,527,704
             United Bancorporation of Alabama, Inc.,
12/23/2008                                                           Preferred Stock w/ Warrants                   $10,300,000   9/3/2010          $10,300,000              $—                                                                  108,264            $872,639
             Atmore, AL30

                                                         8           Subordinated Debentures
5/22/2009    United Bank Corporation, Barnesville, GA                                                              $14,400,000                                                                                                                                   $3,600,991
                                                                     w/ Exercised Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA           Preferred Stock w/ Warrants                 $180,000,000                                                                                                       $8.57       219,908         $31,018,750

             United Financial Banking Companies, Inc.,                                                                           12/15/2010          $3,000,000      $2,658,000
1/16/2009                                                            Preferred Stock w/ Exercised Warrants          $5,658,000                                                     9/15/2011       R             $283,000         $16.94                           $708,964
             Vienna, VA2,49                                                                                                      9/15/2011           $2,658,000             $—
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                        Preferred Stock w/ Warrants                   $20,649,000                                                                                                      $6.00                        $3,556,217
5/22/2009    Universal Bancorp, Bloomfield, IN2                      Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                                   $1,608,159
6/19/2009    University Financial Corp, Inc., St. Paul, MN3,8,30     Subordinated Debentures                       $11,926,000   7/30/2010         $11,926,000              $—     N/A                                 N/A                                       $1,022,886
2/6/2009     US Metro Bank, Garden Grove, CA2                        Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                      $4.50                          $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                   Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $3.95                        $1,849,972
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                   Preferred Stock w/ Exercised Warrants          $7,700,000   3/21/2012           $7,700,000             $—     3/21/2012       R             $385,000         $11.00                         $1,318,401
1/9/2009     Valley Community Bank, Pleasanton, CA2                  Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                      $1.70                          $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA               Preferred Stock w/ Warrants                   $16,019,000                                                                                                                  344,742          $2,781,430
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                           Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011           $1,300,000             $—     9/22/2011       R              $65,000                                          $124,775
             Saginaw, MI2,49
12/5/2008    Valley National Bancorp (State Bancorp, Inc.)68         Preferred Stock w/ Warrants                   $36,842,000   12/14/2011        $36,842,000              $—                                                                                   $5,572,353
                                                                                                                                 6/3/2009          $75,000,000     $225,000,000
                                                                                                                                                                                   5/18/2010       A           $5,421,615         $10.60        488,847
11/14/2008   Valley National Bancorp, Wayne, NJ                      Preferred Stock w/ Warrants                 $300,000,000    9/23/2009        $125,000,000     $100,000,000                                                                                 $12,979,167
                                                                                                                                 12/23/2009       $100,000,000              $—
             Veritex Holdings, Inc.
6/26/2009                                                            Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011           $3,000,000             $—     8/25/2011       R             $150,000                                          $353,796
             (Fidelity Resources Company), Dallas, TX2,40
             Village Bank and Trust Financial Corp,
5/1/2009                                                             Preferred Stock w/ Warrants                   $14,738,000                                                                                                      $1.25       499,029          $1,318,232
             Midlothian, VA
12/12/2008   Virginia Commerce Bancorp, Arlington, VA                Preferred Stock w/ Warrants                   $71,000,000                                                                                                      $8.43     2,696,203         $12,158,750
6/12/2009    Virginia Company Bank, Newport News, VA2,10             Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                                     $725,020
4/24/2009    Vision Bank - Texas, Richardson, TX2                    Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                     $250,019
12/19/2008   VIST Financial Corp., Wyomissing, PA                    Preferred Stock w/ Warrants                   $25,000,000                                                                                                    $11.62                         $4,256,944
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50           Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011        $110,000,000              $—     9/15/2011       R           $5,500,000                                       $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10     Preferred Stock w/ Exercised Warrants         $12,000,000   4/4/2012            $3,000,000      $9,000,000                                                                                  $1,544,026
12/19/2008   Wainwright Bank & Trust Company, Boston, MA             Preferred Stock w/ Warrants                   $22,000,000   11/24/2009        $22,000,000              $—     12/16/2009      R             $568,700                                        $1,023,611
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012




1/16/2009    Washington Banking Company, Oak Harbor, WA              Preferred Stock w/ Warrants                   $26,380,000   1/12/2011         $26,380,000              $—     3/2/2011        R           $1,625,000         $13.90                         $2,623,344
11/14/2008   Washington Federal, Inc., Seattle, WA                   Preferred Stock w/ Warrants                 $200,000,000    5/27/2009        $200,000,000              $—     3/9/2010        A          $15,388,874         $16.89                         $5,361,111
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                255
CPP TRANSACTION DETAIL, AS OF 6/30/2012                                                        (Continued)                                                                                                                                                                                                        256
                                                                                                                                         Capital                                                      Final                                                     Stock           Current             Dividends/
Purchase                                                                                                                                 Repayment         Capital Repayment           Remaining      Disposition                   Final Disposition      Price as of      Outstanding        Interest Paid to
Date            Institution                                             Investment Description                   Investment Amount       Date                 Amount (Loss)6       Capital Amount     Date              Note15             Proceeds       6/29/2012           Warrants                Treasury
                WashingtonFirst Bankshares, Inc. (WashingtonFirst
10/30/2009                                                              Preferred Stock                                   $6,842,000     8/4/2011                  $6,842,000                   $—    N/A                                         N/A
                Bank), Reston, VA2,10a,49                                                                                                                                                                                                                                                          $1,510,318
1/30/2009       WashingtonFirst Bankshares, Inc., Reston, VA2,13,49     Preferred Stock w/ Exercised Warrants             $6,633,000     8/4/2011                  $6,633,000                   $—    8/4/2011             R                $332,000
6/26/2009       Waukesha Bankshares, Inc., Waukesha, WI2,10             Preferred Stock w/ Exercised Warrants             $5,625,000                                                                                                                                                                 $855,616
                                                                                                                                         3/3/2010                $100,000,000        $300,000,000
11/21/2008      Webster Financial Corporation, Waterbury, CT            Preferred Stock w/ Warrants                    $400,000,000      10/13/2010              $100,000,000        $200,000,000     6/2/2011             A            $20,388,842            $21.66                             $36,944,444
                                                                                                                                         12/29/2010              $200,000,000                   $—
10/28/2008      Wells Fargo & Company, San Francisco, CA                Preferred Stock w/ Warrants                 $25,000,000,000      12/23/2009          $25,000,000,000                    $—    5/20/2010            A           $840,374,892            $33.44                          $1,440,972,222
12/5/2008       WesBanco, Inc., Wheeling, WV                            Preferred Stock w/ Warrants                      $75,000,000     9/9/2009                 $75,000,000                   $—    12/23/2009           R                $950,000           $21.26                              $2,854,167
12/31/2008      West Bancorporation, Inc., West Des Moines, IA          Preferred Stock w/ Warrants                      $36,000,000     6/29/2011                $36,000,000                   $—    8/31/2011            R                $700,000             $9.51                             $4,495,000
                                                                                                                                         9/2/2009                 $41,863,000         $41,863,000
2/13/2009       Westamerica Bancorporation, San Rafael, CA              Preferred Stock w/ Warrants                      $83,726,000                                                                  11/18/2011           P                $878,256           $47.19           246,698            $2,755,981
                                                                                                                                         11/18/2009                41,863,000                   $—
                                                                   49
11/21/2008      Western Alliance Bancorporation, Las Vegas, NV          Preferred Stock w/ Warrants                    $140,000,000      9/27/2011                140,000,000                   $—    11/18/2011           P                $415,000             $9.36                            $19,950,000
                Western Community Bancshares, Inc.,
12/23/2008                                                              Preferred Stock w/ Exercised Warrants             $7,290,000                                                                                                                                                                 $554,083
                Palm Desert, CA2
12/23/2008      Western Illinois Bancshares Inc., Monmouth, IL2         Preferred Stock w/ Exercised Warrants             $6,855,000
                                                                                                                                                                                                                                                                                                   $1,811,199
                                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




12/29/2009      Western Illinois Bancshares Inc., Monmouth, IL2,10a     Preferred Stock                                   $4,567,000
5/15/2009       Western Reserve Bancorp, Inc, Medina, OH2               Preferred Stock w/ Exercised Warrants             $4,700,000                                                                                                                           $27.00                                $768,450
2/20/2009       White River Bancshares Company, Fayetteville, AR2       Preferred Stock w/ Exercised Warrants            $16,800,000                                                                                                                                                               $1,589,583
12/19/2008      Whitney Holding Corporation, New Orleans, LA45          Preferred Stock w/ Warrants                    $300,000,000      6/3/2011                $300,000,000                   $—    6/3/2011             R              $6,900,000                                              $36,833,333
12/12/2008      Wilshire Bancorp, Inc., Los Angeles, CA76               Preferred Stock w/ Warrants                      $62,158,000     3/28/2012                $57,766,994                   $—    6/20/2012            R                $760,000             $5.47                            $10,282,176
12/19/2008      Wintrust Financial Corporation, Lake Forest, IL         Preferred Stock w/ Warrants                    $250,000,000      12/22/2010              $250,000,000                   $—    2/8/2011             A            $25,600,564            $35.50                             $25,104,167
5/15/2009       Worthington Financial Holdings, Inc., Huntsville, AL2   Preferred Stock w/ Exercised Warrants             $2,720,000                                                                                                                                                                 $370,600
1/23/2009       WSFS Financial Corporation79                            Preferred Stock w/ Warrants                      $52,625,000     3/28/2012                $47,435,299                   $—                                                             $40.41           175,105            $8,405,558
1/16/2009       Yadkin Valley Financial Corporation, Elkin, NC          Preferred Stock w/ Warrants                      $36,000,000                                                                                                                                            273,534
                                                                                                                                                                                                                                                                 $2.65                             $4,782,227
7/24/2009       Yadkin Valley Financial Corporation, Elkin, NC          Preferred Stock w/ Warrants                      $13,312,000                                                                                                                                            385,990
4/24/2009       York Traditions Bank , York, PA2,50                     Preferred Stock w/ Exercised Warrants             $4,871,000     7/14/2011                 $4,871,000                   $—    7/14/2011            R                $244,000                                                 $590,022
11/14/2008      Zions Bancorporation, Salt Lake City, UT                Preferred Stock w/ Warrants                  $1,400,000,000      3/28/2012               $700,000,000        $700,000,000                                                              $19.42         5,789,909          $240,625,000
                                                                                                                                               Total
                                                                                                                                             Capital
                                                                                                                                          Repayment
                                                                                    Total Purchase Amount *      $204,943,827,320         Amount **       $191,259,517,808
                                                                                                                                    Total Losses***         ($2,794,703,500)
                                                                                                                     Total Treasury CPP Investment
                                                                                                                                                            $10,889,606,012                     Total Warrant Proceeds****          $7,677,500,194
                                                                                                                                       Outstanding
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numeric notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 6/30/2012.

* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup
    Common Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26, 32, 33, 34, 38, 39, 42, 46, 47, 59, 64,
     74, 75, 76, 77, 78, 79), but excludes investment amounts for institutions that have pending receivership or bankruptcy proceedings (see Notes 14, 25, 51, 52, 53, 54, 55, 56, 57, 61, 63, 70, and 71).
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

                                                                                                                                                                                                                                                                                        Continued on next page
1a 
   	 This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
     1/1/2009, and this transaction under the CPP was funded on 1/9/2009.
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and
     $122,365,216. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
 	 Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3	
     To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a	
     Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
 	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
 	 Redemption pursuant to a qualified equity offering.
6
 	 This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
 	 The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
 	 Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
 	 In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   	 This institution participated in the expansion of CPP for small banks.
10a
    	This institution received an additional investment through the expansion of CPP for small banks.
11
   	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
     Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
     purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   	 On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   	 This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   	As of the date of this report, this institution is in bankruptcy proceedings.
15
   	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered
     public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.
16
   	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
     common shares to holders of CVRs were not met.
17
   	 On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
     dividend rate equivalent to those of Treasury’s original investment.
19
   	 On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid
     dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued
     and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
   	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see
     note 11). On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on 6/30/2010 (or on completion of
     the sale). Completion of the sale under this authority occurred on 5/26/2010. On 5/26/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending
     on 6/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 6/30/2010. On 7/23/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from
     time to time during the period ending on 9/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 9/30/2010. On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
     parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which plan was terminated on 12/6/2010. All such sales were generally made at the market price. On 12/6/2010, Treasury commenced an underwritten
     public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during
     those periods.
24
   	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
     4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
   	 On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
26
   	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement between
     Treasury and TD entered into on 5/18/2010.
27
   	 On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28
   	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
     unpaid dividends. On 10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on
     the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
29
   	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
     investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
     common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30
   	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a
    	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31
   	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
     8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32
   	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the agreement
     between Treasury and NAFH entered into on 9/24/2010.
33
   	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
     entered into on 10/29/2010.
34
   	On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and
     Currituck entered into on 11/5/2010.
35
   	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
     closing of the sale also occurred on 1/28/2011.
36
   	On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
     payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.
37
   	 On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
38
   	On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
     Treasury and FBHC entered into on 3/9/2011.
39
    	On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
     debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.
40
   	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an
     agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
41
   	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
     preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
     into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42
   	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
     Bear State entered into on 5/3/2011.
43
   	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent warrant
                                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




     issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.
44
   	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
     held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011.
45
   	On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid dividends
     thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.

                                                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                                                                 257
                                                                                                                                                                                                                                                                                                                            258
46
  	On 6/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 6/17/2011. On
    4/4/2012, Treasury completed the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of $36,039,222.17, pursuant to an underwriting
    agreement executed on 3/29/2012.
47
  	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
    on 6/28/2011.
49
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
50
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 — part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
51
  	 On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	 On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
53
  	 On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
54
  	 On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
55
  	 On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
56
  	 On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
57
  	 On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United
    entered into on 8/12/2011.
59
  	On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
    entered into on 9/6/2011.
60
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
    unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
61
  	 On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
62
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
63
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
64
  	 On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on 10/20/2011.
65
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
    among Treasury, CFC and CFB entered into on 11/15/2011.
66
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
    Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
67
  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by Treasury
    for a like F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.
68
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company
    and the acquiror entered into on 1/1/2012.
                                                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I July 25, 2012




69
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the
    exercise of warrants) that had been issued to Treasury by Regents.
70
  	 On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
71
  	 On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a
    capital plan.
73
  	On 3/9/2012, Treasury completed the sale of all Mainline Bancorp, Inc. preferred stock and exercised warrants held by Treasury to 9th Street Holdings, Inc., a subsidiary of S&T Bancorp, Inc., for an aggregate purchase price of $4,725,000 plus accrued and unpaid dividends, pursuant to the terms of an
    agreement among Treasury, 9th Street Holdings, Inc., and S&T Bancorp, Inc. entered into on 3/8/2012.
74
  	 On 4/3/2012, Treasury completed the sale of 124,000 shares of Banner Corporation preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $108,071,914.80 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
75
  	 On 4/3/2012, Treasury completed the sale of 65,000 shares of First Financial Holdings, Inc. preferred stock at $873.51 per share (less underwriting discounts) for net proceeds of $55,926,477.75 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
76
  	 On 4/3/2012, Treasury completed the sale of 62,158 shares of Wilshire Bancorp, Inc. preferred stock at $943.51 per share (less underwriting discounts) for net proceeds of $57,766,994.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
77
  	 On 4/3/2012, Treasury completed the sale of 2,000 shares of Seacoast Banking Corporation of Florida preferred stock at $20,510.00 per share (less underwriting discounts) for net proceeds of $40,404,700.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
78
  	 On 4/3/2012, Treasury completed the sale of 57,000 shares of MainSource Financial Group, Inc. preferred stock at $931.11 per share (less underwriting discounts) for net proceeds of $52,277,170.95 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
79
  	 On 4/3/2012, Treasury completed the sale of 52,625 shares of WSFS Financial Corporation preferred stock at $915.11 per share (less underwriting discounts) for net proceeds of $47,435,298.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
80
  	On 4/13/2012, Treasury completed the sale of all Gateway Bancshares, Inc. preferred stock held by Treasury to First Volunteer Corporation (“First Volunteer”) for an aggregate purchase price of $6,300,000.00 plus accrued and unpaid dividends, pursuant to the terms of the agreement between Treasury
    and First Volunteer entered into on 4/13/2012.
81
  	On 4/20/2012, Treasury completed the sale of all The Connecticut Bank and Trust Company preferred stock held by Treasury to Berkshire Bank for an aggregate purchase price of $6,289,966.33 consisting of (a) (i) $5,448,000.00 for the preferred stock plus (ii) all accrued and unpaid dividends and (b)
    $792,783.00 for the Warrant, pursuant to the terms of the agreement by and among Treasury, The Connecticut Bank and Trust Company, and Berkshire Bank entered into on 4/19/2012.
82
  	 On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
83
  	On 4/24/2012, Treasury completed the sale of all Peoples Bancorporation, Inc. (“Peoples”) preferred stock held by Treasury to SCBT Financial Corporation (“SCBT”) for an aggregate purchase price of $13,293,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among
    Treasury, Peoples, and SCBT entered into on 4/24/2012.
84
  	On 4/20/2012, Treasury entered into an agreement with CIC Bancshares, Inc. (CIC) pursuant to which Treasury agreed to sell to CIC all Preferred Stock issued by Millennium Bancorp, Inc. (Millennium) to Treasury for an aggregate purchase price of (i) $2.904 million plus (ii) accrued and unpaid dividends on
    the Preferred Stock as of the closing date. Closing of the sale is subject to certain conditions including completion of the acquisition and merger of Millennium by CIC.
85
  	 On 6/19/2012, Treasury completed the sale of 52,000 shares of Ameris Bancorp preferred stock at $930.60 per share (less underwriting discounts) for net proceeds of $47,665,332.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
86
  	 On 6/19/2012, Treasury completed the sale of 104,823 shares of Taylor Capital Group preferred stock at $893.50 per share (less underwriting discounts) for net proceeds of $92,254,460.24 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
87
  	 On 6/19/2012, Treasury completed the sale of 30,000 shares of Farmers Capital Bank Corporation preferred stock at $869.17 per share (less underwriting discounts) for net proceeds of $21,594,228.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
88
  	 On 6/19/2012, Treasury completed the sale of 25,223 shares of LNB Bancorp Inc. preferred stock at $739.89 per share (less underwriting discounts) for net proceeds of $21,863,749.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
89
  	 On 6/19/2012, Treasury completed the sale of 37,000 shares of First Defiance Financial Corp. preferred stock at $962.66 per share (less underwriting discounts) for net proceeds of $35,084,143.70 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
90
  	 On 6/19/2012, Treasury completed the sale of 10,958 shares of First Capital Bancorp, Inc. preferred stock at $920.11 per share (less underwriting discounts) for net proceeds of $9,931,326.90 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
91
  	 On 6/19/2012, Treasury completed the sale of 20,600 shares of United Bancorp, Inc. preferred stock at $825.50 per share (less underwriting discounts) for net proceeds of $16,750,220.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
92
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 48,200 shares of Fidelity Southern Corporation preferred stock at $900.60 per share (less underwriting discounts) for net proceeds of $42,757,786.20 plus accrued and unpaid dividends.
93
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 25,054 shares of Peoples Bancorp of North Carolina, Inc. preferred stock at $933.36 per share (less underwriting discounts) for net proceeds of $23,033,635.42 plus accrued and unpaid dividends.
94
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 23,184 shares of First Citizens Banc Corp preferred stock at $906.00 per share (less underwriting discounts) for net proceeds of $20,689,633.44 plus accrued and unpaid dividends.
95
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 45,000 shares of MetroCorp Bancshares, Inc. preferred stock at $981.17 per share (less underwriting discounts) for net proceeds of $43,490,360.25 plus accrued and unpaid dividends.
96
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 32,538 shares of Pulaski Financial Corp preferred stock at $888.00 per share (less underwriting discounts) for net proceeds of $28,460,337.84 plus accrued and unpaid dividends.
97
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 33,000 shares of Firstbank Corporation preferred stock at $941.01 per share (less underwriting discounts) for net proceeds of $30,587,530.05 plus accrued and unpaid dividends.
98
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 17,299 shares of Southern First Bancshares, Inc. preferred stock at $904.00 per share (less underwriting discounts) for net proceeds of $15,403,721.56 plus accrued and unpaid dividends.

Sources: Treasury, Transactions Report, 6/27/2012; Dividends and Interest Report, 7/11/2012; Treasury, response SIGTARP data call, 7/9/2012; Bloomberg, LP, accessed 7/2/2012.‑
Table D.2
CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 6/30/2012
Note      Date                                              Pricing Mechanism6                     Number of Shares                            Proceeds7
1         4/26/2010 - 5/26/2010                                             $4.12                      1,500,000,000                     $6,182,493,158
2         5/26/2010 - 6/30/2010                                             $3.90                      1,108,971,857                     $4,322,726,825
3         7/23/2010 - 9/30/2010                                             $3.91                      1,500,000,000                     $5,863,489,587
4         10/19/2010 - 12/6/2010                                            $4.26                      1,165,928,228                     $4,967,921,811
5         12/6/2010                                                         $4.35                      2,417,407,607                    $10,515,723,090
                                                                                                      Total Proceeds:                 $31,852,354,471
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes taken verbatim from 6/27/2012 Transactions Report.
1	
   On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occurred on 5/26/2010.
2	
   On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occurred on 6/30/2010.
3 
 	 On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occured on 9/30/2010.
4	
   On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
   which plan was terminated on 12/6/2010.
5	
   On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
   fulfillment of certain closing conditions.
6	
   The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the
   corresponding period.
7	
   Amount represents the gross proceeds to Treasury.

Source: Treasury, Transactions Report, 6/27/2012.
                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                             259
Table D.3                                                                                                                                                                                                                                               260
 CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012
                                                        Seller                                                                    Purchase Details                                                            Disposition Details

                                                                                                                                                                                     Pricing                        Remaining       Dividend/Interest
Note   Purchase Date   Name of Institution                                                Investment Description    Amount from CPP   Additional Investment   Investment Amount   Mechanism         Date    Investment Amount        Paid to Treasury
       9/24/2010       Alternatives Federal Credit Union, Ithaca, NY                      Subordinated Debentures               $­—                    $­—           $2,234,000          Par                                              $73,349.67
       9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL                  Subordinated Debentures               $­—                    $­—           $5,457,000          Par                                            $281,005.18
       9/24/2010       Atlantic City Federal Credit Union, Lander, WY                     Subordinated Debentures               $­—                    $­—           $2,500,000          Par                                              $82,083.33
       9/24/2010       Bainbridge Bancshares, Inc., Bainbridge, GA                        Preferred Stock                       $­—                    $­—           $3,372,000          Par                                            $110,714.00
       9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                              Subordinated Debentures               $­—                    $­—           $3,297,000          Par                                            $166,370.28
1, 2   9/29/2010       BancPlus Corporation, Ridgeland, MS                                Preferred Stock               $50,400,000           $30,514,000           $80,914,000          Par                                           $2,634,200.22
       9/29/2010       BankAsiana, Palisades Park, NJ                                     Preferred Stock                       $­—                    $­—           $5,250,000          Par                                            $170,916.67
       9/29/2010       Bethex Federal Credit Union, Bronx, NY                             Subordinated Debentures               $­—                    $­—            $502,000           Par                                              $16,342.89
       9/29/2010       Border Federal Credit Union, Del Rio, TX                           Subordinated Debentures               $­—                    $­—           $3,260,000          Par                                            $106,131.11
       9/24/2010       Brewery Credit Union, Milwaukee, WI                                Subordinated Debentures               $­—                    $­—           $1,096,000          Par                                              $35,985.33
       9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY            Subordinated Debentures               $­—                    $­—            $300,000           Par                                               $9,750.00
       9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY              Subordinated Debentures               $­—                    $­—            $145,000           Par                                               $4,760.83
       9/24/2010       Butte Federal Credit Union, Biggs, CA                              Subordinated Debentures               $­—                    $­—           $1,000,000          Par                                              $32,833.33
       9/29/2010       Carter Federal Credit Union, Springhill, LA                        Subordinated Debentures               $­—                    $­—           $6,300,000          Par                                            $205,100.00
                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I July 25, 2012




1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                                  Common Stock                  $18,980,000                    $­—          $18,980,000          Par                                            $446,507.39
       9/17/2010       CFBanc Corporation, Washington, DC                                 Preferred Stock                       $­—                    $­—           $5,781,000          Par                                            $192,057.67
1      8/13/2010                                                                          Preferred Stock                $7,462,000                    $­—                  $­—          Par
                       Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                                     $407,479.22
2a     9/17/2010                                                                          Preferred Stock                       $­—             $4,379,000          $11,841,000          Par
1      9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS             Preferred Stock               $54,600,000                    $­—          $54,600,000          Par                                           $1,777,533.33
1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                             Preferred Stock                $1,747,000             $2,313,000           $4,060,000          Par                                            $111,875.56
       9/24/2010       Community First Guam Federal Credit Union, Hagatna, GU             Subordinated Debentures               $­—                    $­—           $2,650,000          Par                                              $87,008.33
       9/29/2010       Community Plus Federal Credit Union, Rantoul, IL                   Subordinated Debentures               $­—                    $­—            $450,000           Par                                              $14,650.00
       9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA              Subordinated Debentures               $­—                    $­—           $2,799,000          Par                                              $91,900.50
       9/29/2010       D.C. Federal Credit Union, Washington, DC                          Subordinated Debentures               $­—                    $­—           $1,522,000          Par                                              $49,549.56
       9/29/2010       East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT   Subordinated Debentures               $­—                    $­—              $7,000           Par                                                 $227.89
       9/29/2010       Episcopal Community Federal Credit Union, Los Angeles, CA          Subordinated Debentures               $­—                    $­—            $100,000           Par                                               $3,255.56
       9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA                   Subordinated Debentures               $­—                    $­—           $8,044,000          Par                                            $264,111.33
       9/29/2010       Faith Based Federal Credit Union, Oceanside, CA                    Subordinated Debentures               $­—                    $­—             $30,000           Par                                                 $976.67
       9/29/2010       Fidelis Federal Credit Union, New York, NY                         Subordinated Debentures               $­—                    $­—             $14,000           Par                                                 $455.78
1      8/13/2010       First American International Corp., Brooklyn, NY                   Preferred Stock               $17,000,000                    $­—          $17,000,000          Par                                            $171,888.89
1      9/24/2010       First Choice Bank, Cerritos, CA                                    Preferred Stock                $5,146,000                    $­—           $5,146,000          Par                                            $168,960.33
1      9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL                     Subordinated Debentures        $7,875,000                    $­—           $7,875,000          Par                                            $405,518.75
       9/29/2010       First Legacy Community Credit Union, Charlotte, NC                 Subordinated Debentures               $­—                    $­—           $1,000,000          Par                                              $32,555.56
1      9/29/2010       First M&F Corporation, Kosciusko, MS                               Preferred Stock               $30,000,000                    $­—          $30,000,000          Par                                            $976,666.67
1      9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                          Preferred Stock                $6,245,000                    $­—           $6,245,000          Par                                              $15,959.44
       9/29/2010       Freedom First Federal Credit Union, Roanoke, VA                    Subordinated Debentures               $­—                    $­—           $9,278,000          Par                                            $302,050.44
       9/24/2010       Gateway Community Federal Credit Union, Missoula, MT               Subordinated Debentures               $­—                    $­—           $1,657,000          Par                                              $54,404.83
       9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY                  Subordinated Debentures               $­—                    $­—            $300,000           Par                                               $9,966.67
5      9/29/2010       Greater Kinston Credit Union, Kinston, NC                          Subordinated Debentures               $­—                    $­—            $350,000           Par   4/10/20125                  $­—            $10,714.44
1      7/30/2010       Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures       $14,000,000                    $­—          $14,000,000          Par                                            $777,583.33
       9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA                 Subordinated Debentures               $­—                    $­—            $100,000           Par                                               $3,255.56
       9/17/2010       Hope Federal Credit Union, Jackson, MS                             Subordinated Debentures               $­—                    $­—           $4,520,000          Par                                            $150,164.44
1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                                     Subordinated Debentures        $4,205,000             $3,881,000           $8,086,000          Par                                            $421,258.14
1      9/3/2010        IBW Financial Corporation, Washington, DC                          Preferred Stock                $6,000,000                    $­—           $6,000,000          Par                                            $204,000.00
       9/29/2010       Independent Employers Group Federal Credit Union, Hilo, HI         Subordinated Debentures               $­—                    $­—            $698,000           Par                                              $22,723.78
       9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                           Subordinated Debentures               $­—                    $­—           $3,154,000          Par                                            $166,215.80
1      9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                                Preferred Stock                $4,551,000                    $­—           $4,551,000          Par                                            $148,160.33
                                                                                                                                                                                                                              Continued on next page
CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012                                                                   (CONTINUED)
                                                             Seller                                                                                Purchase Details                                                                                                Disposition Details
                                                                                                                                                                                                              Pricing                              Remaining        Dividend/Interest
Note       Purchase Date      Name of Institution                                                Investment Description          Amount from CPP       Additional Investment       Investment Amount       Mechanism               Date    Investment Amount         Paid to Treasury
           9/24/2010          Liberty County Teachers Federal Credit Union, Liberty, TX          Subordinated Debentures                        $­—                       $­—                $435,000               Par                                                   $14,282.50
1, 2       9/24/2010          Liberty Financial Services, Inc., New Orleans, LA                  Preferred Stock                        $5,645,000                $5,689,000              $11,334,000               Par                                                  $372,133.00
           9/24/2010          Lower East Side People’s Federal Credit Union, New York, NY        Subordinated Debentures                        $­—                       $­—                $898,000               Par                                                   $29,484.33
1          8/20/2010          M&F Bancorp, Inc., Durham, NC                                      Preferred Stock                      $11,735,000                         $­—             $11,735,000               Par                                                  $407,465.28
1          8/20/2010                                                                             Preferred Stock                        $5,500,000                        $­—                       $­—             Par
                              Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                                     $349,754.22
2a         9/24/2010                                                                             Preferred Stock                                $­—               $4,836,000              $10,336,000               Par
           9/24/2010          Neighborhood Trust Federal Credit Union, New York, NY              Subordinated Debentures                        $­—                       $­—                $283,000               Par                                                     $9,291.83
           9/29/2010          North Side Community Federal Credit Union, Chicago, IL             Subordinated Debentures                        $­—                       $­—                $325,000               Par                                                   $10,580.56
           9/24/2010          Northeast Community Federal Credit Union, San Francisco, CA        Subordinated Debentures                        $­—                       $­—                $350,000               Par                                                   $11,491.67
           9/29/2010          Opportunities Credit Union, Burlington, VT                         Subordinated Debentures                        $­—                       $­—              $1,091,000               Par                                                   $35,518.11
1          8/13/2010          PGB Holdings, Inc., Chicago, IL                                    Preferred Stock                        $3,000,000                        $­—              $3,000,000               Par                                                   $30,333.33
           9/24/2010          Phenix Pride Federal Credit Union, Phenix City, AL                 Subordinated Debentures                        $­—                       $­—                $153,000               Par                                                     $5,023.50
1, 4       8/13/2010          Premier Bancorp, Inc., Wilmette, IL                                Subordinated Debentures                $6,784,000                        $­—              $6,784,000               Par                                                             $—
           9/24/2010          Prince Kuhio Federal Credit Union, Honolulu, HI                    Subordinated Debentures                        $­—                       $­—                $273,000               Par                                                     $8,963.50
1          9/29/2010          PSB Financial Corporation, Many, LA                                Preferred Stock                        $9,734,000                        $­—              $9,734,000               Par                                                  $316,895.78
           9/24/2010          Pyramid Federal Credit Union, Tucson, AZ                           Subordinated Debentures                        $­—                       $­—              $2,500,000               Par                                                   $82,083.33
           9/29/2010          Renaissance Community Development Credit Union, Somerset, NJ       Subordinated Debentures                        $­—                       $­—                  $31,000              Par                                                     $1,009.22
           9/24/2010          Santa Cruz Community Credit Union, Santa Cruz, CA                  Subordinated Debentures                        $­—                       $­—              $2,828,000               Par                                                   $92,852.67
1          9/29/2010          Security Capital Corporation, Batesville, MS                       Preferred Stock                      $17,910,000                         $­—             $17,910,000               Par                                                  $583,070.00
1, 2       9/29/2010          Security Federal Corporation, Aiken, SC                            Preferred Stock                      $18,000,000                 $4,000,000              $22,000,000               Par                                                  $716,222.22
           9/29/2010          Shreveport Federal Credit Union, Shreveport, LA                    Subordinated Debentures                        $­—                       $­—              $2,646,000               Par                                                   $86,142.00
1, 2       8/6/2010           Southern Bancorp, Inc., Arkadelphia, AR                            Preferred Stock                      $11,000,000                $22,800,000              $33,800,000               Par                                                $1,199,900.00
           9/29/2010          Southern Chautauqua Federal Credit Union, Lakewood, NY             Subordinated Debentures                        $­—                       $­—              $1,709,000               Par                                                   $55,636.64
           9/29/2010          Southside Credit Union, San Antonio, TX                            Subordinated Debentures                        $­—                       $­—              $1,100,000               Par                                                   $35,811.11
1          9/29/2010          State Capital Corporation, Greenwood, MS                           Preferred Stock                      $15,750,000                         $­—             $15,750,000               Par                                                  $512,750.00
1, 2       9/29/2010          The First Bancshares, Inc., Hattiesburg, MS                        Preferred Stock                        $5,000,000               $12,123,000              $17,123,000               Par                                                  $557,448.78
           9/29/2010          The Magnolia State Corporation, Bay Springs, MS                    Subordinated Debentures                        $­—                       $­—              $7,922,000               Par                                                  $399,752.92
                              Thurston Union of Low-Income People (TULIP) Cooperative Credit
           9/24/2010                                                                             Subordinated Debentures                        $­—                       $­—                  $75,000              Par                                                     $2,462.50
                              Union, Olympia, WA
           9/24/2010          Tongass Federal Credit Union, Ketchikan, AK                        Subordinated Debentures                        $­—                       $­—              $1,600,000               Par                                                   $52,533.33
1          8/13/2010          Tri-State Bank of Memphis, Memphis, TN                             Preferred Stock                        $2,795,000                        $­—              $2,795,000               Par                                                   $98,135.56
           9/24/2010          Tulane-Loyola Federal Credit Union, New Orleans, LA                Subordinated Debentures                        $­—                       $­—                $424,000               Par                                                   $13,921.33
           9/24/2010          Union Baptist Church Federal Credit Union, Fort Wayne, IN          Subordinated Debentures                        $­—                       $­—                  $10,000              Par                                                       $328.33
           9/29/2010          Union Settlement Federal Credit Union, New York, NY                Subordinated Debentures                        $­—                       $­—                $295,000               Par                                                     $9,603.89
1          9/3/2010           United Bancorporation of Alabama, Inc., Atmore, AL                 Preferred Stock                      $10,300,000                         $­—             $10,300,000               Par                                                  $350,200.00
                              UNITEHERE Federal Credit Union, (Workers United Federal Credit
           9/29/2010                                                                             Subordinated Debentures                        $­—                       $­—                  $57,000              Par                                                     $1,855.67
                              Union), New York, NY
1, 2       7/30/2010          University Financial Corp, Inc., St. Paul, MN                      Subordinated Debentures              $11,926,000                $10,189,000              $22,115,000               Par                                                $1,228,303.96
           9/24/2010          UNO Federal Credit Union, New Orleans, LA                          Subordinated Debentures                        $­—                       $­—                $743,000               Par                                                   $24,395.17
           9/29/2010          Vigo County Federal Credit Union, Terre Haute, IN                  Subordinated Debentures                        $­—                       $­—              $1,229,000               Par                                                   $40,010.78
           9/24/2010          Virginia Community Capital, Inc., Christiansburg, VA               Subordinated Debentures                        $­—                       $­—              $1,915,000               Par                                                   $62,875.83
                                                                                                                                                              Total Purchase                                  Total Capital Repayment
                                                                                                                                                                                        $570,073,000                                                 $350,000
                                                                                                                                                                     Amount                                                    Amount
                                                                                                                                          TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                              $569,723,000
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes are taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1	
    This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	
    Treasury made an additional investment in this institution at the time it entered the CDCI program.
                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I July 25, 2012




2a	
    Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	
    On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and
    previously unpaid dividends were paid on the date of the exchange.
4	
    On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation — Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
5	
    Repayment pursuant to Section 5.2 of the CDCI Securities Purchase Agreement.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012.
                                                                                                                                                                                                                                                                                         261
Table D.4                                                                                                                                                                                                                                                                                                       262
 AIFP TRANSACTION DETAIL, AS OF 6/30/2012
                                                                                                                                                                       Treasury Investment After
                                              Initial Investment                              Exchange/Transfer/Other Details                                          Exchange/Transfer/Other                                                               Payment or Disposition1
                                                                                                                                                                                                                                                                               Remaining
                           Trans-                                                                                                                                                                                                                           Remaining         Investment           Dividend/
                           action                                                                                                                                                                  Amount/                                     Amount/     Investment           Amount/      Interest Paid to
               Date        Type      Seller         Description               Amount Note Date             Type                           Amount Note Obligor           Note Description           Equity % Date                 Type          Proceeds    Description          Equity %            Treasury
                                                    Preferred Stock                                      Exchange for
               12/29/2008 Purchase GMAC             w/ Exercised       $5,000,000,000         12/30/2009 convertible preferred     $5,000,000,000                             Convertible
                                                                                                                                                                        21,
                                                    Warrants                                             stock                                           GMAC (Ally)          Preferred     $5,937,500,000
                                                                                                                                                                        22
                                                                                                                                                                              Stock
                                                    Convertible
                                                                                                         Partial conversion of
                                                    Preferred Stock
               5/21/2009   Purchase GMAC                               $7,500,000,000   22    12/30/2009 preferred stock for       $3,000,000,000
                                                    w/ Exercised
                                                                                                         common stock
                                                    Warrants
GMAC (Ally),                                                                                                                                                             3,
                                                                                                                                                                              Common                                                                                                         $2,870,909,382
Detroit, MI                                         Convertible                                                                                          GMAC (Ally)    26,                          73.8%
                                                                                                         Partial conversion of                                                Stock
                                                    Preferred Stock                     22,                                                                             32
               12/30/2009 Purchase GMAC                                $1,250,000,000         12/30/2010 preferred stock for       $5,500,000,000   26
                                                    w/ Exercised                        26
                                                                                                         common stock
                                                    Warrants
                                                    Trust Preferred                                        Exchange for
                                                                                                                                                                              Trust
                                                    Securities                                             amended and
               12/30/2009 Purchase GMAC                                $2,540,000,000         3/1/2011                             $2,670,000,000   27   GMAC (Ally)     27   Preferred     $2,670,000,000 3/2/2011       Disposition28   $2,667,000,000           N/A                 $—
                                                    w/ Exercised                                           restated Trust
                                                                                                                                                                              Securities
                                                    Warrants                                               Preferred Securities
                                   General
                                                                                                           Exchange for equity
               12/29/2008 Purchase Motors      Debt Obligation          $884,024,131    2     5/29/2009                             $884,024,131    3
                                                                                                           interest in GMAC
                                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                   Corporation
                                                                                                           Exchange for
                                   General     Debt Obligation
                                                                                                           preferred and
               12/31/2008 Purchase Motors      w/ Additional          $13,400,000,000         7/10/2009                           $13,400,000,000   7
                                                                                                           common stock in
                                   Corporation Note
                                                                                                           New GM
                                                                                                           Exchange for
                                    General     Debt Obligation                                                                                          General        10,
                                                                                                           preferred and                                                      Preferred
               4/22/2009   Purchase Motors      w/ Additional          $2,000,000,000   4     7/10/2009                            $2,000,000,000   7    Motors         11,                 $2,100,000,000 12/15/2010      Repayment      $2,139,406,778           N/A                 $—
                                                                                                           common stock in                                                    Stock
                                    Corporation Note                                                                                                     Company        24
                                                                                                           New GM

                                                                                                           Exchange for                                                                                                         Partial                       Common
                                    General     Debt Obligation                                                                                          General        10,                                  11/18/2010                 $11,743,303,903                           36.9%
                                                                                                           preferred and                                                      Common                                      Disposition25                         Stock
               5/20/2009   Purchase Motors      w/ Additional          $4,000,000,000   5     7/10/2009                            $4,000,000,000   7    Motors         11,                          60.8%
                                                                                                           common stock in                                                    Stock                                             Partial                       Common
                                    Corporation Note                                                                                                     Company        25                                   11/26/2010                   $1,761,495,577                         32.04%
                                                                                                           New GM                                                                                                         Disposition25                         Stock
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             7/10/2009                     $360,624,198                   $6,711,864,407
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             12/18/2009                   $1,000,000,000                  $5,711,864,407
                                                                                                           Exchange for                                  General                                                           Repayment                         Obligation
                                    General     Debt Obligation                                                                                                                                                                                                                               $756,714,508
                                                                                                           preferred and                                 Motors         11,   Debt
               5/27/2009   Purchase Motors      w/ Additional           $360,624,198    6     7/10/2009                             $360,624,198    7                                       $7,072,488,605                     Partial                            Debt
                                                                                                           common stock in                               Holdings       12    Obligation                     1/21/2010                      $35,084,421                   $5,676,779,986
                                    Corporation Note                                                                                                                                                                       Repayment                         Obligation
                                                                                                           New GM                                        LLC
General
Motors,b,c                                                                                                                                                                                                                     Partial                            Debt
                                                                                                                                                                                                             3/31/2010                    $1,000,000,000                  $4,676,779,986
Detroit, MI                                                                                                                                                                                                                Repayment                         Obligation
                                                                                                                                                                                                             4/20/2010     Repayment      $4,676,779,986           N/A                 $—
                                                                                                           Exchange for
                                    General     Debt Obligation
                                                                                                           preferred and
               6/3/2009    Purchase Motors      w/ Additional         $30,100,000,000   8     7/10/2009                           $22,041,706,310   9
                                                                                                           common stock in
                                    Corporation Note
                                                                                                           New GM
                                                                                                           Transfer of debt to
                                                                                              7/10/2009                            $7,072,488,605   9
                                                                                                           New GM
                                                                                                                                                         Motors
                                                                                                                                                                              Debt                                             Partial                            Debt
                                                                                              7/10/2009    Debt left at Old GM      $985,805,085    9    Liquidation     29                  $985,805,085 3/31/2011                         $50,000,000                    $935,805,085
                                                                                                                                                                              Obligation                                   Repayment                         Obligation
                                                                                                                                                         Company
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             4/5/2011                       $45,000,000                    $890,805,085
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             5/3/2011                       $15,887,795                    $874,917,290
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             12/16/2011                        $144,444                    $874,772,846
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             12/23/2011                     $18,890,294                    $855,882,552
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                               Partial                            Debt
                                                                                                                                                                                                             1/11/2012                       $6,713,489                    $849,169,063
                                                                                                                                                                                                                           Repayment                         Obligation
                                                                                                                                                                                                                                                                                       Continued on next page
AIFP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)
                                                                                                                                                               Treasury Investment After Exchange/
                                             Initial Investment                              Exchange/Transfer/Other Details                                              Transfer/Other                                                                         Payment or Disposition1
                                                                                                                                                                                                                                                                                     Remaining
                         Trans-                                                                                                                                                                                                                                Remaining            Investment         Dividend/
                         action                                                                                                                                                                    Amount/                                        Amount/     Investment              Amount/    Interest Paid to
             Date        Type       Seller         Description                Amount Note Date           Type                             Amount Note Obligor           Note Description           Equity % Date                    Type          Proceeds    Description             Equity %          Treasury
                                                                                                                                                                                                                                                                      Debt
                                                   Debt Obligation
                                    Chrysler                                                                                                                                                                                     Partial                         Obligation
             1/16/2009   Purchase                  w/ Additional       $1,500,000,000   13                                                                                                                  3/17/2009                           $3,499,055                      $1,496,500,945
                                    FinCo                                                                                                                                                                                    Repayment                        w/ Additional
                                                   Note
                                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                                                                      Debt
                                                                                                                                                                                                                                 Partial                         Obligation
                                                                                                                                                                                                            4/17/2009                          $31,810,122                      $1,464,690,823
                                                                                                                                                                                                                             Repayment                        w/ Additional
                                                                                                                                                                                                                                                                      Note
Chrysler                                                                                                                                                                                                                                                              Debt
FinCo,                                                                                                                                                                                                                           Partial                         Obligation
                                                                                                                                                                                                            5/18/2009                          $51,136,084                      $1,413,554,739       $7,405,894
Farmington                                                                                                                                                                                                                   Repayment                        w/ Additional
Hills, MI                                                                                                                                                                                                                                                             Note
                                                                                                                                                                                                                                                                      Debt
                                                                                                                                                                                                                                 Partial                         Obligation
                                                                                                                                                                                                            6/17/2009                          $44,357,710                      $1,369,197,029
                                                                                                                                                                                                                             Repayment                        w/ Additional
                                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                                                                 Additional
                                                                                                                                                                                                            7/14/2009        Repayment       $1,369,197,029                                $­—
                                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                            7/14/2009     Repayment*           $15,000,000             N/A                 $­—
                                                                                                                                                                              Debt
                                                   Debt Obligation
                                    Chrysler                                                             Transfer of debt to                              Chrysler            obligation
             1/2/2009    Purchase                  w/ Additional       $4,000,000,000        6/10/2009                              $500,000,000     19                  20                   $3,500,000,000 5/14/2010       Termination     $1,900,000,000            N/A                 $­—
                                    Holding                                                              New Chrysler                                     Holding             w/ additional
                                                   Note                                                                                                                                                                              and
                                                                                                                                                                              note
                                                                                                                                                                                                                              settlement
                                                   Debt Obligation                                                                                                                                                            payment20
                                    Chrysler
             4/29/2009   Purchase                  w/ Additional                 $­—    14
                                    Holding
                                                   Note
                                                   Debt Obligation
                                    Chrysler
             4/29/2009   Purchase                  w/ Additional        $280,130,642    15                                                                                                                  7/10/2009        Repayment        $280,130,642             N/A                 $­—
                                    Holding
                                                   Note
                                               Debt Obligation                                                                                            Old Carco           Right to                                          Proceeds                          Right to
             5/1/2009    Purchase Old Chrysler w/ Additional           $1,888,153,580   16   4/30/2010   Completion               ($1,888,153,580)   23   Liquidation    23   recover                   N/A 5/10/2010        from sale of      $30,544,528         recover                 N/A
                                               Note                                                      of bankruptcy                                    Trust               proceeds                                          collateral                       proceeds
                                                                                                         proceeding; transfer
                                               Debt Obligation                                           of collateral security                                                                                                 Proceeds                          Right to
             5/20/2009   Purchase Old Chrysler w/ Additional                     $­—    17               to liquidation trust                                                                               9/9/2010         from sale of       $9,666,784         recover                 N/A
                                               Note                                                                                                                                                                             collateral                       proceeds
                                                                                                                                                                                                                                Proceeds                          Right to
                                                                                                                                                                                                            12/29/2010       from sale of       $7,844,409         recover                 N/A
Chrysler,                                                                                                                                                                                                                       collateral                       proceeds
Auburn                                                                                                                                                                                                                          Proceeds                          Right to                       $1,171,263,942
Hills, MI                                                                                                                                                                                                   4/30/2012        from sale of       $9,302,185         recover                 N/A
                                                                                                                                                                                                                                collateral                       proceeds
                                                                                                                                                                              Debt
                                                   Debt Obligation
                                                                                                                                                                              obligation
                                                   w/ Additional
                                  New                                                                    Issuance of equity in                            Chrysler      19,   w/ additional                               Repayment -
             5/27/2009   Purchase                  Note, Zero          $6,642,000,000   18   6/10/2009                                        $­—                                             $7,142,000,000 5/24/2011                       $5,076,460,000
                                  Chrysler                                                               New Chrysler                                     Group LLC     31    note & zero                                    Principal
                                                   Coupon Note,
                                                                                                                                                                              coupon
                                                   Equity
                                                                                                                                                                              note
                                                                                                                                                                                                                             Termination
                                                                                                                                                                                                            5/24/2011        of undrawn      $2,065,540,000            N/A                 $­—
                                                                                                                                                                                                                                facility31
                                                                                                                                                                                                                          Repayment*
                                                                                                                                                                                                            5/24/2011      - Additional       $288,000,000
                                                                                                                                                                                                                                  Note
                                                                                                                                                                                                                         Repayment* -
                                                                                                                                                                                                            5/24/2011     Zero Coupon         $100,000,000
                                                                                                                                                                                                                                 Note
                                                                                                                                                          Chrysler            Common
                                                                                                                                                                         30                            6.6% 7/21/2011         Disposition     $560,000,000             N/A                 $­—
                                                                                                                                                          Group LLC           equity
                                                                                                                                                                                                            Additional Proceeds*                                                $403,000,000
                                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 25, 2012




                         Total Initial Investment Amount             $81,344,932,551                                                                                                                        Total Payments                                                    $34,894,279,433
                                                                                                                                                                                                            Total Treasury Investment Amount                                  $40,896,959,538
                                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                                    263
                                                                                                                                                                                                                                                                                                                                264
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transaction Report. 											
GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.										
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.																	
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC.”														
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).																
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.										
	
1
  	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.					
2
  	Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.				
3
  	Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
     marked by orange line in the table above and footnote 22.)															
4
  	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.									
5
  	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.												
6
  	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed
     by the new GM, as explained in footnote 10.																
7
  	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)					
8
  	Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had been
     disbursed by Treasury.
9
  	On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
     separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.									
10
   	In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)			
11
   	Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company”
     on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.		
12
   	Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.									
13
   	The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.		
14
   	This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.					
15
   	The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.												
16
   	This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
     6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.								
17
   	This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
                                                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




     terminated.	
18
   	This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion.
     The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new
     Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.													
19
   	Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler. 										
20
   	Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment
     of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.						
21
   	Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.											
22
   	Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.				
23
   	On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to a
     liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.										
24
   	On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock. The
     repurchase was completed on 12/15/2010.																	
25
   	On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On 11/26/2010,
     the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total
     $13,504,799,480.
26
   	On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.	
27
   	On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury
     received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.														
28
   	On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the
     accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.							
29
   	On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were transferred to
     liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.				
30
   	In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically increased
     from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On 7/21/2011, Fiat,
     through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.					
31
   	On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.											
32
   	On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.			

a
 	 For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.												
b
 	According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”														
c
 	 This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 6/27/2012; For Treasury’s web version of its Transactions Report, please refer to the following web address: www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/default.aspx; Treasury, Dividends and Interest Report, 7/11/2012.
Table D.5
ASSP TRANSACTION DETAIL, AS OF 6/30/2012
                       Seller                                                                                                                                                      Adjustment Details    Repayment4
                                                                                                                                                                                            Adjusted                                                     Remaining
                                                             Transaction      Investment                     Investment         Pricing        Adjustment            Adjustment           Investment                                                    Investment                                Dividend/Interest
Note      Date         Institution Name                      Type             Description                       Amount       Mechanism               Date               Amount               Amount      Date                      Type                 Description               Amount           Paid to Treasury
                                                                                                                                                                                                                                  Partial          Debt Obligation w/
                                                                                                                                                                                                         11/20/2009                                                        $140,000,000
                                                                                                                                                                                                                              repayment               Additional Note

                       GM Supplier Receivables LLC                            Debt Obligation w/                                                7/8/20093       ($1,000,000,000)      $2,500,000,000                              Partial          Debt Obligation w/
1         4/9/2009                                           Purchase                                   $3,500,000,000                N/A                                                                2/11/2010                                                         $100,000,000                 $9,087,808
                       Wilmington, DE                                         Additional Note                                                                                                                                 repayment               Additional Note
                                                                                                                                                                                                         3/4/2010         Repayment5                  Additional Note         $50,000,000
                                                                                                                                                                                       $290,000,000      4/5/2010              Payment6                        None           $56,541,893

                       Chrysler Receivables SPV LLC                           Debt Obligation w/        $1,500,000,000                N/A       7/8/20093        ($500,000,000)       $1,000,000,000     3/9/2010         Repayment5                  Additional Note      $123,076,735
2         4/9/2009                                           Purchase                                                                                                                                                                                                                                   $5,787,176
                       Wilmington, DE                                         Additional Note                                                                                          $123,076,735      4/7/2010              Payment7                        None           $44,533,054
Initial Total          $5,000,000,000                                                                                                       Adjusted Total       $413,076,735                                                                  Total Repayments           $413,076,735
                                                                                                                  Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
 	The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
 	 Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
 	 Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
 	All outstanding principal drawn under the credit agreement was repaid.
6
 	Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.
7
 	Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012.




Table D.6
TIP TRANSACTION DETAIL, AS OF 6/30/2012
                                                                                                                                                                                Treasury Investment
                                                                                                                                                                                Remaining After Capital
                        Seller                                                                                                              Capital Repayment Details           Repayment                                        Final Disposition                              Market and Warrant Data
                                                                                                                                                     Capital         Capital     Remaining      Remaining             Final               Final                 Final                                    Dividends/
                        Institution        Transaction                                                     Investment         Pricing             Repayment       Repayment        Capital         Capital      Disposition         Disposition           Disposition   Stock       Outstanding     Interest Paid to
Note Date               Name               Type            Investment Description                             Amount       Mechanism                 Amount            Date2       Amount       Description          Date3          Description            Proceeds     Price    Warrant Shares            Treasury
                                                           Trust Preferred Securities w/
    1   12/31/2008      Citigroup Inc.     Purchase                                                  $20,000,000,000                 Par    $20,000,000,000      12/23/2009              $—        Warrants     1/25/2011 A             Warrants       $190,386,428 $27.41                          $1,568,888,889
                                                           Warrants
                        Bank of America
        1/16/2009                          Purchase        Preferred Stock w/ Warrants               $20,000,000,000                 Par    $20,000,000,000       12/9/2009              $—        Warrants      3/3/2010 A             Warrants     $1,236,804,513     $8.18                       $1,435,555,556
                        Corporation
                                                                                                                            Total Capital
                                                           Total Investment                          $40,000,000,000                        $40,000,000,000
                                                                                                                             Repayment
                                                                                              Total Treasury TIP Investment Amount                        $­—                                                                                        Total Warrant Proceeds     $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
 	 Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
 	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012; Bloomberg LP, accessed 7/2/2012.
                                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                                                       265
Table D.7                                                                                                                                                                                                                                                                                                                                266
AGP TRANSACTION DETAIL, AS OF 6/30/2012
                         Initial Investment                                                                     Premium                                        Exchange/Transfer/Other Details                                                 Payment or Disposition                          Market and Warrant Data
                                                                                                                                                                                                                                                       Remaining                 Remaining Outstanding                      Dividends/
                         Institution       Transaction                                                                                                                                                                   Payment               Payment Premium                    Premium Warrant               Stock    Interest Paid
Note     Date            Name              Type        Description       Guarantee Limit     Description              Amount            Date               Type     Description             Amount             Date         Type                Amount Description                 Amount Shares                Price      to Treasury
                                                                                                                                                      Exchange                                                               Partial
                                                                                                                                                                             Trust                                                                         Trust
                                                                                                                                                       preferred                                                       cancellation
                                                                                                                                                                       Preferred                                                                           Preferred
                                                                                                                                   6/9/2009       stock for trust                    $4,034,000,000    12/23/2009          for early   ($1,800,000,000)                    $2,234,000,000
                                                                                                                                                                    Securities w/                                                                          Securities w/
                                                                                                                                                       preferred                                                        termination
                                                                                             Preferred                                                                 Warrants                                                                            Warrants
1,2,3,                   Citigroup Inc.,                 Master                                                                                       securities                                                      of guarantee
         1/16/2009                         Guarantee                      $5,000,000,000     Stock w/        $4,034,000,000                                                                                                                                                                                   $27.41 $442,964,764
4,5                      New York, NY                    Agreement                                                                                    Exchange                                          9/30/2010       Disposition     $2,246,000,000 Warrants                          $—
                                                                                             Warrants                                                                        Trust
                                                                                                                                                 trust preferred
                                                                                                                                                                       Preferred
                                                                                                                                 9/29/2010         securities for                    $2,246,000,000                        Warrant
                                                                                                                                                                    Securities w/                       1/25/2011                          $67,197,045 None                              $—
                                                                                                                                                 trust preferred                                                           Auction
                                                                                                                                                                       Warrants
                                                                                                                                                      securities
                                                         Termination
3        12/23/2009      Citigroup Inc.    Termination                  ($5,000,000,000)
                                                         Agreement
                                                         Total           $­—                                                                                                                                      Total Proceeds       $2,313,197,045
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	 In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
   Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
 	On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
   Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity
                                                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I July 25, 2012




   Guarantee Program.
4
 	On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc.
   paid the outstanding accrued and unpaid dividends.
5
 	 On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012; Bloomberg LP, accessed 7/2/2012.




Table D.8
TALF TRANSACTION DETAIL, AS OF 6/30/2012
                         Seller
                                                         Transaction                                                                            Pricing                 Adjusted                            Adjusted
Note       Date          Institution                     Type              Investment Description                      Investment Amount        Mechanism               Investment Date           Investment Amount
1,2        3/3/2009      TALF LLC, Wilmington, DE        Purchase          Debt Obligation w/ Additional Note             $20,000,000,000       N/A                     7/19/2010                     $4,300,000,000
                                                                           Total                                          $4,300,000,000
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan
   will be incrementally funded.
2
 	On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to
   $4,300,000,000.

Sources: Treasury, Transactions Report, 6/27/2012.
Table D.9
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012
                     Seller                Purchase Details                                                    Exchange/Transfer Details


                     Name of               Transaction    Investment              Investment   Pricing                                                                                                                        Pricing                           Outstanding    Dividends/Interest Paid
Note    Date         Institution           Type           Description                Amount    Mechanism       Date                            Transaction Type    Investment Description                       Amount     Mechanism       Stock Price       Warrant Shares                to Treasury
                                                          Preferred Stock
                                                                                                                                                                   Preferred Stock w/
1       11/25/2008   AIG, New York, NY     Purchase       w/ Warrants        $40,000,000,000   Par             4/17/2009                       Exchange                                       1         $40,000,000,000            Par         $32.09             2,686,938                        $—
                                                                                                                                                                   Warrants (Series E)
                                                          (Series D)
                                                                                                               See table below for
                                                          Preferred Stock                                      exchange/transfer details
2, 3    4/17/2009    AIG, New York, NY     Purchase       w/ Warrants        $29,835,000,000   Par             in connection with the                                                                                                          $32.09                   150             $641,275,676
                                                          (Series F)                                           recapitalization conducted on
                                                                                                               1/14/2011.
                                                          Initial Total     $69,835,000,000
                                                                                                                                               Final Disposition
                                                                                                                                                                                         Transaction                          Pricing
                                                                                                                                               Date                Investment                                 Proceeds
                                                                                                                                                                                         Type                              Mechanism

                                                                                                                                                                   Warrants
                                                                                                                                                                   (Series E)

                                                                                                                                                                   Warrants
                                                                                                                                                                   (Series F)


                                       Recapitalization                                                    Treasury Holdings Post-Recapitalization                                                             Final Disposition
                                                                                                                                                                                                                                                           Remaining Recap
                     Investment            Transaction             Pricing                                                                                                               Transaction                                          Pricing    Investment Amount,
                                                                                                                                                                                                                                       8
Note    Date         Description           Type                    Mechanism                   Investment Description                          Amount / Shares     Date                  Type                               Proceeds       Mechanism     Shares, or Equity %
                                           Exchange                Par                         Preferred Stock (Series G)                      $2,000,000,000      5/27/2011             Cancellation                              $—             N/A                  $—10
                                                                                                                                                                   2/14/2011             Payment                          $185,726,192             Par
                                                                                                                                                                   3/8/2011              Payment                      $5,511,067,614               Par
                                                                                                                                                                   3/15/2011             Payment                           $55,833,333             Par
                                                                                                                                                                   8/17/2011             Payment                           $97,008,351             Par
                                                                                                                                                                   8/18/2011             Payment                      $2,153,520,000               Par
                                                                                               AIA Preferred Units                             $16,916,603,568                                                                                                          $—
                                                                                                                                                                   9/2/2011              Payment                           $55,885,302             Par
                     Preferred Stock
4,7,8   1/14/2011                          Exchange                N/A                                                                                             11/1/2011             Payment                          $971,506,765             Par
                     (Series F)
                                                                                                                                                                   3/8/2012              Payment                      $5,576,121,382               Par
                                                                                                                                                                   3/15/2012             Payment                      $1,521,632,096               Par
                                                                                                                                                                   3/22/2012             Payment                      $1,493,250,339               Par
                                                                                                                                                                   2/14/2011             Payment                      $2,009,932,072               Par
                                                                                               ALICO Junior Preferred Interests                $3,375,328,432      3/8/2011              Payment                      $1,383,888,037               Par                  $—
                                                                                                                                                                   3/15/2012             Payment                           $44,941,843             Par
                                           Exchange
                                                                                                                                                                                         Partial                                                            1,455,037,962 9
                     Preferred Stock                                                                                                           $167,623,733        5/24/2011                                          $5,800,000,000              N/A
5       1/14/2011                          Exchange                N/A                                                                                                                   Disposition
                     (Series E)                                                                                                                                                                                                                                         77%


                                                                                                                                                                                         Partial                                                             1,248,141,41011
                                                                                                                                                                   3/8/2012                                           $6,000,000,008              N/A
                                                                                                                                                                                         Disposition
                                                                                               Common Stock                                    $924,546,133                                                                                                             70%

                     Common Stock                                                                                                                                                        Partial                                                             1,084,206,98412
6       1/14/2011                          Transfer                                                                                                                5/6/2012                                           $4,999,999,993              N/A
                     (non-TARP)                                                                                                                                                          Disposition                                                                    63%
                                                                                                                                                                                                                                                             1,059,616,82112
                                                                                                                                                                                         Partial
                                                                                                                                               $562,868,096        5/7/2012                                               $749,999,972            N/A
                                                                                                                                                                                         Disposition                                                                    61%

                                                                                                                                                                   Total                                           $38,610,313,300
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                                          267
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from the Treasury’s 6/27/2012 Transactions Report, and Treasury’s 7/10/2012 Dividends and Interest Report.
1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to Treasury of
                                                                                                                                                                                                                                                                                                                                      268
   $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	 This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4
 	On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and
   (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2,000,000,000.
5
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
 	On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
   transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for an aggregate amount equal to $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10
  	On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for an aggregate amount equal to $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12
  	On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012; Bloomberg LP, accessed 7/2/2012.




Table D.10
UCSB TRANSACTION DETAIL, AS OF 6/30/2012
                                                           Purchase Details1                                                                                                 Settlement Details                                                                      Final Disposition
                                                                                                                                                                                                               Senior                          Life-to-date
                                                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I July 25, 2012




Purchase                                                                                              Purchase Face             Pricing     TBA or     Settlement              Investment      TBA or         Security                            Principal     Current Face          Disposition
Date          Investment Description                          Institution Name      CUSIP                  Amount3           Mechanism       PMF3      Date                     Amount2, 3      PMF3        Proceeds4     Trade Date           Received1, 8       Amount6, 8           Amount5, 6     Interest Paid to Treasury
3/19/2010     Floating Rate SBA 7a security due 2025          Coastal Securities    83164KYN7             $4,070,000              107.75       —       3/24/2010              $4,377,249          —             $2,184    6/21/2011              $902,633         $3,151,186          $3,457,746                       $169,441
3/19/2010     Floating Rate SBA 7a security due 2022          Coastal Securities    83165ADC5             $7,617,617                 109       —       3/24/2010              $8,279,156          —             $4,130    10/19/2011           $1,685,710         $5,891,602          $6,462,972                       $449,518
3/19/2010     Floating Rate SBA 7a security due 2022          Coastal Securities    83165ADE1             $8,030,000             108.875       —       3/24/2010              $8,716,265          —             $4,348    6/21/2011            $2,022,652         $5,964,013          $6,555,383                       $371,355
4/8/2010      Floating Rate SBA 7a security due 2034          Coastal Securities    83165AD84            $23,500,000             110.502       —       5/28/2010             $26,041,643          —           $12,983     6/7/2011             $1,149,633        $22,350,367         $25,039,989                     $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016          Coastal Securities    83164KZH9             $8,900,014               107.5       —       4/30/2010              $9,598,523          —             $4,783    6/7/2011             $2,357,796         $6,542,218          $7,045,774                       $414,561
5/11/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83165AEE0            $10,751,382             106.806       —       6/30/2010             $11,511,052          —             $5,741    6/7/2011               $932,112         $9,819,270         $10,550,917                       $348,599
5/11/2010     Floating Rate SBA 7a security due 2035          Coastal Securities    83164K2Q5            $12,898,996              109.42       —       6/30/2010             $14,151,229          —             $7,057    6/7/2011               $328,604        $12,570,392         $13,886,504                       $479,508
5/11/2010     Floating Rate SBA 7a security due 2033          Coastal Securities    83165AED2             $8,744,333             110.798       —       6/30/2010              $9,717,173          —             $4,844    6/7/2011               $261,145         $8,483,188          $9,482,247                       $368,608
5/25/2010     Floating Rate SBA 7a security due 2029          Coastal Securities    83164K3B7             $8,417,817             110.125       —       7/30/2010              $9,294,363          —             $4,635    6/7/2011               $246,658         $8,171,159          $8,985,818                       $287,624
5/25/2010     Floating Rate SBA 7a security due 2033          Coastal Securities    83165AEK6            $17,119,972             109.553       —       7/30/2010             $18,801,712          —             $9,377    9/20/2011            $2,089,260        $15,030,712         $16,658,561                       $657,863
6/17/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83165AEQ3            $34,441,059             110.785       —       8/30/2010             $38,273,995          —           $19,077     6/21/2011            $1,784,934        $32,656,125         $36,072,056                     $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034          Coastal Securities    83165AEP5            $28,209,085             112.028       —       8/30/2010             $31,693,810          —           $15,801     9/20/2011            $2,278,652        $25,930,433         $29,142,474                     $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83164K3Y7             $6,004,156             106.625       —       9/30/2010              $6,416,804          —             $3,200    6/21/2011              $348,107         $5,656,049          $6,051,772                       $146,030
7/14/2010     Floating Rate SBA 7a security due 2025          Shay Financial        83164K4J9             $6,860,835             108.505       —       9/30/2010              $7,462,726          —             $3,722    10/19/2011             $339,960         $6,520,875          $7,105,304                       $255,370
7/14/2010     Floating Rate SBA 7a security due 2034          Shay Financial        83165AE42            $13,183,361              111.86       —       9/30/2010             $14,789,302          —             $7,373    6/21/2011              $478,520        $12,704,841         $14,182,379                       $423,725
7/29/2010     Floating Rate SBA 7a security due 2017          Coastal Securities    83164K4E0             $2,598,386             108.438       —       9/30/2010              $2,826,678          —             $1,408    1/24/2012              $694,797         $1,903,407          $2,052,702                       $140,130
7/29/2010     Floating Rate SBA 7a security due 2034          Shay Financial        83164K4M2             $9,719,455              106.75       —       10/29/2010            $10,394,984          —             $5,187    6/21/2011              $188,009         $9,531,446         $10,223,264                       $181,124
8/17/2010     Floating Rate SBA 7a security due 2020          Shay Financial        83165AEZ3             $8,279,048             110.198       —       9/30/2010              $9,150,989          —             $4,561    9/20/2011            $1,853,831         $6,425,217          $7,078,089                       $335,082
8/17/2010     Floating Rate SBA 7a security due 2019          Coastal Securities    83165AFB5             $5,000,000             110.088       —       10/29/2010             $5,520,652          —             $2,752    10/19/2011             $419,457         $4,580,543          $5,029,356                       $213,319
8/17/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83165AE91            $10,000,000             110.821       —       10/29/2010            $11,115,031          —             $5,541    10/19/2011             $969,461         $9,030,539          $9,994,806                       $433,852
8/31/2010     Floating Rate SBA 7a security due 2020          Shay Financial        83165AEW0             $9,272,482             110.515       —       9/29/2010             $10,277,319          —             $5,123    9/20/2011              $868,636         $8,403,846          $9,230,008                       $386,326
8/31/2010     Floating Rate SBA 7a security due 2024          Shay Financial        83165AFA7            $10,350,000             112.476       —       10/29/2010            $11,672,766          —             $5,820    10/19/2011             $250,445        $10,099,555         $11,314,651                       $425,545
8/31/2010     Floating Rate SBA 7a security due 2020          Coastal Securities    83164K5H2             $6,900,000             105.875       —       11/30/2010             $7,319,688          —             $3,652    1/24/2012              $663,200         $6,236,800          $6,556,341                       $209,956
9/14/2010     Floating Rate SBA 7a security due 2020          Shay Financial        83165AFC3             $8,902,230             111.584       —       10/29/2010             $9,962,039          —             $4,966    1/24/2012            $1,398,549         $7,503,681          $8,269,277                       $447,356
9/14/2010     Floating Rate SBA 7a security due 2021          Shay Financial        83165AFK5             $8,050,000             110.759       —       11/30/2010             $8,940,780          —             $4,458    1/24/2012              $996,133         $7,053,867          $7,703,610                       $354,302
9/14/2010     Floating Rate SBA 7a security due 2029          Coastal Securities    83164K5F6             $5,750,000               106.5       —       11/30/2010             $6,134,172          —             $3,061    1/24/2012              $276,276         $5,473,724          $5,764,858                       $156,481
9/14/2010     Floating Rate SBA 7a security due 2026          Coastal Securities    83164K5L3             $5,741,753               110.5       —       11/30/2010             $6,361,173          —             $3,172    1/24/2012            $1,433,872         $4,307,881          $4,693,918                       $239,527
9/28/2010     Floating Rate SBA 7a security due 2035          Coastal Securities    83164K5M1             $3,450,000             110.875       —       11/30/2010             $3,834,428          —             $1,912    10/19/2011               $82,832        $3,367,168          $3,698,411                       $111,165
9/28/2010     Floating Rate SBA 7a security due 2034          Coastal Securities    83165AFT6            $11,482,421             113.838       —       12/30/2010            $13,109,070          —             $6,535    1/24/2012              $889,646        $10,592,775         $11,818,944                       $512,131
                                                                                                                                                                                                                                                                                                          Continued on next page
       UCSB TRANSACTION DETAIL, AS OF 6/30/2012                                                            (Continued)
                                                                   Purchase Details1                                                                                                  Settlement Details                                                                        Final Disposition
                                                                                                                                                                                                                         Senior                          Life-to-date
       Purchase                                                                                                Purchase Face             Pricing      TBA or    Settlement              Investment       TBA or         Security                            Principal      Current Face            Disposition
       Date          Investment Description                            Institution Name      CUSIP                  Amount3           Mechanism        PMF3     Date                     Amount2, 3       PMF3        Proceeds4     Trade Date           Received1, 8        Amount6, 8             Amount5, 6     Interest Paid to Treasury
       9/28/2010     Floating Rate SBA 7a security due 2034            Shay Financial        83165AFM1           $13,402,491                113.9       —       11/30/2010             $15,308,612          —             $7,632    10/19/2011              $438,754        $12,963,737          $14,433,039                       $516,624
       9/28/2010     Floating Rate SBA 7a security due 2035            Shay Financial        83165AFQ2           $14,950,000             114.006        —       12/30/2010             $17,092,069          —             $8,521    1/24/2012               $387,839        $14,562,161          $16,383,544                       $681,819
                                                                                                                                                                                                            Total
                                                                                                                                                                                                           Senior
                                                                       Total Purchase Face Amount              $332,596,893                         Total Investment Amount*        $368,145,452                      $183,555                              Total Disposition Proceeds         $334,924,711                   $13,347,352
                                                                                                                                                                                                         Security
                                                                                                                                                                                                        Proceeds
       Notes: Numbers affected by rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
       *Subject to adjustment
       1
        	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
       2
        	 Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
       3
        	If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed
          as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s
          factor (on or about the 11th business day of each month).
       4
        	In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the
          product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master
          Purchase Agreement.
       5
        	 Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
       6
        	If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th
          business day of each month).
       7
        	Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
       8
        	 The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

       Sources: Treasury, Transactions Report, 6/27/2012, Treasury, Dividends and Interest Report, 7/11/2012.




Table D.11
 PPIP TRANSACTION DETAIL, AS OF 6/30/2012
                                                                                                                                                                                                      Final
                                                                                                                                                                                                Investment
                                                        Seller                                                               Adjusted Investment3           Final Commitment Amount7               Amount9        Capital Repayment Details      Investment After Capital Repayment                Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                                                                         Distributions
                                                           Transaction Investment             Investment   Pricing                                                                                         Repayment               Repayment                                                                                                   Paid to
Note   Date          Institution        City         State Type        Description               Amount Mechanism Date                          Amount      Date                 Amount             Amount      Date                  Amount              Amount               DescriptionDate            Description      Proceeds          Treasury
                                                                           Debt
                     UST/TCW
                                                                           Obligation
                     Senior Mortgage                                                                                                                                                                                                                                    Debt Obligation w/
2,4,5 9/30/2009                       Wilmington DE         Purchase       w/             $2,222,222,222             Par 1/4/2010        $200,000,000 1/4/2010            $200,000,000       $200,000,000       1/11/2010        $34,000,000       $166,000,000
                     Securities Fund,                                                                                                                                                                                                                                 Contingent Proceeds
                                                                           Contingent
                     L.P.
                                                                           Proceeds
                                                                                                                                                                                                                                                                                              1/29/2010 Distribution       $502,302
                                                                                                                                                                                                                1/12/2010      $166,000,000                     —     Contingent Proceeds                 Final
                                                                                                                                                                                                                                                                                              2/24/2010                       $1,223          $342,176
                                                                                                                                                                                                                                                                                                          Distribution
                     UST/TCW
                     Senior Mortgage                                       Membership
1,4,5 9/30/2009                       Wilmington DE         Purchase                  $1,111,111,111                 Par 1/4/2010        $156,250,000 1/4/2010            $156,250,000       $156,250,000                                                                                     1/29/2010 Distribution     $20,091,872
                     Securities Fund,                                      Interest
                     L.P.                                                                                                                                                                                       1/15/2010      $156,250,000                     —       Membership Interest

                                                                                                                                                                                                                                                                                                          Final
                                                                                                                                                                                                                                                                                              2/24/2010                     $48,922
                                                                                                                                                                                                                                                                                                          Distribution
                                                                                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                                                                                         269
PPIP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)

                                                                                                                                                                                                                                                                                                         270
                                                                                                                                                                      Final
                                                                                                                                                                Investment
                                                    Seller                                                Adjusted Investment3     Final Commitment Amount7        Amount9     Capital Repayment Details   Investment After Capital Repayment         Distribution or Disposition
                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                         Distributions
                                                    Transaction Investment         Investment   Pricing                                                                   Repayment           Repayment                                                                                        Paid to
Note   Date        Institution      City      State Type        Description           Amount Mechanism Date               Amount   Date             Amount         Amount      Date              Amount          Amount             DescriptionDate         Description      Proceeds        Treasury
                   Invesco Legacy
                   Securities                                     Membership
1,6    9/30/2009                    Wilmington DE      Purchase              $1,111,111,111         Par 3/22/2010 $1,244,437,500 7/16/2010     $856,000,000   $580,960,000     2/18/2010      $2,444,347    $578,515,653   Membership Interest10
                   Master Fund,                                   Interest
                   L.P.
                                                                                                                                                                               4/15/2010      $3,533,199    $574,982,454   Membership Interest10
                                                                                                                                                                               9/15/2010     $30,011,187    $544,971,267   Membership Interest10
                                                                                                                                                                              11/15/2010     $66,463,982    $478,507,285   Membership Interest10
                                                                                                                                                                              12/14/2010     $15,844,536    $462,662,749   Membership Interest10
                                                                                                                                                                               1/14/2011     $13,677,726    $448,985,023   Membership Interest10
                                                                                                                                                                               2/14/2011     $48,523,845    $400,461,178   Membership Interest10
                                                                                                                                                                               3/14/2011     $68,765,544    $331,695,634   Membership Interest10
                                                                                                                                                                               4/14/2011     $77,704,254    $253,991,380   Membership Interest10
                                                                                                                                                                               5/20/2011     $28,883,733    $225,107,647   Membership Interest10
                                                                                                                                                                               6/14/2011      $9,129,709    $215,977,938   Membership Interest10
                                                                                                                                                                               7/15/2011     $31,061,747    $184,916,192   Membership Interest10
                                                                                                                                                                               8/12/2011     $10,381,214    $174,534,977   Membership Interest10
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                              10/17/2011      $6,230,731    $168,304,246   Membership Interest10
                                                                                                                                                                              12/14/2011      $1,183,959    $167,120,288   Membership Interest10
                                                                                                                                                                               1/17/2012      $1,096,185    $166,024,103   Membership Interest10
                                                                                                                                                                               2/14/2012      $1,601,688    $164,422,415   Membership Interest10
                                                                                                                                                                               3/14/2012      $3,035,546    $161,386,870   Membership Interest10
                                                                                                                                                                               3/29/2012    $161,386,870              —    Membership Interest103/29/2012 Distribution 5   $56,390,209
                                                                  Debt
                   Invesco Legacy
                                                                  Obligation
                   Securities                                                                                                                                                                                                 Debt Obligation w/
2,6,8 9/30/2009                     Wilmington DE      Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000       2/18/2010      $4,888,718 $1,157,031,282
                   Master Fund,                                                                                                                                                                                             Contingent Proceeds
                                                                  Contingent
                   L.P.
                                                                  Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               4/15/2010      $7,066,434 $1,149,964,848
                                                                                                                                                                                                                            Contingent Proceeds                                          $99,336,742
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               9/15/2010     $60,022,674 $1,089,942,174
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                              11/15/2010    $132,928,628    $957,013,546
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                              12/14/2010     $31,689,230    $925,324,316
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               1/14/2010     $27,355,590    $897,968,726
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               2/14/2011     $92,300,138    $805,668,588
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               3/14/2011    $128,027,536    $677,641,052
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               4/14/2011    $155,409,286    $522,231,766
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               5/20/2011     $75,085,485    $447,146,281
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               6/14/2011     $18,259,513    $428,886,768
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               7/15/2011     $62,979,809    $365,906,960
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               8/12/2011     $20,762,532    $345,144,428
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                              10/17/2011     $37,384,574    $307,759,854
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                              12/14/2011      $7,103,787    $300,656,067
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               1/17/2012      $6,577,144    $294,078,924
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                                                                              Debt Obligation w/
                                                                                                                                                                               2/14/2012      $9,610,173    $284,468,750
                                                                                                                                                                                                                            Contingent Proceeds
                                                                                                                                                                               3/14/2012    $284,468,750              —     Contingent Proceeds3/29/2012 Distribution 5     $3,434,460
                                                                                                                                                                                                                                                                                Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2012                                                             (CONTINUED)
                                                                                                                                                                                    Final
                                                                                                                                                                              Investment
                                                                  Seller                                                  Adjusted Investment3     Final Commitment Amount7      Amount9    Capital Repayment Details   Investment After Capital Repayment        Distribution or Disposition
                                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                                     Distributions
                                                                    Transaction Investment         Investment   Pricing                                                                 Repayment          Repayment                                                                                       Paid to
Note   Date              Institution           City           State Type        Description           Amount Mechanism Date               Amount   Date             Amount       Amount      Date             Amount          Amount            DescriptionDate        Description       Proceeds        Treasury
                         Wellington                                               Debt
                         Management                                               Obligation
                                                                                                                                                                                                                                           Debt Obligation w/
2,6    10/1/2009         Legacy          Wilmington DE                 Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,524,075,000 7/16/2010 $2,298,974,000                   6/26/2012    $125,000,000 $2,173,974,000
                                                                                                                                                                                                                                         Contingent Proceeds
                         Securities PPIF                                          Contingent
                         Master Fund, LP                                          Proceeds
                                                                                                                                                                                                                                                                                                    $158,206,437
                         Wellington
                         Management
                                                                                  Membership
1,6    10/1/2009         Legacy          Wilmington DE                 Purchase              $1,111,111,111         Par 3/22/2010 $1,262,037,500 7/16/2010 $1,149,487,000
                                                                                  Interest
                         Securities PPIF
                         Master Fund, LP
                         AllianceBernstein                                        Debt
                         Legacy                                                   Obligation
                                                                                                                                                                                                                                           Debt Obligation w/
2,6    10/2/2009         Securities        Wilmington DE               Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,488,875,000 7/16/2010 $2,300,847,000                   5/16/2011     $30,244,575 $2,270,602,425
                                                                                                                                                                                                                                         Contingent Proceeds
                         Master Fund,                                             Contingent
                         L.P.                                                     Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            6/14/2011         $88,087 $2,270,514,339
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                             5/3/2012     $80,000,000 $2,190,514,339
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            5/14/2012     $30,000,000 $2,160,514,339
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            5/23/2012    $500,000,000 $1,660,514,339
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            6/14/2012     $44,200,000 $1,616,314,339                                                                $230,852,891
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            6/25/2012    $120,000,000 $1,496,314,339
                                                                                                                                                                                                                                         Contingent Proceeds
                         AllianceBernstein
                         Legacy
                                                                                  Membership
1,6    10/2/2009         Securities        Wilmington DE               Purchase              $1,111,111,111         Par 3/22/2010 $1,244,437,500 7/16/2010 $1,150,423,500                   1/15/2010         $44,043 $1,150,379,457    Membership Interest10
                                                                                  Interest
                         Master Fund,
                         L.P.
                                                                                                                                                                                            2/14/2011        $712,284 $1,149,667,172    Membership Interest10
                                                                                                                                                                                            3/14/2011      $6,716,327 $1,142,950,845    Membership Interest10
                                                                                                                                                                                            4/14/2011      $7,118,388 $1,135,832,457    Membership Interest10
                                                                                                                                                                                            5/14/2012     $39,999,800 $1,095,832,657    Membership Interest10
                                                                                                                                                                                            6/14/2012    $287,098,565    $808,734,092   Membership Interest10
                                                                                  Debt
                                                                                  Obligation
                         Blackrock PPIF,
2,6    10/2/2009                               Wilmington DE           Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,488,875,000 7/16/2010 $1,389,960,000
                         L.P.
                                                                                  Contingent                                                                                                                                                                                                         $33,658,950
                                                                                  Proceeds
                         Blackrock PPIF,                                          Membership
1,6    10/2/2009                               Wilmington DE           Purchase              $1,111,111,111         Par 3/22/2010 $1,244,437,500 7/16/2010     $694,980,000
                         L.P.                                                     Interest
                                                                                  Debt
                  AG GECC PPIF                                                    Obligation
                                                                                                                                                                                                                                           Debt Obligation w/
2,6    10/30/2009 Master Fund,                 Wilmington DE           Purchase   w/           $2,222,222,222       Par 3/22/2010 $2,542,675,000 7/16/2010 $2,486,550,000                   2/14/2012    $174,200,000 $2,312,350,000
                                                                                                                                                                                                                                         Contingent Proceeds
                  L.P.                                                            Contingent
                                                                                  Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/
                                                                                                                                                                                            3/14/2012    $198,925,000 $2,113,425,000
                                                                                                                                                                                                                                         Contingent Proceeds
                                                                                                                                                                                                                                           Debt Obligation w/                                       $215,789,752
                                                                                                                                                                                            5/14/2012    $150,000,000 $1,963,425,000
                                                                                                                                                                                                                                         Contingent Proceeds
                  AG GECC PPIF
                                                                                  Membership
1,6    10/30/2009 Master Fund,             Wilmington DE               Purchase              $1,111,111,111         Par 3/22/2010 $1,271,337,500 7/16/2010 $1,243,275,000                   2/14/2012     $87,099,565 $1,156,175,436    Membership Interest10
                                                                                  Interest
                  L.P.                                              
                                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                            3/14/2012     $99,462,003 $1,056,713,433    Membership Interest10
                                                                                                                                                                                            5/14/2012     $74,999,625    $981,713,808   Membership Interest10
                                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                                     271
                                                                                                                                                                                                                                                                                                                                                           272
PPIP TRANSACTION DETAIL, AS OF 6/30/2012                                                         (CONTINUED)
                                                                                                                                                                                                       Final
                                                                                                                                                                                                 Investment
                                                          Seller                                                              Adjusted Investment3          Final Commitment Amount7                Amount9     Capital Repayment Details          Investment After Capital Repayment              Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                               Interest/
                                                                                                                                                                                                                                                                                                                                           Distributions
                                                             Transaction Investment            Investment   Pricing                                                                                         Repayment              Repayment                                                                                                     Paid to
Note   Date           Institution        City          State Type        Description              Amount Mechanism Date                           Amount     Date                  Amount            Amount      Date                 Amount               Amount               DescriptionDate           Description       Proceeds           Treasury
                                                                            Debt
                      RLJ Western
                                                                            Obligation
                      Asset Public/                                                                                                                                                                                                                                       Debt Obligation w/
2,6    11/4/2009                         Wilmington DE       Purchase       w/            $2,222,222,222              Par 3/22/2010 $2,488,875,000 7/16/2010 $1,241,156,516                                     5/13/2011         $13,531,530 $1,227,624,986
                      Private Master                                                                                                                                                                                                                                    Contingent Proceeds
                                                                            Contingent
                      Fund, L.P.
                                                                            Proceeds
                                                                                                                                                                                                                                                                                                                                         $143,961,297
                      RLJ Western
                      Asset Public/                                         Membership
1,6    11/4/2009                         Wilmington DE       Purchase                  $1,111,111,111                 Par 3/22/2010 $1,244,437,500 7/16/2010                $620,578,258                        3/14/2011           $1,202,957      $619,375,301       Membership Interest10
                      Private Master                                        Interest
                      Fund, L.P.
                                                                                                                                                                                                                4/14/2011           $3,521,835      $615,853,465       Membership Interest10
                  Marathon Legacy                                           Debt
                  Securities                                                Obligation
2,6    11/25/2009 Public-Private    Wilmington DE            Purchase       w/            $2,222,222,222              Par 3/22/2010 $2,488,875,000 7/16/2010                $949,100,000
                  Investment                                                Contingent
                  Partnership, L.P.                                         Proceeds
                                                                                                                                                                                                                                                                                                                                           $66,007,835
                  Marathon Legacy
                  Securities
                                                                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I July 25, 2012




                                                                            Membership
1,6    11/25/2009 Public-Private    Wilmington DE            Purchase                  $1,111,111,111                 Par 3/22/2010 $1,244,437,500 7/16/2010                $474,550,000
                                                                            Interest
                  Investment
                  Partnership, L.P.
                                                                            Debt
                                                                            Obligation
                      Oaktree PPIP                                                                                                                                                                                                                                        Debt Obligation w/
2,6    12/18/2009                        Wilmington DE       Purchase       w/            $2,222,222,222              Par 3/22/2010 $2,488,875,000 7/16/2010 $2,321,568,200                                     7/15/2011         $79,000,000 $2,242,568,200
                      Fund, L.P.                                                                                                                                                                                                                                        Contingent Proceeds
                                                                            Contingent
                                                                            Proceeds
                                                                                                                                                                                                                                                                          Debt Obligation w/                                               $22,479,266
                                                                                                                                                                                                                3/14/2012         $78,775,901 $2,163,792,299
                                                                                                                                                                                                                                                                        Contingent Proceeds
                      Oaktree PPIP                                          Membership
1,6    12/18/2009                        Wilmington DE       Purchase                  $1,111,111,111                 Par 3/22/2010 $1,244,437,500 7/16/2010 $1,160,784,100                                     7/15/2011         $39,499,803 $1,121,284,298           Membership Interest10
                      Fund, L.P.                                            Interest
                                                                                                                                                                                                                3/14/2012         $39,387,753 $1,081,896,544           Membership Interest10
                                                                                                                                                                                                                    Total
                                                                                                                                                                                                                  Capital
                                                Initial Investment Amount                $30,000,000,000                                Final Investment Amount        $21,856,403,574                         Repayment $4,409,958,040                                                                Total Proceeds $80,468,989
Notes: Numbers may not total due to rounding. Data as of 6/30/2012. Numbered notes were taken verbatim from Treasury’s 6/27/2012 Transactions Report.
1
 	 The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
 	 The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
 	Adjusted to show Treasury’s maximum obligations to a fund.
4
 	 On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
 	Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds (reported on
   the Dividends and Interest Report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
6
 	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for the
   $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
 	Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
 	 On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9
 	 Cumulative capital drawn at end of the Investment Period.
10
  	The amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.

Sources: Treasury, Transactions Report, 6/27/2012; Treasury, Dividends and Interest Report, 7/11/2012.
Table D.12
HAMP TRANSACTION DETAIL, AS OF 6/30/2012
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                         TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                    Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives     Incentives       Incentives           Payments
                                                                                                                     6/12/2009    $284,590,000       $660,590,000   Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $121,910,000       $782,500,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $131,340,000       $913,840,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010   ($355,530,000)      $558,310,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010    $128,690,000       $687,000,000   Updated portfolio data from servicer
                                                                                                                                                                    Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                     9/30/2010       $4,000,000      $691,000,000
                                                                                                                                                                    cap
                                                                                                                     9/30/2010      $59,807,784      $750,807,784   Updated portfolio data from servicer
                                                                                                                    11/16/2010       ($700,000)      $750,107,784   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010      $64,400,000      $814,507,784   Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($639)     $814,507,145   Updated portfolio data from servicer
                                                                                                                     1/13/2011      ($2,300,000)     $812,207,145   Transfer of cap due to servicing transfer
                                                                                                                     2/16/2011        $100,000       $812,307,145   Transfer of cap due to servicing transfer
                                                                                                                     3/16/2011       $3,600,000      $815,907,145   Transfer of cap due to servicing transfer
                                                        Financial
            Select Portfolio Servicing,                 Instrument for                                                                                              Updated due to quarterly assessment and
4/13/2009                                 Purchase                              $376,000,000     N/A                 3/30/2011            ($735)     $815,906,410                                               $34,417,040   $74,497,723      $59,049,968       $167,964,731
            Salt Lake City, UT                          Home Loan                                                                                                   reallocation
                                                        Modifications                                                4/13/2011       ($100,000)      $815,806,410   Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011        $400,000       $816,206,410   Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011       ($100,000)      $816,106,410   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($6,805)     $816,099,605
                                                                                                                                                                    reallocation
                                                                                                                     8/16/2011       ($100,000)      $815,999,605   Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011       ($200,000)      $815,799,605   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011       ($100,000)      $815,699,605   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       ($100,000)      $815,599,605   Transfer of cap due to servicing transfer
                                                                                                                     1/13/2012        $200,000       $815,799,605   Transfer of cap due to servicing transfer
                                                                                                                     3/15/2012      $24,800,000      $840,599,605   Transfer of cap due to servicing transfer
                                                                                                                     4/16/2012       $1,900,000      $842,499,605   Transfer of cap due to servicing transfer
                                                                                                                     5/16/2012          $80,000      $842,579,605   Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012       $8,710,000      $851,289,605   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012          ($5,176)     $851,284,429
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                   273
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                     274
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                             TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                        Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s       Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                             Incentives      Incentives       Incentives           Payments
                                                                                                                 6/12/2009   ($991,580,000)    $1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009   $1,010,180,000    $2,089,600,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($105,410,000)    $1,984,190,000
                                                                                                                                                                HAFA initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 3/26/2010   ($199,300,000)    $1,784,890,000
                                                                                                                                                                2MP initial cap
                                                                                                                                                                Transfer of cap to Service One, Inc. due to
                                                                                                                 4/19/2010       ($230,000)    $1,784,660,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Transfer of cap to Specialized Loan
                                                                                                                 5/14/2010      ($3,000,000)   $1,781,660,000
                                                                                                                                                                Servicing, LLC due to servicing transfer
                                                                                                                                                                Transfer of cap to multiple servicers due to
                                                                                                                 6/16/2010     ($12,280,000)   $1,769,380,000
                                                                                                                                                                servicing transfer
                                                                                                                 7/14/2010   ($757,680,000)    $1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap to multiple servicers due to
                                                                                                                 7/16/2010      ($7,110,000)   $1,004,590,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                Transfer of cap to multiple servicers due to
                                                                                                                 8/13/2010      ($6,300,000)     $998,290,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Transfer of cap to multiple servicers due to
                                                                                                                 9/15/2010      ($8,300,000)     $989,990,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                 9/30/2010      $32,400,000    $1,022,390,000
                                                                                                                                                                cap
                                                                                                                 9/30/2010    $101,287,484     $1,123,677,484   Updated portfolio data from servicer
                                                                                                                10/15/2010      ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                                11/16/2010      ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                    Financial                                                     1/6/2011            ($981)   $1,119,076,503   Updated portfolio data from servicer
            CitiMortgage, Inc.,                     Instrument for
4/13/2009                             Purchase                            $2,071,000,000     N/A                 1/13/2011     ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer      $35,034,563   $116,114,690      $70,121,075       $221,270,328
            O’Fallon, MO                            Home Loan
                                                    Modifications                                                2/16/2011      ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011     ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($1,031)   $1,073,475,472
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011         $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011      ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011       ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($9,131)   $1,065,966,341
                                                                                                                                                                reallocation
                                                                                                                 7/14/2011     ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011      ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011      $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011      ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011      ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       ($900,000)    $1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012      ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012      ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012       ($600,000)    $1,053,566,341   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012       ($340,000)    $1,053,226,341   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012      ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($5,498)   $1,050,340,843
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                           Incentives      Incentives       Incentives           Payments
                                                                                                                 6/17/2009    ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009       $65,070,000    $2,475,080,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009    $1,213,310,000    $3,688,390,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                                                                 Transfer of cap (from Wachovia) due to
                                                                                                                 2/17/2010    $2,050,236,344    $5,738,626,344
                                                                                                                                                                 merger
                                                                                                                                                                 Transfer of cap (from Wachovia) due to
                                                                                                                 3/12/2010           $54,767    $5,738,681,110
                                                                                                                                                                 merger
                                                                                                                 3/19/2010     $668,108,890     $6,406,790,000   Initial 2MP cap
                                                                                                                 3/26/2010     $683,130,000     $7,089,920,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010    ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $344,000,000     $5,108,351,172
                                                                                                                                                                 and initial RD-HAMP
                                                                                                                                                                 Transfer of cap (from Wachovia) due to
                                                                                                                 12/3/2010        $8,413,225    $5,116,764,397
                                                                                                                                                                 merger
                                                                                                                12/15/2010       $22,200,000    $5,138,964,397   Updated portfolio data from servicer
                                                                                                                  1/6/2011           ($6,312)   $5,138,958,085   Updated portfolio data from servicer
                                                                                                                 1/13/2011        ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer

                                                    Financial                                                    3/16/2011        ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
            Wells Fargo Bank, NA,                   Instrument for                                                                                               Updated due to quarterly assessment and
4/13/2009                             Purchase                            $2,873,000,000     N/A                 3/30/2011           ($7,171)   $5,138,750,914                                                $93,044,464   $227,817,344    $166,763,508        $487,625,315
            Des Moines, IA                          Home Loan                                                                                                    reallocation
                                                    Modifications
                                                                                                                 4/13/2011       ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011        ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($63,856)   $5,128,387,058
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011       ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011       ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011          $200,000    $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012        ($300,000)    $5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        ($200,000)    $5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012        ($800,000)    $5,123,887,058   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012        ($610,000)    $5,123,277,058   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($39,923)   $5,121,197,135
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                  275
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                   276
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                          TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                      Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                           Incentives     Incentives       Incentives           Payments
                                                                                                                 6/12/2009     $384,650,000     $1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009    $2,537,240,000    $3,554,890,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($1,679,520,000)   $1,875,370,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010     $190,180,000     $2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Wilshire Credit
                                                                                                                 5/14/2010        $1,880,000    $2,067,430,000
                                                                                                                                                                 Corporation due to servicing transfer
                                                                                                                 7/14/2010    ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer
                                                                                                                 8/13/2010       ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $119,200,000     $1,301,400,000
                                                                                                                                                                 and initial 2MP cap
                                                                                                                 9/30/2010     $216,998,139     $1,518,398,139   Updated portfolio data from servicer
                                                                                                                12/15/2010        ($500,000)    $1,517,898,139   Updated portfolio data from servicer
                                                                                                                  1/6/2011           ($1,734)   $1,517,896,405   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




                                                                                                                 3/16/2011        ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                    Financial                                                    3/30/2011           ($2,024)   $1,517,794,381
                                                                                                                                                                 reallocation
            GMAC Mortgage, Inc.,                    Instrument for
4/13/2009                             Purchase                              $633,000,000     N/A                                                                                                              $28,423,250   $80,202,635      $55,138,210       $163,764,096
            Ft. Washington, PA                      Home Loan                                                    4/13/2011        ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 5/13/2011     ($17,900,000)    $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($18,457)   $1,499,075,924
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011        ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011          $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011        ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        ($400,000)    $1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012        ($100,000)    $1,501,975,924   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012        ($800,000)    $1,501,175,924   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012        ($990,000)    $1,500,185,924   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($12,463)   $1,500,173,461
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives     Incentives       Incentives           Payments
                                                                                                                  6/17/2009     $225,040,000       $632,040,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009     $254,380,000       $886,420,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                  3/26/2010     ($57,720,000)    $1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap to Ocwen Financial
                                                                                                                  6/16/2010    ($156,050,000)    $1,028,360,000
                                                                                                                                                                  Corporation, Inc. due to servicing transfer
                                                                                                                  7/14/2010    ($513,660,000)      $514,700,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap due to multiple servicing
                                                                                                                  7/16/2010     ($22,980,000)      $491,720,000
                                                                                                                                                                  transfers
                                                                                                                  9/15/2010        $1,800,000      $493,520,000   Transfer of cap due to servicing transfer
                                                                                                                                                                  Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                  9/30/2010        $9,800,000      $503,320,000
                                                                                                                                                                  cap
                                                                                                                  9/30/2010     $116,222,668       $619,542,668   Updated portfolio data from servicer
                                                                                                                 10/15/2010          $100,000      $619,642,668   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010        $8,900,000      $628,542,668   Updated portfolio data from servicer
                                                     Financial                                                     1/6/2011             ($556)     $628,542,112   Updated portfolio data from servicer
            Saxon Mortgage Services,                 Instrument for
4/13/2009                              Purchase                              $407,000,000     N/A                 1/13/2011        $2,300,000      $630,842,112   Transfer of cap due to servicing transfer     $19,771,279   $42,179,792      $39,799,597       $101,750,667
            Inc., Irving, TX                         Home Loan
                                                     Modifications                                                3/16/2011          $700,000      $631,542,112   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($654)     $631,541,458
                                                                                                                                                                  reallocation
                                                                                                                  4/13/2011        $2,100,000      $633,641,458   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011           ($6,144)     $633,635,314
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011          $200,000      $633,835,314   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011        ($100,000)      $633,735,314   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011        ($700,000)      $633,035,314   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011       $17,500,000      $650,535,314   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012        ($100,000)      $650,435,314   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012          $100,000      $650,535,314   Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012     ($17,500,000)      $633,035,314   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012        ($760,000)      $632,275,314   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012    ($354,290,000)      $277,985,314   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/28/2012           ($1,831)     $277,983,483
                                                                                                                                                                  reallocation
                                                     Financial
            Chase Home Finance, LLC,                 Instrument for
4/13/2009                              Purchase                            $3,552,000,000     N/A         2       7/31/2009   ($3,552,000,000)               $0   Termination of SPA                                   $—             $—                $—                  $—
            Iselin, NJ                               Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                   277
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)                                                                                                                                                                                   278
              Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                      Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s       Investors        Servicers            Incentive
Date         Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                           Incentives      Incentives       Incentives           Payments
                                                                                                                  6/12/2009   ($105,620,000)      $553,380,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $102,580,000       $655,960,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $277,640,000       $933,600,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      $46,860,000      $980,460,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Saxon Mortgage
                                                                                                                  6/16/2010    $156,050,000     $1,136,510,000
                                                                                                                                                                 Services, Inc. due to servicing transfer
                                                                                                                  7/14/2010   ($191,610,000)      $944,900,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Saxon Mortgage
                                                                                                                  7/16/2010      $23,710,000      $968,610,000
                                                                                                                                                                 Services, Inc. due to servicing transfer
                                                                                                                  9/15/2010        $100,000       $968,710,000   Initial FHA-HAMP cap
                                                                                                                  9/30/2010       $3,742,740      $972,452,740   Updated portfolio data from servicer
                                                     Financial                                                   10/15/2010    $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer
             Ocwen Financial
                                                     Instrument for
4/16/2009    Corporation, Inc.,        Purchase                              $659,000,000     N/A                                                                                                             $38,992,881   $108,999,326      $81,497,510       $229,489,717
                                                     Home Loan                                                     1/6/2011          ($1,020)   $1,143,251,720   Updated portfolio data from servicer
             West Palm Beach, FL
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




                                                     Modifications
                                                                                                                  2/16/2011        $900,000     $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($1,114)   $1,144,150,606
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011        ($10,044)    $1,144,140,562
                                                                                                                                                                 reallocation
                                                                                                                 10/14/2011       ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012    $194,800,000     $1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012        $400,000     $1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012        $100,000     $1,339,340,562   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012    $123,530,000     $1,462,870,562   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012    $354,290,000     $1,817,160,562   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($6,308)   $1,817,154,254
                                                                                                                                                                 reallocation
                                                                                                                  6/12/2009       $5,540,000      $804,440,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $162,680,000       $967,120,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $665,510,000     $1,632,630,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  1/26/2010    $800,390,000     $2,433,020,000   Initial 2MP cap
                                                                                                                  3/26/2010   ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010      $95,300,000    $1,332,200,000
                                                                                                                                                                 and initial RD-HAMP
4/17/2009                                            Financial
as amended   Bank of America, N.A.,                  Instrument for                                               9/30/2010    $222,941,084     $1,555,141,084   Updated portfolio data from servicer
                                       Purchase                              $798,900,000     N/A                                                                                                              $4,267,062    $17,852,012       $9,159,439         $31,278,513
on           Simi Valley, CA                         Home Loan                                                     1/6/2011          ($2,199)   $1,555,138,885   Updated portfolio data from servicer
1/26/2010                                            Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($2,548)   $1,555,136,337
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011        ($23,337)    $1,555,113,000
                                                                                                                                                                 reallocation
                                                                                                                  8/16/2011       ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011   ($120,700,000)    $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012       ($200,000)    $1,433,013,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012        ($17,893)    $1,432,995,107
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                            TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                        Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s       Investors        Servicers            Incentive
Date         Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives      Incentives       Incentives           Payments
                                                                                                                  6/12/2009    $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009    ($717,420,000)    $4,465,420,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $2,290,780,000    $6,756,200,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                  1/26/2010     $450,100,000     $7,206,300,000   Initial 2MP cap
                                                                                                                  3/26/2010     $905,010,000     $8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                  4/19/2010       $10,280,000    $8,121,590,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                  6/16/2010     $286,510,000     $8,408,100,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                  7/14/2010   ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010     $105,500,000     $6,726,300,000
                                                                                                                                                                  and initial RD-HAMP
                                                                                                                  9/30/2010    ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer
                                                                                                                 12/15/2010     $236,000,000     $6,347,772,638   Updated portfolio data from servicer
                                                                                                                   1/6/2011           ($8,012)   $6,347,764,626   Updated portfolio data from servicer
                                                                                                                  2/16/2011        $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011          $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011           ($9,190)   $6,349,655,436
                                                                                                                                                                  reallocation
4/17/2009    Countrywide Home Loans                  Financial
as amended   Servicing LP (BAC Home                  Instrument for                                               4/13/2011          $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                       Purchase                            $1,864,000,000     N/A                                                                                                              $116,254,108   $278,785,183    $198,293,222        $593,332,513
on           Loans Servicing, LP),                   Home Loan
1/26/2010    Simi Valley, CA                         Modifications                                                5/13/2011          $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($82,347)   $6,349,073,089
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011        ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011       ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011       ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011     $120,600,000     $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                  Transfer of cap from Home Loan Services,
                                                                                                                                                                  Inc. and Wilshire Credit Corporation due
                                                                                                                 10/19/2011     $317,956,289     $6,782,629,378
                                                                                                                                                                  to merger.


                                                                                                                 11/16/2011          $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011     ($17,600,000)    $6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012       ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012     ($23,900,000)    $6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012     ($63,800,000)    $6,676,029,378   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012           $20,000    $6,676,049,378   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($58,550)   $6,667,130,828
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                    279
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)                                                                                                                                                                                280
             Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                      6/12/2009    $128,300,000       $447,300,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      9/30/2009      $46,730,000      $494,030,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009    $145,820,000       $639,850,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010     ($17,440,000)     $622,410,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($73,010,000)     $549,400,000   Updated portfolio data from servicer
                                                                                                                      9/30/2010       $6,700,000      $556,100,000   Initial FHA-2LP cap

                                                         Financial                                                    9/30/2010     ($77,126,410)     $478,973,590   Updated portfolio data from servicer
            Home Loan Services, Inc.,                    Instrument for
4/20/2009                                  Purchase                              $319,000,000     N/A         13     12/15/2010   ($314,900,000)      $164,073,590   Updated portfolio data from servicer         $169,858    $2,440,768        $3,698,607          $6,309,233
            Pittsburgh, PA                               Home Loan
                                                         Modifications                                                 1/6/2011            ($233)     $164,073,357   Updated portfolio data from servicer
                                                                                                                      2/16/2011      ($1,900,000)     $162,173,357   Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011       ($400,000)      $161,773,357   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011            ($278)     $161,773,079
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




                                                                                                                      5/13/2011       ($400,000)      $161,373,079   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($2,625)     $161,370,454
                                                                                                                                                                     reallocation
                                                                                                                     10/19/2011   ($155,061,221)        $6,309,233   Termination of SPA
                                                                                                                      6/12/2009      $87,130,000      $453,130,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      9/30/2009   ($249,670,000)      $203,460,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009    $119,700,000       $323,160,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010      $52,270,000      $375,430,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to Countrywide Home
                                                                                                                      4/19/2010     ($10,280,000)     $365,150,000
                                                                                                                                                                     Loans due to servicing transfer
                                                                                                                                                                     Transfer of cap to GMAC Mortgage, Inc.
                                                                                                                      5/14/2010      ($1,880,000)     $363,270,000
                                                                                                                                                                     due to servicing transfer

                                                         Financial                                                                                                   Transfer of cap to Countrywide Home
                                                                                                                      6/16/2010   ($286,510,000)       $76,760,000
            Wilshire Credit Corporation,                 Instrument for                                                                                              Loans due to servicing transfer
4/20/2009                                  Purchase                              $366,000,000     N/A         13                                                                                                       $—       $490,394        $1,167,000          $1,657,394
            Beaverton, OR                                Home Loan
                                                                                                                      7/14/2010      $19,540,000       $96,300,000   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                     Transfer of cap to Green Tree Servicing
                                                                                                                      7/16/2010       ($210,000)       $96,090,000
                                                                                                                                                                     LLC due to servicing transfer
                                                                                                                      8/13/2010       ($100,000)       $95,990,000   Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      $68,565,782      $164,555,782   Updated portfolio data from servicer
                                                                                                                       1/6/2011            ($247)     $164,555,535   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011            ($294)     $164,555,241
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($2,779)     $164,552,462
                                                                                                                                                                     reallocation
                                                                                                                     10/19/2011   ($162,895,068)        $1,657,394   Termination of SPA
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   6/17/2009     ($64,990,000)      $91,010,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009    $130,780,000       $221,790,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009   ($116,750,000)      $105,040,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010      $13,080,000      $118,120,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($24,220,000)      $93,900,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                   7/16/2010         $210,000       $94,110,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                   8/13/2010       $2,200,000       $96,310,000   Transfer of cap due to servicing transfer
                                                                                                                   9/10/2010      $34,600,000      $130,910,000   Initial 2MP cap
                                                                                                                   9/30/2010       $5,600,000      $136,510,000   Initial FHA-2LP cap and FHA-HAMP
                                                                                                                   9/30/2010      $10,185,090      $146,695,090   Updated portfolio data from servicer
                                                                                                                  10/15/2010         $400,000      $147,095,090   Transfer of cap due to servicing transfer

                                                      Financial                                                     1/6/2011            ($213)     $147,094,877   Updated portfolio data from servicer
            Green Tree Servicing LLC,                 Instrument for
4/24/2009                               Purchase                              $156,000,000     N/A                                                                Updated due to quarterly assessment and      $902,609    $2,815,171        $2,456,938          $6,174,718
            Saint Paul, MN                            Home Loan                                                    3/30/2011            ($250)     $147,094,627
                                                                                                                                                                  reallocation
                                                      Modifications
                                                                                                                   5/13/2011       $1,200,000      $148,294,627   Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011         $100,000      $148,394,627   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($2,302)     $148,392,325
                                                                                                                                                                  reallocation
                                                                                                                   7/14/2011       $1,900,000      $150,292,325   Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011         $200,000      $150,492,325   Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011         $200,000      $150,692,325   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011         $400,000      $151,092,325   Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012         $900,000      $151,992,325   Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012         $100,000      $152,092,325   Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012       $3,260,000      $155,352,325   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012         $920,000      $156,272,325   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($1,622)     $156,270,703
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                281
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                                 282
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                         TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                    Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives     Incentives       Incentives           Payments
                                                                                                                    6/17/2009     ($63,980,000)     $131,020,000   Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009      $90,990,000      $222,010,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009      $57,980,000      $279,990,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010      $74,520,000      $354,510,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($75,610,000)     $278,900,000   Updated portfolio data from servicer
                                                                                                                    8/13/2010       $1,100,000      $280,000,000   Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010       $3,763,685      $283,763,685   Updated portfolio data from servicer
                                                                                                                   12/15/2010         $300,000      $284,063,685   Updated portfolio data from servicer
                                                                                                                     1/6/2011            ($325)     $284,063,360   Updated portfolio data from servicer
                                                       Financial                                                    1/13/2011       $2,400,000      $286,463,360   Transfer of cap due to servicing transfer
            Carrington Mortgage
                                                       Instrument for
4/27/2009   Services, LLC,               Purchase                              $195,000,000     N/A                                                                Updated due to quarterly assessment and      $4,594,845   $14,313,396      $10,053,971         $28,962,212
                                                       Home Loan                                                    3/30/2011            ($384)     $286,462,976
            Santa Ana, CA                                                                                                                                          reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




                                                                                                                    6/29/2011          ($3,592)     $286,459,384
                                                                                                                                                                   reallocation
                                                                                                                    8/16/2011       $1,800,000      $288,259,384   Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011         $100,000      $288,359,384   Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011       $1,000,000      $289,359,384   Transfer of cap due to servicing transfer
                                                                                                                    2/16/2012       $1,100,000      $290,459,384   Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012         $100,000      $290,559,384   Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012         $850,000      $291,409,384   Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012       $2,240,000      $293,649,384   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012          ($2,520)     $293,646,864
                                                                                                                                                                   reallocation
                                                                                                                    6/17/2009   ($338,450,000)      $459,550,000   Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($11,860,000)     $447,690,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009      $21,330,000      $469,020,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010       $9,150,000      $478,170,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($76,870,000)     $401,300,000   Updated portfolio data from servicer
                                                                                                                     9/1/2010         $400,000      $401,700,000   Initial FHA-HAMP cap
                                                                                                                    9/30/2010      ($8,454,269)     $393,245,731   Updated portfolio data from servicer
                                                       Financial
            Aurora Loan Services, LLC,                 Instrument for                                                1/6/2011            ($342)     $393,245,389   Updated portfolio data from servicer
5/1/2009                                 Purchase                              $798,000,000     N/A                                                                                                            $15,384,192   $39,290,553      $27,897,267         $82,572,012
            Littleton, CO                              Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($374)     $393,245,015
                                                                                                                                                                   reallocation
                                                                                                                    5/13/2011      $18,000,000      $411,245,015   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($3,273)     $411,241,742
                                                                                                                                                                   reallocation
                                                                                                                   10/14/2011       ($200,000)      $411,041,742   Transfer of cap due to servicing transfer
                                                                                                                    3/15/2012         $100,000      $411,141,742   Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012       ($500,000)      $410,641,742   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012          ($1,768)     $410,639,974
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                          TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                     Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                           Incentives     Incentives       Incentives           Payments
                                                                                                                  6/12/2009      $16,140,000      $117,140,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $134,560,000       $251,700,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $80,250,000      $331,950,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      $67,250,000      $399,200,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($85,900,000)     $313,300,000   Updated portfolio data from servicer
                                                                                                                  8/13/2010         $100,000      $313,400,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010       $2,900,000      $316,300,000
                                                                                                                                                                 initial RD-HAMP, and initial 2MP cap
                                                                                                                  9/30/2010      $33,801,486      $350,101,486   Updated portfolio data from servicer
                                                                                                                 11/16/2010         $700,000      $350,801,486   Transfer of cap due to servicing transfer

                                                     Financial                                                   12/15/2010       $1,700,000      $352,501,486   Updated portfolio data from servicer
            Nationstar Mortgage LLC,                 Instrument for
5/28/2009                              Purchase                              $101,000,000     N/A                  1/6/2011            ($363)     $352,501,123   Updated portfolio data from servicer         $10,184,365   $24,123,922      $19,043,370         $53,351,657
            Lewisville, TX                           Home Loan
                                                     Modifications                                                2/16/2011         $900,000      $353,401,123   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011      $29,800,000      $383,201,123   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($428)     $383,200,695
                                                                                                                                                                 reallocation
                                                                                                                  5/26/2011      $20,077,503      $403,278,198   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($4,248)     $403,273,950
                                                                                                                                                                 reallocation
                                                                                                                 11/16/2011         $100,000      $403,373,950   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012       ($100,000)      $403,273,950   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012          $90,000      $403,363,950   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012      ($2,380,000)     $400,983,950   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($2,957)     $400,980,993
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009      ($1,860,000)      $17,540,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $27,920,000       $45,460,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      ($1,390,000)      $44,070,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($13,870,000)      $30,200,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010         $400,000       $30,600,000
                                                                                                                                                                 and initial 2MP cap
                                                                                                                  9/30/2010         $586,954       $31,186,954   Updated portfolio data from servicer

                                                     Financial                                                     1/6/2011             ($34)      $31,186,920   Updated portfolio data from servicer
            Residential Credit                       Instrument for
6/12/2009                              Purchase                               $19,400,000     N/A                                                                Updated due to quarterly assessment and        $579,534     $1,717,443       $1,312,289          $3,609,266
            Solutions, Fort Worth,TX                 Home Loan                                                    3/30/2011             ($37)      $31,186,883
                                                                                                                                                                 reallocation
                                                     Modifications
                                                                                                                  4/13/2011         $100,000       $31,286,883   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($329)      $31,286,554
                                                                                                                                                                 reallocation
                                                                                                                  9/15/2011      ($1,900,000)      $29,386,554   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       $2,800,000       $32,186,554   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012         $420,000       $32,606,554   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       $8,060,000       $40,666,554   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($313)      $40,666,241
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 283
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)                                                                                                                                                                                284
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009      $13,070,000       $29,590,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $145,510,000       $175,100,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010   ($116,950,000)       $58,150,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($23,350,000)      $34,800,000   Updated portfolio data from servicer
                                                     Financial
            CCO Mortgage,                            Instrument for                                               9/30/2010       $7,846,346       $42,646,346   Updated portfolio data from servicer
6/17/2009                              Purchase                               $16,520,000     N/A                                                                                                            $1,068,026   $2,828,713        $2,122,605          $6,019,345
            Glen Allen, VA                           Home Loan
                                                     Modifications                                                 1/6/2011             ($46)      $42,646,300   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($55)      $42,646,245
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($452)      $42,645,793
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($309)      $42,645,484
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($11,300,000)      $45,700,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009     ($42,210,000)       $3,490,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      $65,640,000       $69,130,000   Updated portfolio data from servicer
                                                                                                                   4/9/2010     ($14,470,000)      $54,660,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($8,860,000)      $45,800,000   Updated portfolio data from servicer
                                                     Financial
            RG Mortgage Corporation,                 Instrument for                                               9/30/2010      ($4,459,154)      $41,340,846   Updated portfolio data from servicer
6/17/2009                              Purchase                               $57,000,000     N/A                                                                                                             $164,853      $227,582         $401,334             $793,769
            San Juan, PR                             Home Loan
                                                     Modifications                                               12/15/2010      ($4,300,000)      $37,040,846   Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($51)      $37,040,795   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($65)      $37,040,730
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($616)      $37,040,114
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($462)      $37,039,652
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                     Financial                                                   12/30/2009       $2,020,000        $2,790,000
            First Federal Savings                                                                                                                                HAFA initial cap
                                                     Instrument for
6/19/2009   and Loan,                  Purchase                                  $770,000     N/A                                                                                                                  $—            $—                 $—                  $—
                                                     Home Loan                                                    3/26/2010      $11,370,000       $14,160,000   Updated portfolio data from servicer
            Port Angeles, WA
                                                     Modifications
                                                                                                                  5/26/2010     ($14,160,000)               $0   Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         $330,000          $870,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $16,490,000       $17,360,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010     ($14,260,000)       $3,100,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($1,800,000)       $1,300,000   Updated portfolio data from servicer
                                                     Financial                                                    7/30/2010       $1,500,000        $2,800,000   Updated portfolio data from servicer
            Wescom Central Credit                    Instrument for
6/19/2009                              Purchase                                  $540,000     N/A         9,12                                                                                                 $93,546      $374,719         $210,613             $678,877
            Union, Anaheim, CA                       Home Loan                                                    9/30/2010       $1,551,668        $4,351,668   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                   1/6/2011              ($2)       $4,351,666   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($2)       $4,351,664
                                                                                                                                                                 reallocation
                                                                                                                  5/13/2011      ($1,800,000)       $2,551,664   Transfer of cap due to servicing transfer
                                                                                                                   6/3/2011      ($1,872,787)         $678,877   Termination of SPA
                                                                                                                  6/14/2012         $990,000        $1,668,877   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                   Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($10,000)          $20,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $590,000          $610,000
                                                     Financial                                                                                                   HAFA initial cap
            Citizens First Wholesale
                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                                    $30,000    N/A                 3/26/2010       ($580,000)           $30,000   Updated portfolio data from servicer               $—            $—                 $—                  $—
                                                     Home Loan
            The Villages, FL
                                                     Modifications                                                7/14/2010          $70,000          $100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                  2/17/2011       ($145,056)                $0   Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $2,180,000        $2,250,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       ($720,000)        $1,530,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($430,000)        $1,100,000   Updated portfolio data from servicer

                                                     Financial                                                    9/30/2010          $60,445        $1,160,445   Updated portfolio data from servicer
            Technology Credit Union,                 Instrument for                                                1/6/2011                         $1,160,444   Updated portfolio data from servicer
6/26/2009                              Purchase                                    $70,000    N/A                                                                                                               $24,250       $96,423          $42,417             $163,089
            San Jose, CA                             Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  3/30/2011                         $1,160,443
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($12)       $1,160,431
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($9)       $1,160,422
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $315,170,000       $610,150,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $90,280,000      $700,430,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010     ($18,690,000)     $681,740,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($272,640,000)      $409,100,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                  9/30/2010      $80,600,000      $489,700,000
                                                                                                                                                                 and initial 2MP cap
                                                                                                                  9/30/2010      $71,230,004      $560,930,004   Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($828)     $560,929,176   Updated portfolio data from servicer
                                                                                                                  2/16/2011         $200,000      $561,129,176   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011       ($100,000)      $561,029,176   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($981)     $561,028,195
                                                     Financial                                                                                                   reallocation
            National City Bank,                      Instrument for
6/26/2009                              Purchase                              $294,980,000     N/A                 4/13/2011      ($2,300,000)     $558,728,195   Transfer of cap due to servicing transfer    $1,171,443   $4,218,459        $2,706,837          $8,096,738
            Miamisburg, OH                           Home Loan
                                                     Modifications                                                5/13/2011       ($200,000)      $558,528,195   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($200,000)      $558,328,195   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($9,197)     $558,318,998
                                                                                                                                                                 reallocation
                                                                                                                  8/16/2011               $0      $558,318,998   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011         $300,000      $558,618,998   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($300,000)      $558,318,998   Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012         $200,000      $558,518,998   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012       ($100,000)      $558,418,998   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012         $200,000      $558,618,998   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012         ($10,000)     $558,608,998   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($6,771)     $558,602,227
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                285
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                 286
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                   Lenders/                             Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009     $723,880,000     $1,357,890,000
                                                                                                                                                                 HPDP initial cap

                                                    Financial                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009     $692,640,000     $2,050,530,000
            Wachovia Mortgage, FSB,                 Instrument for                                                                                               HAFA initial cap
7/1/2009                              Purchase                              $634,010,000     N/A         3                                                                                                         $—        $76,890         $162,000             $238,890
            Des Moines, IA                          Home Loan                                                                                                    Transfer of cap (to Wells Fargo Bank) due
                                                    Modifications                                                2/17/2010   ($2,050,236,344)         $293,656
                                                                                                                                                                 to merger
                                                                                                                                                                 Transfer of cap (to Wells Fargo Bank) due
                                                                                                                 3/12/2010          ($54,767)         $238,890
                                                                                                                                                                 to merger
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009       $23,850,000       $68,110,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009       $43,590,000      $111,700,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010       $34,540,000      $146,240,000   Updated portfolio data from servicer
                                                                                                                  5/7/2010        $1,010,000      $147,250,000   Initial 2MP cap
                                                                                                                 7/14/2010     ($34,250,000)      $113,000,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010          $600,000      $113,600,000   Initial FHA-2LP cap
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 25, 2012




                                                                                                                 9/30/2010     ($15,252,303)       $98,347,697   Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($70)      $98,347,627   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011              ($86)      $98,347,541
                                                                                                                                                                 reallocation
                                                    Financial                                                    4/13/2011          $400,000       $98,747,541   Transfer of cap due to servicing transfer
            Bayview Loan Servicing,                 Instrument for
7/1/2009                              Purchase                               $44,260,000     N/A                                                                                                             $3,948,767   $8,113,932        $6,726,046         $18,788,745
            LLC, Coral Gables, FL                   Home Loan                                                    5/13/2011          $100,000       $98,847,541   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011             ($771)      $98,846,770
                                                                                                                                                                 reallocation
                                                                                                                 9/15/2011          $600,000       $99,446,770   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011     ($18,900,000)       $80,546,770   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012          $900,000       $81,446,770   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        $2,400,000       $83,846,770   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        ($100,000)       $83,746,770   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012          $200,000       $83,946,770   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012           $30,000       $83,976,770   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012        $1,810,000       $85,786,770   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012             ($508)      $85,786,262
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009          $150,000          $250,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009          $130,000          $380,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010           $50,000          $430,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010          ($30,000)         $400,000   Updated portfolio data from servicer
                                                    Financial
            Lake National Bank,                     Instrument for                                               9/30/2010           $35,167          $435,167   Updated portfolio data from servicer
7/10/2009                             Purchase                                  $100,000     N/A                                                                                                                $3,000        $3,651            $4,000             $10,651
            Mentor, OH                              Home Loan
                                                    Modifications                                                 1/6/2011                            $435,166   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011                            $435,165
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011               ($6)         $435,159
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012               ($4)         $435,155
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                   Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($10,000)         $860,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $250,000        $1,110,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010         ($10,000)       $1,100,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($400,000)          $700,000   Updated portfolio data from servicer
                                                     Financial
            IBM Southeast Employees’
                                                     Instrument for                                               9/30/2010         $170,334          $870,334   Updated portfolio data from servicer
7/10/2009   Federal Credit Union,      Purchase                                  $870,000     N/A                                                                                                                $9,000       $23,394          $16,000              $48,394
                                                     Home Loan
            Delray Beach,FL                                                                                        1/6/2011                           $870,333   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011                           $870,332
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($12)         $870,320
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($9)         $870,311
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009      $18,530,000       $42,010,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $24,510,000       $66,520,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      $18,360,000       $84,880,000   Updated portfolio data from servicer

                                                     Financial                                                    7/14/2010     ($22,580,000)      $62,300,000   Updated portfolio data from servicer
            MorEquity, Inc.,                         Instrument for
7/17/2009                              Purchase                               $23,480,000     N/A         11      9/30/2010      ($8,194,261)      $54,105,739   Updated portfolio data from servicer          $345,841    $2,305,003        $1,977,321          $4,628,165
            Evansville, IN                           Home Loan
                                                     Modifications                                                 1/6/2011             ($37)      $54,105,702   Updated portfolio data from servicer
                                                                                                                  3/16/2011     ($29,400,000)      $24,705,702   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($34)      $24,705,668
                                                                                                                                                                 reallocation
                                                                                                                                                                 Termination of SPA
                                                                                                                  5/26/2011     ($20,077,503)       $4,628,165
                                                                                                                                                                 (remaining cap equals distribution amount)
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($36,240,000)      $18,230,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $19,280,000       $37,510,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       $2,470,000       $39,980,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($17,180,000)      $22,800,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010      $35,500,000       $58,300,000   Initial FHA-2LP cap and initial 2MP cap
                                                     Financial                                                    9/30/2010      $23,076,191       $81,376,191   Updated portfolio data from servicer
            PNC Bank, National
                                                     Instrument for
7/17/2009   Association,               Purchase                               $54,470,000     N/A                  1/6/2011            ($123)      $81,376,068   Updated portfolio data from servicer           $26,583      $245,244         $221,250             $493,077
                                                     Home Loan
            Pittsburgh, PA
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($147)      $81,375,921
                                                                                                                                                                 reallocation
                                                                                                                  5/13/2011       ($100,000)       $81,275,921   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($1,382)      $81,274,539
                                                                                                                                                                 reallocation
                                                                                                                 10/14/2011       ($300,000)       $80,974,539   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($1,003)      $80,973,536
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($90,000)          $80,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009          $50,000          $130,000
                                                     Financial                                                                                                   HAFA initial cap
            Farmers State Bank,                      Instrument for
7/17/2009                              Purchase                                  $170,000     N/A                 3/26/2010         $100,000          $230,000   Updated portfolio data from servicer               $—            $—                 $—                  $—
            West Salem, OH                           Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012




                                                                                                                  7/14/2010       ($130,000)          $100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                  5/20/2011       ($145,056)                $0   Termination of SPA
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                287
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)                                                                                                                                                                                 288
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                    Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives     Incentives       Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         $890,000        $2,300,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $1,260,000        $3,560,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010         ($20,000)       $3,540,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($240,000)        $3,300,000   Updated portfolio data from servicer
                                                     Financial                                                    9/30/2010         $471,446        $3,771,446   Updated portfolio data from servicer
            ShoreBank,                               Instrument for
7/17/2009                              Purchase                                 $1,410,000    N/A                  1/6/2011              ($3)       $3,771,443   Updated portfolio data from servicer           $49,915      $153,906         $143,165             $346,986
            Chicago, IL                              Home Loan
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($4)       $3,771,439
                                                                                                                                                                 reallocation
                                                                                                                  4/13/2011      ($1,100,000)       $2,671,439   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($38)       $2,671,401
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012             ($29)       $2,671,372
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($53,670,000)   $1,218,820,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $250,450,000     $1,469,270,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010    $124,820,000     $1,594,090,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010       $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                                 10/15/2010         $300,000    $1,306,090,508   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2010       ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011          ($1,173)   $1,305,989,335   Updated portfolio data from servicer
            American Home Mortgage                   Financial
            Servicing, Inc (Homeward                 Instrument for                                               2/16/2011       ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
7/22/2009                              Purchase                            $1,272,490,000     N/A                                                                                                            $31,654,995   $99,560,346      $69,454,750       $200,670,091
            Residential),                            Home Loan
            Coppell, TX                              Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($1,400)   $1,305,487,935
                                                                                                                                                                 reallocation
                                                                                                                  4/13/2011       $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011         ($12,883)   $1,308,575,052
                                                                                                                                                                 reallocation
                                                                                                                  9/15/2011      ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011       ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011      ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012         ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($8,378)   $1,306,356,674
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009       $1,780,000        $5,990,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $2,840,000        $8,830,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       $2,800,000       $11,630,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($5,730,000)       $5,900,000   Updated portfolio data from servicer
                                                     Financial
            Mortgage Center, LLC,                    Instrument for                                               9/30/2010       $2,658,280        $8,558,280   Updated portfolio data from servicer
7/22/2009                              Purchase                                 $4,210,000    N/A                                                                                                               $73,939      $143,149         $166,278             $383,365
            Southfield, MI                           Home Loan
                                                     Modifications                                                 1/6/2011             ($12)       $8,558,268   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($14)       $8,558,254
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($129)       $8,558,125
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012             ($94)       $8,558,031
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009       ($490,000)          $370,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $6,750,000        $7,120,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010      ($6,340,000)         $780,000   Updated portfolio data from servicer
                                                     Financial                                                    7/14/2010       ($180,000)          $600,000   Updated portfolio data from servicer
            Mission Federal Credit                   Instrument for
7/22/2009                              Purchase                                  $860,000     N/A                 9/30/2010         $125,278          $725,278   Updated portfolio data from servicer        $31,588       $87,921          $66,472             $185,981
            Union, San Diego, CA                     Home Loan
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011                           $725,277
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($4)         $725,273
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012                           $725,272
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009      ($1,530,000)       $4,930,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $680,000        $5,610,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       $2,460,000        $8,070,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($2,470,000)       $5,600,000   Updated portfolio data from servicer
                                                     Financial
            First Bank,                              Instrument for                                               9/30/2010       $2,523,114        $8,123,114   Updated portfolio data from servicer
7/29/2009                              Purchase                                 $6,460,000    N/A                                                                                                           $497,642    $1,146,897         $966,528           $2,611,067
            St. Louis, MO                            Home Loan
                                                     Modifications                                                 1/6/2011              ($2)       $8,123,112   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($2)       $8,123,110
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($15)       $8,123,095
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($3)       $8,123,092
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($60,000)       $1,030,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $1,260,000        $2,290,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010       $2,070,000        $4,360,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($3,960,000)         $400,000   Updated portfolio data from servicer
                                                     Financial
            Purdue Employees Federal
                                                     Instrument for                                               9/30/2010         $180,222          $580,222   Updated portfolio data from servicer
7/29/2009   Credit Union,              Purchase                                 $1,090,000    N/A                                                                                                             $1,000          $795            $2,000              $3,795
                                                     Home Loan
            West Lafayette, IN                                                                                     1/6/2011                           $580,221   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011                           $580,220
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($8)         $580,212
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($6)         $580,206
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($37,700,000)      $47,320,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $26,160,000       $73,480,000
                                                     Financial                                                                                                   HAFA initial cap
            Wachovia Bank, N.A.,                     Instrument for
7/29/2009                              Purchase                               $85,020,000     N/A                 3/26/2010       $9,820,000       $83,300,000   Updated portfolio data from servicer            $—            $—                 $—                  $—
            Charlotte, NC                            Home Loan
                                                     Modifications                                                7/14/2010     ($46,200,000)      $37,100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010     ($28,686,775)       $8,413,225   Updated portfolio data from servicer
                                                                                                                  12/3/2010      ($8,413,225)               $0   Termination of SPA
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                             289
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                     290
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                            TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                        Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s       Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives      Incentives       Incentives           Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009     ($14,850,000)    $2,684,870,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009    $1,178,180,000    $3,863,050,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 3/26/2010    $1,006,580,000    $4,869,630,000
                                                                                                                                                                 2MP initial cap
                                                                                                                 7/14/2010   ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                 9/30/2010       $72,400,000    $3,007,800,000
                                                                                                                                                                 and initial RD-HAMP
                                                                                                                 9/30/2010     $215,625,536     $3,223,425,536   Updated portfolio data from servicer
                                                                                                                  1/6/2011           ($3,636)   $3,223,421,900   Updated portfolio data from servicer
                                                                                                                 3/16/2011        ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($3,999)   $3,223,317,901
                                                                                                                                                                 reallocation

                                                    Financial                                                    4/13/2011        ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
            J.P. Morgan Chase Bank,                 Instrument for
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




7/31/2009                             Purchase                            $2,699,720,000     N/A                 5/13/2011     $122,700,000     $3,345,817,901   Transfer of cap due to servicing transfer    $138,127,005   $257,612,401    $216,452,100        $612,191,506
            NA, Lewisville, TX                      Home Loan
                                                    Modifications                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($34,606)   $3,345,783,295
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011          $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011          $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                                10/19/2011     $519,211,309     $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011       ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012        ($100,000)    $3,862,394,604   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        ($100,000)    $3,862,294,604   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012    ($126,080,000)    $3,736,214,604   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($16,192)   $3,734,578,412
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                   Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives     Incentives       Incentives           Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009         ($10,000)     $707,370,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009    $502,430,000     $1,209,800,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    3/26/2010   ($134,560,000)    $1,075,240,000
                                                                                                                                                                   2MP initial cap
                                                                                                                    7/14/2010   ($392,140,000)      $683,100,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap to Saxon Mortgage
                                                                                                                    7/16/2010       ($630,000)      $682,470,000
                                                                                                                                                                   Services, Inc.
                                                                                                                                                                   Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                    9/30/2010      $13,100,000      $695,570,000
                                                                                                                                                                   cap

                                                       Financial                                                    9/30/2010      ($8,006,457)     $687,563,543   Updated portfolio data from servicer
            EMC Mortgage Corporation,                  Instrument for                                              10/15/2010       ($100,000)      $687,463,543   Transfer of cap due to servicing transfer
7/31/2009                                Purchase                              $707,380,000     N/A         14                                                                                                 $7,569,459   $11,592,937      $16,279,383         $35,441,779
            Lewisville, TX                             Home Loan
                                                       Modifications                                               12/15/2010      ($4,400,000)     $683,063,543   Updated portfolio data from servicer
                                                                                                                     1/6/2011            ($802)     $683,062,741   Updated portfolio data from servicer
                                                                                                                    2/16/2011       ($900,000)      $682,162,741   Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011      ($4,000,000)     $678,162,741   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($925)     $678,161,816
                                                                                                                                                                   reallocation
                                                                                                                    5/13/2011   ($122,900,000)      $555,261,816   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($8,728)     $555,253,088
                                                                                                                                                                   reallocation
                                                                                                                    7/14/2011       ($600,000)      $554,653,088   Transfer of cap due to servicing transfer
                                                                                                                   10/19/2011   ($519,211,309)       $35,441,779   Termination of SPA
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009        $180,000           $600,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       ($350,000)          $250,000
                                                                                                                                                                   HAFA initial cap

                                                       Financial                                                    3/26/2010          $20,000          $270,000   Updated portfolio data from servicer
                                                       Instrument for
8/5/2009    Lake City Bank, Warsaw, IN   Purchase                                  $420,000     N/A                 7/14/2010         ($70,000)         $200,000   Updated portfolio data from servicer           $3,926         $3,552         $11,273              $18,751
                                                       Home Loan
                                                       Modifications                                                9/30/2010          $90,111          $290,111   Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($3)         $290,108
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($2)         $290,106
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009        $290,000           $430,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009        $210,000           $640,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010        $170,000           $810,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010         ($10,000)         $800,000   Updated portfolio data from servicer
                                                       Financial
            Oakland Municipal Credit                   Instrument for                                               9/30/2010         ($74,722)         $725,278   Updated portfolio data from servicer
8/5/2009                                 Purchase                                  $140,000     N/A         12                                                                                                       $—          $3,568           $6,500             $10,068
            Union, Oakland, CA                         Home Loan                                                     1/6/2011                           $725,277   Updated portfolio data from servicer
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011                           $725,276
                                                                                                                                                                   reallocation
                                                                                                                    4/13/2011       ($200,000)          $525,276   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($7)         $525,269
                                                                                                                                                                   reallocation
                                                                                                                    7/22/2011       ($515,201)           $10,068   Termination of SPA
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 291
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)                                                                                                                                                                                    292
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                            TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                             Incentives     Incentives       Incentives           Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009   ($121,190,000)      $552,810,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009     ($36,290,000)     $516,520,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010    $199,320,000       $715,840,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010   ($189,040,000)      $526,800,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010      $38,626,728      $565,426,728   Updated portfolio data from servicer
                                                      Financial                                                   10/15/2010   ($170,800,000)      $394,626,728   Transfer of cap due to servicing transfer
                                                      Instrument for
8/5/2009    HomEq Servicing             Purchase                              $674,000,000     N/A                12/15/2010     ($22,200,000)     $372,426,728   Updated portfolio data from servicer                  $—      $3,036,319       $5,272,500          $8,308,819
                                                      Home Loan
                                                      Modifications
                                                                                                                    1/6/2011            ($549)     $372,426,179   Updated portfolio data from servicer
                                                                                                                   2/16/2011       ($900,000)      $371,526,179   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($653)     $371,525,526
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($6,168)     $371,519,358
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($4,634)     $371,514,724
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009    $313,050,000     $1,087,950,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009    $275,370,000     $1,363,320,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010    $278,910,000     $1,642,230,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010   ($474,730,000)    $1,167,500,000   Updated portfolio data from servicer
                                                                                                                   8/13/2010       ($700,000)    $1,166,800,000   Transfer of cap to due to servicing transfer
                                                                                                                   9/15/2010      ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer
                                                                                                                   9/30/2010   ($115,017,236)    $1,050,782,764   Updated portfolio data from servicer
                                                                                                                  10/15/2010       ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010         $800,000    $1,050,782,764   Updated portfolio data from servicer
                                                                                                                    1/6/2011          ($1,286)   $1,050,781,478   Updated portfolio data from servicer
                                                                                                                   3/16/2011       $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                      Financial                                                                                                   Updated due to quarterly assessment and
            Litton Loan Servicing LP,                 Instrument for                                               3/30/2011          ($1,470)   $1,059,580,008
8/12/2009                               Purchase                              $774,900,000     N/A                                                                reallocation                                   $13,441,220   $35,353,126      $27,530,414         $76,324,760
            Houston, TX                               Home Loan
                                                      Modifications                                                4/13/2011      ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011       ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011       ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011         ($13,097)   $1,055,266,911
                                                                                                                                                                  reallocation
                                                                                                                   7/14/2011       ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011      ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011       ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011       ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011      ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012   ($194,800,000)      $853,966,911   Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012       ($400,000)      $853,566,911   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($9,728)     $853,557,183
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                     Lenders/                             Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                            Incentives    Incentives        Incentives           Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009      ($1,200,000)       $5,010,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009      $30,800,000       $35,810,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010      $23,200,000       $59,010,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due
                                                                                                                 6/16/2010       $2,710,000       $61,720,000
                                                                                                                                                                to servicing transfer
                                                                                                                 7/14/2010     ($18,020,000)      $43,700,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due
                                                                                                                 7/16/2010       $6,680,000       $50,380,000
                                                                                                                                                                to servicing transfer
                                                                                                                 8/13/2010       $2,600,000       $52,980,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/15/2010       ($100,000)       $52,880,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/30/2010         $200,000       $53,080,000   Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                 9/30/2010      ($1,423,197)      $51,656,803   Updated portfolio data from servicer
                                                                                                                11/16/2010       $1,400,000       $53,056,803   Transfer of cap due to servicing transfer
                                                                                                                12/15/2010       ($100,000)       $52,956,803   Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($72)      $52,956,731   Updated portfolio data from servicer
                                                                                                                 1/13/2011       $4,100,000       $57,056,731   Transfer of cap due to servicing transfer
                                                    Financial                                                    2/16/2011       ($100,000)       $56,956,731   Transfer of cap due to servicing transfer
            PennyMac Loan Services,                 Instrument for
8/12/2009                             Purchase                                 $6,210,000    N/A                                                                                                               $2,797,551   $4,023,481        $3,576,201         $10,397,232
            LLC, Calasbasa, CA                      Home Loan                                                    3/16/2011       $4,000,000       $60,956,731   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($94)      $60,956,637
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011       ($100,000)       $60,856,637   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011       $5,800,000       $66,656,637   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $600,000       $67,256,637   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($812)      $67,255,825
                                                                                                                                                                reallocation
                                                                                                                 7/14/2011       $2,500,000       $69,755,825   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011       $2,800,000       $72,555,825   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011         $300,000       $72,855,825   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $900,000       $73,755,825   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011         $800,000       $74,555,825   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $200,000       $74,755,825   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       $1,900,000       $76,655,825   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012         $200,000       $76,855,825   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       $1,340,000       $78,195,825   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($340)      $78,195,485
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                 293
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)                                                                                                                                                                                   294
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                     Lenders/                             Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                            Incentives    Incentives        Incentives           Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009     ($25,510,000)       $4,220,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009         $520,000        $4,740,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010       $4,330,000        $9,070,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due
                                                                                                                 4/19/2010         $230,000        $9,300,000
                                                                                                                                                                to servicing transfer
                                                                                                                 5/19/2010         $850,000       $10,150,000   Initial 2MP cap
                                                                                                                 7/14/2010       ($850,000)        $9,300,000   Updated portfolio data from servicer
                                                                                                                 9/15/2010         $100,000        $9,400,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/30/2010         $100,000        $9,500,000   Initial FHA-HAMP cap
                                                                                                                 9/30/2010      $16,755,064       $26,255,064   Updated portfolio data from servicer
                                                                                                                10/15/2010         $100,000       $26,355,064   Transfer of cap due to servicing transfer
                                                                                                                12/15/2010         $100,000       $26,455,064   Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($40)      $26,455,024   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




                                                                                                                 1/13/2011         $300,000       $26,755,024   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011         $100,000       $26,855,024   Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011       $2,200,000       $29,055,024   Transfer of cap due to servicing transfer
                                                    Financial
            Servis One, Inc.,                       Instrument for                                                                                              Updated due to quarterly assessment and
8/12/2009                             Purchase                               $29,730,000     N/A                 3/30/2011             ($52)      $29,054,972                                                   $137,593      $323,870         $220,309             $681,772
            Titusville, PA                          Home Loan                                                                                                   reallocation
                                                    Modifications                                                4/13/2011       $1,500,000       $30,554,972   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011       $1,000,000       $31,554,972   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $100,000       $31,654,972   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($534)      $31,654,438
                                                                                                                                                                reallocation
                                                                                                                 8/16/2011         $700,000       $32,354,438   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011       ($600,000)       $31,754,438   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011       $4,000,000       $35,754,438   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $600,000       $36,354,438   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011         $200,000       $36,554,438   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $100,000       $36,654,438   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012       $1,300,000       $37,954,438   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       $1,100,000       $39,054,438   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012         $800,000       $39,854,438   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012      ($1,080,000)      $38,774,438   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       $1,560,000       $40,334,438   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($465)      $40,333,973
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                           (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                    Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors        Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives     Incentives       Incentives           Payments
                                                                                                                 10/2/2009    $145,800,000       $814,240,000   HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009   $1,355,930,000    $2,170,170,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010    $121,180,000     $2,291,350,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($408,850,000)    $1,882,500,000   Updated portfolio data from servicer

                                                    Financial                                                    9/30/2010       $5,500,000    $1,888,000,000   2MP initial cap
            OneWest Bank,                           Instrument for                                               9/30/2010     ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
8/28/2009                             Purchase                              $668,440,000     N/A                                                                                                            $25,975,117   $87,841,858      $47,391,810       $161,208,785
            Pasadena, CA                            Home Loan
                                                    Modifications                                                 1/6/2011          ($2,282)   $1,836,256,555   Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($2,674)   $1,836,253,881
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011         ($24,616)   $1,836,229,265
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012         ($15,481)   $1,836,213,784
                                                                                                                                                                reallocation
                                                                                                                 10/2/2009          $70,000          $370,000   HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009       $2,680,000        $3,050,000
                                                                                                                                                                HAFA initial cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                               3/26/2010         $350,000        $3,400,000   Updated portfolio data from servicer
8/28/2009                             Purchase                                  $300,000     N/A                                                                                                                   $—             $—                $—                  $—
            Union, Palo Alto, CA                    Home Loan
                                                    Modifications                                                7/14/2010      ($1,900,000)       $1,500,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010      ($1,209,889)         $290,111   Updated portfolio data from servicer
                                                                                                                 3/23/2010       ($290,111)                $0   Termination of SPA
                                                                                                                 10/2/2009         $130,000          $700,000   HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009       ($310,000)          $390,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010       $2,110,000        $2,500,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010       $8,300,000       $10,800,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010       $5,301,172       $16,101,172   Updated portfolio data from servicer
                                                    Financial
            RoundPoint Mortgage                                                                                   1/6/2011             ($22)      $16,101,150   Updated portfolio data from servicer
                                                    Instrument for
8/28/2009   Servicing Corporation,    Purchase                                  $570,000     N/A                                                                                                               $79,380      $231,382         $184,337             $495,099
                                                    Home Loan                                                    3/16/2011       ($400,000)       $15,701,150   Transfer of cap due to servicing transfer
            Charlotte, NC
                                                    Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($25)      $15,701,125
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011               $0       $15,701,125   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($232)      $15,700,893
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($174)      $15,700,719
                                                                                                                                                                reallocation
                                                                                                                 10/2/2009         $130,000          $690,000   HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009       $1,040,000        $1,730,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010      ($1,680,000)          $50,000   Updated portfolio data from servicer
                                                                                                                 5/12/2010       $1,260,000        $1,310,000   Updated portfolio data from servicer
                                                    Financial
            Horicon Bank,                           Instrument for                                               7/14/2010      ($1,110,000)         $200,000   Updated portfolio data from servicer
9/2/2009                              Purchase                                  $560,000     N/A                                                                                                                $3,348       $10,261            $6,570             $20,179
            Horicon, WI                             Home Loan
                                                    Modifications                                                9/30/2010         $100,000          $300,000   Initial RD-HAMP
                                                                                                                 9/30/2010          ($9,889)         $290,111   Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011              ($3)         $290,108
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($2)         $290,106
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               295
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)                                                                                                                                                                                296
               Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                   Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors        Servicers            Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives     Incentives       Incentives           Payments
                                                                                                                     10/2/2009       $1,310,000        $7,310,000   HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009      ($3,390,000)       $3,920,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010         $410,000        $4,330,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($730,000)        $3,600,000   Updated portfolio data from servicer
                                                                                                                     9/15/2010       $4,700,000        $8,300,000   Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010         $117,764        $8,417,764   Updated portfolio data from servicer
                                                                                                                    11/16/2010         $800,000        $9,217,764   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010       $2,700,000       $11,917,764   Updated portfolio data from servicer

                                                        Financial                                                     1/6/2011             ($17)      $11,917,747   Updated portfolio data from servicer
9/2/2009 as   Vantium Capital, Inc.dba
                                                        Instrument for                                               1/13/2011         $700,000       $12,617,747   Transfer of cap due to servicing transfer
amended on    Acqura Loan Services,       Purchase                                 $6,000,000    N/A         10                                                                                                  $186,337      $373,215         $316,156             $875,708
                                                        Home Loan
8/27/2010     Plano, TX
                                                        Modifications                                                2/16/2011       $1,800,000       $14,417,747   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($19)      $14,417,728
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 25, 2012




                                                                                                                     4/13/2011         $300,000       $14,717,728   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($189)      $14,717,539
                                                                                                                                                                    reallocation
                                                                                                                     8/16/2011         $300,000       $15,017,539   Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011         $100,000       $15,117,539   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011         $100,000       $15,217,539   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($147)      $15,217,392
                                                                                                                                                                    reallocation
                                                                                                                     10/2/2009         $280,000        $1,530,000   HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009       ($750,000)          $780,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010         $120,000          $900,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($300,000)          $600,000   Updated portfolio data from servicer
                                                        Financial
              Central Florida Educators                                                                              9/30/2010         $270,334          $870,334   Updated portfolio data from servicer
                                                        Instrument for
9/9/2009      Federal Credit Union,       Purchase                                 $1,250,000    N/A                                                                                                              $47,434       $78,776         $106,317             $232,528
                                                        Home Loan                                                     1/6/2011                           $870,333   Updated portfolio data from servicer
              Lake May, FL
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011                           $870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($5)         $870,327
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012          $21,717          $892,044
                                                                                                                                                                    reallocation
                                                                                                                     10/2/2009      $24,920,000      $139,140,000   HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009      $49,410,000      $188,550,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010      $41,830,000      $230,380,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010     ($85,780,000)     $144,600,000   Updated portfolio data from servicer
                                                        Financial
              U.S. Bank National                                                                                     9/30/2010      $36,574,444      $181,174,444   Updated portfolio data from servicer
                                                        Instrument for
9/9/2009      Association,                Purchase                              $114,220,000     N/A                                                                                                            $5,867,358   $16,302,536      $13,130,906         $35,300,799
                                                        Home Loan                                                     1/6/2011            ($160)     $181,174,284   Updated portfolio data from servicer
              Owensboro, KY
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($172)     $181,174,112
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($1,431)     $181,172,681
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($746)     $181,171,935
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                      TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                      10/2/2009         $950,000        $5,300,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009       $5,700,000       $11,000,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010         $740,000       $11,740,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010      ($1,440,000)      $10,300,000   Updated portfolio data from servicer
                                                         Financial
                                                                                                                      9/30/2010      ($6,673,610)       $3,626,390   Updated portfolio data from servicer
            CUC Mortgage                                 Instrument for
9/9/2009                                   Purchase                                 $4,350,000    N/A                                                                                                            $29,713       $78,063          $67,322             $175,097
            Corporation, Albany, NY                      Home Loan                                                     1/6/2011              ($5)       $3,626,385   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($6)       $3,626,379
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($52)       $3,626,327
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($38)       $3,626,289
                                                                                                                                                                     reallocation
                                                                                                                      10/2/2009         $460,000        $2,530,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009       $2,730,000        $5,260,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010      $13,280,000       $18,540,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($13,540,000)       $5,000,000   Updated portfolio data from servicer
                                                         Financial
                                                                                                                      9/30/2010       $1,817,613        $6,817,613   Updated portfolio data from servicer
            ORNL Federal Credit Union,                   Instrument for
9/11/2009                                  Purchase                                 $2,070,000    N/A                                                                                                             $4,035        $6,623          $12,251              $22,909
            Oak Ridge, TN                                Home Loan                                                     1/6/2011             ($10)       $6,817,603   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($12)       $6,817,591
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($115)       $6,817,476
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($86)       $6,817,390
                                                                                                                                                                     reallocation
                                                                                                                      10/2/2009          $60,000          $310,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009         ($80,000)         $230,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                      3/26/2010         $280,000          $510,000   Updated portfolio data from servicer
                                                         Financial
            Allstate Mortgage Loans &                    Instrument for                                               7/14/2010       ($410,000)          $100,000   Updated portfolio data from servicer
9/11/2009                                  Purchase                                  $250,000     N/A                                                                                                             $3,329        $7,341            $6,329             $17,000
            Investments, Inc., Ocala, FL                 Home Loan
                                                         Modifications                                                9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011                           $145,055
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012                           $145,054
                                                                                                                                                                     reallocation
                                                                                                                      10/2/2009          $70,000          $350,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009         $620,000          $970,000
                                                                                                                                                                     HAFA initial cap
                                                         Financial                                                    3/26/2010         $100,000        $1,070,000   Updated portfolio data from servicer
            Metropolitan National Bank,                  Instrument for
9/11/2009                                  Purchase                                  $280,000     N/A                                                                                                                $—            $—                 $—                  $—
            Little Rock, AR                              Home Loan                                                    7/14/2010       ($670,000)          $400,000   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                      9/30/2010          $35,167          $435,167   Updated portfolio data from servicer
                                                                                                                       1/6/2011                           $435,166   Updated portfolio data from servicer
                                                                                                                      1/26/2011       ($435,166)                $0   Termination of SPA
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                 297
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)                                                                                                                                                                                298
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   10/2/2009       $6,010,000       $33,520,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009     ($19,750,000)      $13,770,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010      ($4,780,000)       $8,990,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($2,390,000)       $6,600,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010       $2,973,670        $9,573,670   Updated portfolio data from servicer
                                                      Financial
            Franklin Credit                                                                                         1/6/2011              ($3)       $9,573,667   Updated portfolio data from servicer
                                                      Instrument for
9/11/2009   Management Corporation,     Purchase                               $27,510,000     N/A                                                                                                             $250,441      $493,734         $618,514           $1,362,689
                                                      Home Loan                                                    2/16/2011      ($1,800,000)       $7,773,667   Transfer of cap due to servicing transfer
            Jersey City, NJ
                                                      Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($6)       $7,773,661
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($61)       $7,773,600
                                                                                                                                                                  reallocation
                                                                                                                  10/14/2011       ($100,000)        $7,673,600   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($58)       $7,673,542
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                                                                                   10/2/2009          $90,000          $500,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $1,460,000        $1,960,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010         $160,000        $2,120,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($120,000)        $2,000,000   Updated portfolio data from servicer
                                                      Financial
            Bay Federal Credit Union,                 Instrument for                                               9/30/2010      ($1,419,778)         $580,222   Updated portfolio data from servicer
9/16/2009                               Purchase                                  $410,000     N/A                                                                                                                  $—            $—                 $—                  $—
            Capitola, CA                              Home Loan
                                                      Modifications                                                 1/6/2011                           $580,221   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011                           $580,220
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)         $580,212
                                                                                                                                                                  reallocation
                                                                                                                   1/25/2012       ($580,212)                $0   Termination of SPA
                                                                                                                   10/2/2009         $960,000        $5,350,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009      ($3,090,000)       $2,260,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010         $230,000        $2,490,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       $5,310,000        $7,800,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010         $323,114        $8,123,114   Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($12)       $8,123,102   Updated portfolio data from servicer
                                                                                                                   3/16/2011         $600,000        $8,723,102   Transfer of cap due to servicing transfer

                                                      Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($16)       $8,723,086
            AMS Servicing, LLC,                       Instrument for                                                                                              reallocation
9/23/2009                               Purchase                                 $4,390,000    N/A                                                                                                                  $—         $1,470                $—              $1,470
            Buffalo, NY                               Home Loan                                                    4/13/2011         $200,000        $8,923,086   Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                   5/13/2011         $100,000        $9,023,086   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($153)       $9,022,933
                                                                                                                                                                  reallocation
                                                                                                                   9/15/2011         $100,000        $9,122,933   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011         $100,000        $9,222,933   Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012       $1,100,000       $10,322,933   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012         $650,000       $10,972,933   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012            ($136)      $10,972,797
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                   10/2/2009          $90,000          $480,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $940,000         $1,420,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010       ($980,000)          $440,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($140,000)          $300,000   Updated portfolio data from servicer
                                                      Financial
                                                                                                                   9/30/2010       $1,150,556        $1,450,556   Updated portfolio data from servicer
            Schools Financial Credit                  Instrument for
9/23/2009                               Purchase                                  $390,000     N/A                                                                                                            $10,750       $36,508          $23,500              $70,758
            Union, Sacramento, CA                     Home Loan                                                     1/6/2011              ($2)       $1,450,554   Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)       $1,450,552
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($22)       $1,450,530
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($16)       $1,450,514
                                                                                                                                                                  reallocation
                                                                                                                   10/2/2009          $60,000          $290,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009         ($10,000)         $280,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010        $130,000           $410,000   Updated portfolio data from servicer
                                                      Financial
            Glass City Federal Credit                 Instrument for                                               7/14/2010       ($110,000)          $300,000   Updated portfolio data from servicer
9/23/2009                               Purchase                                  $230,000     N/A                                                                                                             $3,000        $2,223            $5,000             $10,223
            Union, Maumee, OH                         Home Loan
                                                      Modifications                                                9/30/2010          ($9,889)         $290,111   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($3)         $290,108
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($2)         $290,106
                                                                                                                                                                  reallocation
                                                                                                                   10/2/2009          $10,000           $40,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $120,000           $160,000
                                                                                                                                                                  HAFA initial cap
                                                      Financial
            Central Jersey Federal
                                                      Instrument for                                               3/26/2010          $10,000          $170,000   Updated portfolio data from servicer
9/23/2009   Credit Union,               Purchase                                     30,000    N/A                                                                                                                $—            $—                 $—                  $—
                                                      Home Loan
            Woodbridge, NJ                                                                                         7/14/2010         ($70,000)         $100,000   Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                  10/29/2010       ($145,056)                $0   Termination of SPA
                                                                                                                   10/2/2009          $60,000          $300,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $350,000           $650,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010       $1,360,000        $2,010,000   Updated portfolio data from servicer
                                                      Financial                                                    7/14/2010      ($1,810,000)         $200,000   Updated portfolio data from servicer
            Yadkin Valley Bank,                       Instrument for
9/23/2009                               Purchase                                  $240,000     N/A                 9/30/2010        $235,167           $435,167   Updated portfolio data from servicer        $10,634       $14,270          $29,484              $54,388
            Elkin, NC                                 Home Loan
                                                      Modifications
                                                                                                                    1/6/2011                           $435,166   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($4)         $435,162
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($3)         $435,159
                                                                                                                                                                  reallocation
                                                                                                                   10/2/2009        $100,000           $540,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009          $20,000          $560,000
                                                                                                                                                                  HAFA initial cap

                                                      Financial                                                    3/26/2010       ($290,000)          $270,000   Updated portfolio data from servicer
                                                      Instrument for
9/25/2009   SEFCU, Albany, NY           Purchase                                  $440,000     N/A                 7/14/2010         ($70,000)         $200,000   Updated portfolio data from servicer            $—            $—                 $—                  $—
                                                      Home Loan
                                                      Modifications                                                9/30/2010         ($54,944)         $145,056   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011                           $145,055
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                  reallocation
                                                                                                                   4/11/2012       ($145,055)                $0   Termination of SPA
                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                              299
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                                300
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                   Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors        Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives     Incentives       Incentives           Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $1,030,000        $1,600,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010       ($880,000)          $720,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($320,000)          $400,000   Updated portfolio data from servicer

                                                       Financial                                                    9/30/2010         $180,222          $580,222   Updated portfolio data from servicer
             Great Lakes Credit Union,                 Instrument for                                                1/6/2011                           $580,221   Updated portfolio data from servicer
10/14/2009                               Purchase                                  $570,000     N/A                                                                                                               $5,917         $8,006           $7,500             $21,423
             North Chicago, IL                         Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                    3/30/2011                           $580,220
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($8)         $580,212
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($6)         $580,206
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009      ($2,900,000)       $1,960,000
                                                                                                                                                                   HAFA initial cap
                                                       Financial                                                    3/26/2010      ($1,600,000)         $360,000   Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                                 $4,860,000    N/A                                                                                                                  $—             $—                $—                  $—
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




             Corporation, Tulsa, OK                    Home Loan                                                    7/14/2010       ($260,000)          $100,000   Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                     3/9/2011       ($145,056)                $0   Termination of SPA
                                                                                                                    1/22/2010          $20,000          $430,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $400,000          $830,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($430,000)          $400,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010         $180,222          $580,222   Updated portfolio data from servicer
                                                       Financial
             United Bank Mortgage                                                                                    1/6/2011                           $580,221   Updated portfolio data from servicer
                                                       Instrument for
10/21/2009   Corporation,                Purchase                                  $410,000     N/A                                                                                                              $23,901       $46,028          $45,446             $115,376
                                                       Home Loan
             Grand Rapids, MI                                                                                                                                      Updated due to quarterly assessment and
                                                       Modifications                                                3/30/2011                           $580,220
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($5)         $580,215
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($4)         $580,211
                                                                                                                                                                   reallocation
                                                                                                                    1/22/2010       $4,370,000       $98,030,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010      $23,880,000      $121,910,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($16,610,000)     $105,300,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010       $1,751,033      $107,051,033   Updated portfolio data from servicer
                                                                                                                     1/6/2011             ($77)     $107,050,956   Updated portfolio data from servicer
                                                       Financial
             Bank United,                              Instrument for                                               3/16/2011      ($9,900,000)      $97,150,956   Transfer of cap due to servicing transfer
10/23/2009                               Purchase                               $93,660,000     N/A                                                                                                            $3,944,973   $10,742,313       $7,301,320         $21,988,606
             Miami Lakes, FL                           Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                       Modifications                                                3/30/2011             ($88)      $97,150,868
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($773)      $97,150,095
                                                                                                                                                                   reallocation
                                                                                                                    3/15/2012      ($1,400,000)      $95,750,095   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/28/2012            ($277)      $95,749,818
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                      TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                   1/22/2010           $40,000          $800,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        ($760,000)           $40,000   Updated portfolio data from servicer
                                                                                                                   5/12/2010        $2,630,000        $2,670,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($770,000)        $1,900,000   Updated portfolio data from servicer
                                                       Financial                                                   9/30/2010         $565,945         $2,465,945   Updated portfolio data from servicer
             IC Federal Credit Union,                  Instrument for
10/23/2009                               Purchase                                  $760,000     N/A                 1/6/2011               ($4)       $2,465,941   Updated portfolio data from servicer        $10,000       $19,757          $21,000              $50,757
             Fitchburg, MA                             Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                   3/30/2011               ($4)       $2,465,937
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($40)       $2,465,897
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($29)       $2,465,868
                                                                                                                                                                   reallocation
                                                       Financial
             Harleysville National
                                                       Instrument for
10/28/2009   Bank & Trust Company,       Purchase                                 $1,070,000    N/A                4/21/2010       ($1,070,000)               $0   Termination of SPA                              $—            $—                 $—                  $—
                                                       Home Loan
             Harleysville, PA
                                                       Modifications
                                                       Financial
             Members Mortgage                          Instrument for
10/28/2009                               Purchase                                  $510,000     N/A                4/21/2010        ($510,000)                $0   Termination of SPA                              $—            $—                 $—                  $—
             Company, Inc, Woburn, MA                  Home Loan
                                                       Modifications
                                                                                                                   1/22/2010           $10,000           $80,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010           $10,000           $90,000   Updated portfolio data from servicer
                                                       Financial
             DuPage Credit Union,                      Instrument for                                              7/14/2010           $10,000          $100,000   Updated portfolio data from servicer
10/30/2009                               Purchase                                    $70,000    N/A                                                                                                             $2,514       $16,802            $6,214             $25,531
             Naperville, IL                            Home Loan
                                                       Modifications                                               9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011                            $145,055
                                                                                                                                                                   reallocation
                                                                                                                   1/22/2010           $40,000          $740,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010           $50,000          $790,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010        $1,310,000        $2,100,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010           $75,834        $2,175,834   Updated portfolio data from servicer
                                                       Financial
             Los Alamos National Bank,                 Instrument for                                               1/6/2011               ($3)       $2,175,831   Updated portfolio data from servicer
11/6/2009                                Purchase                                  $700,000     N/A                                                                                                             $7,538       $13,790          $20,993              $42,321
             Los Alamos, NM                            Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011               ($4)       $2,175,827
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($35)       $2,175,792
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($26)       $2,175,766
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                               301
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                                302
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   1/22/2010         $890,000        $19,850,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $3,840,000       $23,690,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($2,890,000)      $20,800,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010        $9,661,676       $30,461,676   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($46)      $30,461,630   Updated portfolio data from servicer
                                                                                                                   1/13/2011        $1,600,000       $32,061,630   Transfer of cap due to servicing transfer
                                                                                                                   2/16/2011        $1,400,000       $33,461,630   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($58)      $33,461,572
                                                                                                                                                                   reallocation
                                                       Financial                                                   4/13/2011         $100,000        $33,561,572   Transfer of cap due to servicing transfer
             Quantum Servicing                         Instrument for
11/18/2009                               Purchase                               $18,960,000     N/A                5/13/2011         $100,000        $33,661,572   Transfer of cap due to servicing transfer    $125,560      $288,189         $172,984             $586,733
             Corporation, Tampa, FL                    Home Loan
                                                       Modifications
                                                                                                                   6/16/2011         $800,000        $34,461,572   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($559)      $34,461,013
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




                                                                                                                   7/14/2011         $300,000        $34,761,013   Transfer of cap due to servicing transfer
                                                                                                                   8/16/2011         $200,000        $34,961,013   Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011         $100,000        $35,061,013   Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012         $100,000        $35,161,013   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012         $330,000        $35,491,013   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($428)      $35,490,585
                                                                                                                                                                   reallocation
                                                                                                                   1/22/2010           $80,000        $1,750,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $330,000         $2,080,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,080,000)       $1,000,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010         $160,445         $1,160,445   Updated portfolio data from servicer
                                                       Financial
             Hillsdale County National                 Instrument for                                               1/6/2011                          $1,160,444   Updated portfolio data from servicer
11/18/2009                               Purchase                                 $1,670,000    N/A                                                                                                              $14,943       $21,839          $36,529              $73,311
             Bank, Hillsdale, MI                       Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011               ($2)       $1,160,442
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($16)       $1,160,426
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($12)       $1,160,414
                                                                                                                                                                   reallocation
                                                                                                                   1/22/2010                $0           $20,000 Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010          ($10,000)          $10,000 Updated portfolio data from servicer

                                                       Financial                                                   7/14/2010           $90,000          $100,000   Updated portfolio data from servicer
             QLending, Inc.,                           Instrument for                                              9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
11/18/2009                               Purchase                                    $20,000    N/A                                                                                                                  $—            $—                 $—                  $—
             Coral Gables, FL                          Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                   6/29/2011                            $145,055
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012                            $145,054
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                     Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s     Investors         Servicers            Incentive
Date          Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                            Incentives    Incentives        Incentives           Payments
                                                                                                                  1/22/2010          $950,000       $21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010      ($17,880,000)       $3,430,000    Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due
                                                                                                                  6/16/2010        $1,030,000        $4,460,000
                                                                                                                                                                   to servicing transfer
                                                                                                                  7/14/2010       ($1,160,000)       $3,300,000    Updated portfolio data from servicer
                                                                                                                  8/13/2010          $800,000        $4,100,000    Transfer of cap due to servicing transfer
                                                                                                                  9/30/2010          $200,000        $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                  9/30/2010        $1,357,168        $5,657,168    Updated portfolio data from servicer
                                                                                                                   1/6/2011                          $5,657,167    Updated portfolio data from servicer
                                                                                                                  3/16/2011        $5,700,000       $11,357,167    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($6)      $11,357,161
                                                      Financial                                                                                                    reallocation
              Marix Servicing, LLC,                   Instrument for
11/25/2009                              Purchase                               $20,360,000     N/A                4/13/2011        $7,300,000       $18,657,161    Transfer of cap due to servicing transfer      $352,196      $970,197         $839,633           $2,162,025
              Phoenix, AZ                             Home Loan
                                                      Modifications                                               5/13/2011          $300,000       $18,957,161    Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011          $900,000       $19,857,161    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($154)      $19,857,007
                                                                                                                                                                   reallocation
                                                                                                                  7/14/2011          $100,000       $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011          $300,000       $20,257,007    Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012       ($1,500,000)      $18,757,007    Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012       ($2,100,000)      $16,657,007    Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012       ($1,300,000)      $15,357,007    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       ($8,350,000)       $7,007,007    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($38)       $7,006,969
                                                                                                                                                                   reallocation
                                                      Financial
              Home Financing Center,                  Instrument for
11/25/2009                              Purchase                                  $230,000     N/A                4/21/2010        ($230,000)                $0    Termination of SPA                                  $—            $—                 $—                  $—
              Inc, Coral Gables FL                    Home Loan
                                                      Modifications
                                                                                                                  1/22/2010           $50,000        $1,710,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010        $1,020,000        $2,730,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($950,000)        $1,780,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $50,556        $1,830,556    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)       $1,830,554    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($2)       $1,830,552
                                                                                                                                                                   reallocation
                                                                                                                  6/16/2011        ($100,000)        $1,730,552    Transfer of cap due to servicing transfer
                                                      Financial
              First Keystone Bank,                                                                                                                                 Updated due to quarterly assessment and
11/25/2009,                                           Instrument for                                              6/29/2011              ($21)       $1,730,531
              Media, PA,                Purchase                                 $1,660,000    N/A         12                                                      reallocation                                     $2,776        $3,423            $8,718             $14,917
12/4/2009                                             Home Loan
              Clark Summit, PA
                                                      Modifications                                               7/22/2011       ($1,335,614)         $394,917    Termination of SPA
                                                                                                                  1/22/2010           $10,000           $10,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010          $520,000          $530,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($810,000)         ($280,000)   Updated portfolio data from servicer
                                                                                                                  9/30/2010           $45,056         ($234,944)   Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/29/2011                           ($234,945)
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/28/2012                           ($234,946)
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   303
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)                                                                                                                                                                              304
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                      TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                    1/22/2010          $440,000        $9,870,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010       $14,480,000       $24,350,000   Updated portfolio data from servicer
                                                                                                                    5/26/2010      ($24,200,000)         $150,000   Updated portfolio data from servicer
                                                        Financial
                                                                                                                    7/14/2010          $150,000          $300,000   Updated portfolio data from servicer
            Idaho Housing and Finance                   Instrument for
12/4/2009                                 Purchase                                 $9,430,000    N/A                                                                                                            $12,169       $12,550          $19,253              $43,972
            Association, Boise, ID                      Home Loan                                                   9/30/2010           ($9,889)         $290,111   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($3)         $290,108
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/28/2012               ($2)         $290,106
                                                                                                                                                                    reallocation
                                                                                                                    1/22/2010           $10,000          $370,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          $850,000        $1,220,000   Updated portfolio data from servicer

                                                        Financial                                                   7/14/2010        ($120,000)        $1,100,000   Updated portfolio data from servicer
            Spirit of Alaska Federal                    Instrument for
12/9/2009                                 Purchase                                  $360,000     N/A                9/30/2010          $100,000        $1,200,000   Initial FHA-HAMP cap                            $—            $—                 $—                  $—
            Credit Union, Fairbanks, AK                 Home Loan
                                                        Modifications                                               9/30/2010          $105,500        $1,305,500   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                                                                                     1/6/2011               ($2)       $1,305,498   Updated portfolio data from servicer
                                                                                                                    2/17/2011       ($1,305,498)               $0   Termination of SPA
                                                                                                                    1/22/2010           $70,000        $1,660,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        ($290,000)        $1,370,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010        ($570,000)          $800,000   Updated portfolio data from servicer

                                                        Financial                                                   9/30/2010           $70,334          $870,334   Updated portfolio data from servicer
            American Eagle Federal
                                                        Instrument for                                               1/6/2011                            $870,333   Updated portfolio data from servicer
12/9/2009   Credit Union, East            Purchase                                 $1,590,000    N/A                                                                                                                $—            $—                 $—                  $—
                                                        Home Loan
            Hartford, CT
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                    3/30/2011                            $870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($13)         $870,319
                                                                                                                                                                    reallocation
                                                                                                                    1/25/2012        ($870,319)                $0   Termination of SPA
                                                                                                                    1/22/2010           $90,000        $1,970,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $1,110,000        $3,080,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,180,000)       $1,900,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010          $275,834        $2,175,834   Updated portfolio data from servicer
                                                        Financial
            Silver State Schools Credit                 Instrument for                                               1/6/2011               ($2)       $2,175,832   Updated portfolio data from servicer
12/9/2009                                 Purchase                                 $1,880,000    N/A                                                                                                            $30,356      $134,364          $59,189             $223,909
            Union, Las Vegas, NV                        Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                        Modifications                                               3/30/2011               ($3)       $2,175,829
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($26)       $2,175,803
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($21)       $2,175,782
                                                                                                                                                                    reallocation
                                                                                                                    1/22/2010          $140,000        $3,080,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $6,300,000        $9,380,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,980,000)       $7,400,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010       ($6,384,611)       $1,015,389   Updated portfolio data from servicer
                                                        Financial
            Fidelity Homestead Savings                  Instrument for                                               1/6/2011                          $1,015,388   Updated portfolio data from servicer
12/9/2009                                 Purchase                                 $2,940,000    N/A                                                                                                                $—            $—                 $—                  $—
            Bank, New Orleans, LA                       Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                        Modifications                                               3/30/2011               ($2)       $1,015,386
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($16)       $1,015,370
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($12)       $1,015,358
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                      TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                     1/22/2010          $10,000          $240,000   Updated HPDP cap & HAFA initial cap

                                                        Financial                                                    3/26/2010        $440,000           $680,000   Updated portfolio data from servicer
             Bay Gulf Credit Union,                     Instrument for
12/9/2009                                 Purchase                                  $230,000     N/A                 7/14/2010         ($80,000)         $600,000   Updated portfolio data from servicer            $—            $—                 $—                  $—
             Tampa, FL                                  Home Loan
                                                        Modifications                                                9/30/2010         ($19,778)         $580,222   Updated portfolio data from servicer
                                                                                                                    10/15/2010       ($580,222)                $0   Termination of SPA
                                                                                                                     1/22/2010        $290,000         $6,450,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010          $40,000        $6,490,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010      ($2,890,000)       $3,600,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010        $606,612         $4,206,612   Updated portfolio data from servicer
                                                        Financial
             The Golden 1 Credit Union,                 Instrument for                                                1/6/2011              ($4)       $4,206,608   Updated portfolio data from servicer
12/9/2009                                 Purchase                                 $6,160,000    N/A                                                                                                           $122,042      $453,485         $296,559             $872,087
             Sacramento, CA                             Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                        Modifications                                                3/30/2011              ($4)       $4,206,604
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($35)       $4,206,569
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($9)       $4,206,560
                                                                                                                                                                    reallocation
                                                                                                                     1/22/2010        $100,000         $2,350,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010       ($740,000)        $1,610,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($710,000)          $900,000   Updated portfolio data from servicer
                                                        Financial
                                                                                                                     9/30/2010        $550,556         $1,450,556   Updated portfolio data from servicer
             Sterling Savings Bank,                     Instrument for
12/9/2009                                 Purchase                                 $2,250,000    N/A                                                                                                            $58,545      $145,764         $135,710             $340,020
             Spokane, WA                                Home Loan                                                     1/6/2011                         $1,450,555   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011                         $1,450,554
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($11)       $1,450,543
                                                                                                                                                                    reallocation
                                                                                                                     1/22/2010          $20,000          $330,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        $820,000         $1,150,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($350,000)          $800,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010          $70,334          $870,334   Updated portfolio data from servicer
                                                        Financial
             HomeStar Bank & Financial                  Instrument for                                                1/6/2011                           $870,333   Updated portfolio data from servicer
12/11/2009                                Purchase                                  $310,000     N/A                                                                                                             $1,917        $5,573            $5,833             $13,323
             Services, Manteno, IL                      Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                        Modifications                                                3/30/2011                           $870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($13)         $870,319
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012             ($10)         $870,309
                                                                                                                                                                    reallocation

             Glenview State Bank,                       Financial                                                    1/22/2010          $20,000          $390,000   Updated HPDP cap & HAFA initial cap
             Glenview, IL                               Instrument for
12/11/2009                                Purchase                                  $370,000     N/A                 3/26/2010       $1,250,000        $1,640,000   Updated portfolio data from servicer            $—            $—                 $—                  $—
             1000558                                    Home Loan
             1000558                                    Modifications                                                5/26/2010      ($1,640,000)               $0   Termination of SPA
                                                                                                                     1/22/2010          $30,000          $630,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        $400,000         $1,030,000   Updated portfolio data from servicer
                                                        Financial
             Verity Credit Union,                       Instrument for                                               7/14/2010       ($330,000)          $700,000   Updated portfolio data from servicer
12/11/2009                                Purchase                                  $600,000     N/A                                                                                                                $—            $—                 $—                  $—
             Seatle, WA                                 Home Loan                                                    9/30/2010          $25,278          $725,278   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                      1/6/2011                           $725,277   Updated portfolio data from servicer
                                                                                                                     2/17/2011       ($725,277)                $0   Termination of SPA
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                305
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)                                                                                                                                                                                306
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                     1/22/2010           $30,000          $660,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010         $800,000         $1,460,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010        ($360,000)        $1,100,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010           $60,445        $1,160,445   Updated portfolio data from servicer
                                                         Financial
             Hartford Savings Bank,                      Instrument for                                               1/6/2011               ($2)       $1,160,443   Updated portfolio data from servicer
12/11/2009                                 Purchase                                  $630,000     N/A                                                                                                                  $—            $—                 $—                  $—
             Hartford, WI                                Home Loan
                                                                                                                                                                     Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011               ($2)       $1,160,441
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($18)       $1,160,423
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($14)       $1,160,409
                                                                                                                                                                     reallocation
                                                         Financial                                                   4/21/2010        ($150,000)                $0   Termination of SPA
             The Bryn Mawr Trust Co.,                    Instrument for
12/11/2009                                 Purchase                                  $150,000     N/A         9                                                                                                     $4,718        $7,510            $4,718             $16,946
             Bryn Mawr, PA                               Home Loan                                                   6/16/2011         $100,000           $100,000   Transfer of cap due to servicing transfer
                                                         Modifications
                                                                                                                     1/22/2010           $30,000          $650,000   Updated HPDP cap & HAFA initial cap
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




                                                                                                                     3/26/2010        ($580,000)           $70,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010        $1,430,000        $1,500,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010           $95,612        $1,595,612   Updated portfolio data from servicer
                                                         Financial
             Citizens 1st National Bank,                 Instrument for                                               1/6/2011               ($2)       $1,595,610   Updated portfolio data from servicer
12/16/2009                                 Purchase                                  $620,000     N/A                                                                                                               $8,667       $26,372          $23,517              $58,555
             Spring Valley, IL                           Home Loan
                                                                                                                                                                     Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011               ($3)       $1,595,607
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($24)       $1,595,583
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($16)       $1,595,567
                                                                                                                                                                     reallocation
                                                                                                                     1/22/2010           $10,000          $180,000   Updated HPDP cap & HAFA initial cap

                                                         Financial                                                   3/26/2010           $30,000          $210,000   Updated portfolio data from servicer
             Golden Plains Credit Union,                 Instrument for
12/16/2009                                 Purchase                                  $170,000     N/A                7/14/2010          ($10,000)         $200,000   Updated portfolio data from servicer              $—            $—                 $—                  $—
             Garden City, KS                             Home Loan
                                                         Modifications                                               9/30/2010           $90,111          $290,111   Updated portfolio data from servicer
                                                                                                                     2/17/2011        ($290,111)                $0   Termination of SPA
                                                         Financial                                                   1/22/2010         $160,000         $3,620,000   Updated HPDP cap & HAFA initial cap
             First Federal Savings
                                                         Instrument for
12/16/2009   and Loan Association of       Purchase                                 $3,460,000    N/A                                                                                                                  $—            $—                 $—                  $—
                                                         Home Loan                                                   4/21/2010       ($3,620,000)               $0   Termination of SPA
             Lakewood, Lakewood, OH
                                                         Modifications
                                                                                                                     1/22/2010           $20,000          $460,000   Updated HPDP cap & HAFA initial cap
                                                         Financial
             Sound Community Bank,                       Instrument for                                              3/26/2010        $1,430,000        $1,890,000   Updated portfolio data from servicer
12/16/2009                                 Purchase                                  $440,000     N/A                                                                                                                  $—            $—                 $—                  $—
             Seatle, WA                                  Home Loan                                                   7/14/2010        ($390,000)        $1,500,000   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                      9/8/2010       ($1,500,000)               $0   Termination of SPA
                                                                                                                     1/22/2010           $30,000          $730,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        $1,740,000        $2,470,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($1,870,000)         $600,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010         $850,556         $1,450,556   Updated portfolio data from servicer
                                                         Financial
             Horizon Bank, NA,                           Instrument for                                               1/6/2011               ($2)       $1,450,554   Updated portfolio data from servicer
12/16/2009                                 Purchase                                  $700,000     N/A                                                                                                                  $—            $—                 $—                  $—
             Michigan City, IN                           Home Loan
                                                                                                                                                                     Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011               ($2)       $1,450,552
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($23)       $1,450,529
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($17)       $1,450,512
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   1/22/2010           $40,000          $800,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $140,000           $940,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)          $800,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010           $70,334          $870,334   Updated portfolio data from servicer
                                                       Financial
             Park View Federal Savings                 Instrument for                                               1/6/2011                            $870,333   Updated portfolio data from servicer
12/16/2009                               Purchase                                  $760,000     N/A                                                                                                              $11,000       $23,937          $19,000              $53,937
             Bank, Solon, OH                           Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011                            $870,332
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($12)         $870,320
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($10)         $870,310
                                                                                                                                                                   reallocation
                                                                                                                   1/22/2010         $200,000         $4,430,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       ($1,470,000)       $2,960,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,560,000)       $1,400,000   Updated portfolio data from servicer
                                                       Financial                                                   9/30/2010        $5,852,780        $7,252,780   Updated portfolio data from servicer
                                                       Instrument for
12/23/2009   Iberiabank, Sarasota, FL    Purchase                                 $4,230,000    N/A         12      1/6/2011              ($11)       $7,252,769   Updated portfolio data from servicer              $—        $10,502          $15,000              $25,502
                                                       Home Loan
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($13)       $7,252,756
                                                                                                                                                                   reallocation
                                                                                                                   4/13/2011        ($300,000)        $6,952,756   Transfer of cap due to servicing transfer
                                                                                                                    6/3/2011       ($6,927,254)          $25,502 Termination of SPA
                                                                                                                   1/22/2010           $20,000          $360,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        ($320,000)           $40,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010         $760,000           $800,000   Updated portfolio data from servicer

                                                       Financial                                                   9/30/2010          ($74,722)         $725,278   Updated portfolio data from servicer
             Grafton Suburban Credit                   Instrument for                                               1/6/2011                            $725,277   Updated portfolio data from servicer
12/23/2009                               Purchase                                  $340,000     N/A                                                                                                                  $—            $—                 $—                  $—
             Union, North Grafton, MA                  Home Loan
                                                       Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                   3/30/2011                            $725,276
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($11)         $725,265
                                                                                                                                                                   reallocation
                                                                                                                   1/25/2012        ($725,265)                $0   Termination of SPA
                                                                                                                   1/22/2010                $0           $60,000   Updated HPDP cap & HAFA initial cap

                                                       Financial                                                   3/26/2010           $90,000          $150,000   Updated portfolio data from servicer
             Eaton National Bank &                     Instrument for
12/23/2009                               Purchase                                    $60,000    N/A                7/14/2010           $50,000          $200,000   Updated portfolio data from servicer              $—            $—                 $—                  $—
             Trust Company, Easton, OH                 Home Loan
                                                       Modifications                                               9/30/2010          ($54,944)         $145,056   Updated portfolio data from servicer
                                                                                                                   5/20/2011        ($145,056)                $0   Termination of SPA
                                                                                                                   1/22/2010                $0          $110,000   Updated HPDP cap & HAFA initial cap

                                                       Financial                                                   3/26/2010          ($20,000)          $90,000   Updated portfolio data from servicer
             Tempe Schools Credit                      Instrument for
12/23/2009                               Purchase                                  $110,000     N/A                7/14/2010           $10,000          $100,000   Updated portfolio data from servicer              $—            $—                 $—                  $—
             Union, Tempe, AZ                          Home Loan
                                                       Modifications                                               9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                   12/8/2010        ($145,056)                $0   Termination of SPA
                                                                                                                   3/26/2010         $480,000           $740,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)          $600,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010          ($19,778)         $580,222   Updated portfolio data from servicer
                                                       Financial                                                    1/6/2011                            $580,221   Updated portfolio data from servicer
             Fresno County Federal                     Instrument for
1/13/2010                                Purchase                                  $260,000     N/A                                                                Updated due to quarterly assessment and        $3,833       $13,204            $7,917             $24,954
             Credit Union, Fresno, CA                  Home Loan                                                   3/30/2011                            $580,220
                                                       Modifications                                                                                               reallocation
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($8)         $580,212
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012               ($6)         $580,206
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 307
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)                                                                                                                                                                                  308
             Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                          TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                    Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                           Incentives    Incentives        Incentives           Payments
                                                                                                                      3/26/2010         $610,000          $850,000   Updated portfolio data from servicer

                                                         Financial                                                    7/14/2010          $50,000          $900,000   Updated portfolio data from servicer
            Roebling Bank,                               Instrument for
1/13/2010                                  Purchase                                  $240,000     N/A                 9/30/2010         ($29,666)         $870,334   Updated portfolio data from servicer                $—            $—                 $—                  $—
            Roebling, NJ                                 Home Loan
                                                         Modifications                                                 1/6/2011                           $870,333   Updated portfolio data from servicer
                                                                                                                      3/23/2011       ($870,333)                $0   Termination of SPA
                                                                                                                      3/26/2010         $150,000          $290,000   Updated portfolio data from servicer
                                                         Financial
            First National Bank of Grant                 Instrument for                                               7/14/2010          $10,000          $300,000   Updated portfolio data from servicer
1/13/2010                                  Purchase                                  $140,000     N/A                                                                                                                    $—            $—                 $—                  $—
            Park, Grant Park, IL                         Home Loan                                                    9/30/2010          ($9,889)         $290,111   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                      1/26/2011       ($290,111)                $0   Termination of SPA
                                                                                                                      3/26/2010     ($51,240,000)      $12,910,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from CitiMortgage, Inc. due
                                                                                                                      5/14/2010       $3,000,000       $15,910,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Transfer of cap from CitiMortgage, Inc. due
                                                                                                                      6/16/2010       $4,860,000       $20,770,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I July 25, 2012




                                                                                                                      7/14/2010       $3,630,000       $24,400,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from CitiMortgage, Inc. due
                                                                                                                      7/16/2010         $330,000       $24,730,000
                                                                                                                                                                     to servicing transfer
                                                                                                                      8/13/2010         $700,000       $25,430,000   Transfer of cap due to servicing transfer
                                                                                                                      9/15/2010         $200,000       $25,630,000   Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      ($1,695,826)      $23,934,174   Updated portfolio data from servicer
                                                                                                                     11/16/2010         $200,000       $24,134,174   Transfer of cap due to servicing transfer
                                                                                                                       1/6/2011             ($32)      $24,134,142   Updated portfolio data from servicer
                                                                                                                      1/13/2011       $1,500,000       $25,634,142   Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011       $7,100,000       $32,734,142   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($36)      $32,734,106
                                                         Financial                                                                                                   reallocation
            Specialized Loan Servicing,                  Instrument for
1/13/2010                                  Purchase                               $64,150,000     N/A                 4/13/2011       $1,000,000       $33,734,106   Transfer of cap due to servicing transfer     $1,328,139   $3,178,518        $2,881,598          $7,388,255
            LLC, Highland Ranch, CO                      Home Loan
                                                         Modifications                                                5/13/2011         $100,000       $33,834,106   Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011         $300,000       $34,134,106   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($332)      $34,133,774
                                                                                                                                                                     reallocation
                                                                                                                      8/16/2011         $100,000       $34,233,774   Transfer of cap due to servicing transfer
                                                                                                                      9/15/2011         $300,000       $34,533,774   Transfer of cap due to servicing transfer
                                                                                                                     10/14/2011         $300,000       $34,833,774   Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011      ($1,700,000)      $33,133,774   Transfer of cap due to servicing transfer
                                                                                                                      1/13/2012       $1,600,000       $34,733,774   Transfer of cap due to servicing transfer
                                                                                                                      2/16/2012         $100,000       $34,833,774   Transfer of cap due to servicing transfer
                                                                                                                      3/15/2012         $100,000       $34,933,774   Transfer of cap due to servicing transfer
                                                                                                                      4/16/2012      $77,600,000      $112,533,774   Transfer of cap due to servicing transfer
                                                                                                                      5/16/2012          $40,000      $112,573,774   Transfer of cap due to servicing transfer
                                                                                                                      6/14/2012       ($350,000)      $112,223,774   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012          ($1,058)     $112,222,716
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                            Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                     3/26/2010       $8,680,000        $9,450,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010      ($8,750,000)         $700,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010         $170,334          $870,334   Updated portfolio data from servicer
                                                        Financial                                                     1/6/2011                           $870,333   Updated portfolio data from servicer
            Greater Nevada Mortgage                     Instrument for
1/13/2010                                 Purchase                                  $770,000     N/A                                                                Updated due to quarterly assessment and       $33,161       $81,717          $62,945             $177,823
            Services, Carson City, NV                   Home Loan                                                    3/30/2011                           $870,332
                                                        Modifications                                                                                               reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($8)         $870,324
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($4)         $870,320
                                                                                                                                                                    reallocation
                                                        Financial                                                    3/26/2010      $12,190,000       $15,240,000   Updated portfolio data from servicer
            Digital Federal Credit                      Instrument for
1/15/2010                                 Purchase                                 $3,050,000    N/A                                                                                                                  $—            $—                 $—                  $—
            Union, Marlborough, MA                      Home Loan                                                    5/14/2010     ($15,240,000)               $0   Termination of SPA
                                                        Modifications
                                                                                                                     3/26/2010       ($730,000)          $230,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010         $370,000          $600,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010         $200,000          $800,000   Initial FHA-HAMP cap and initial 2MP cap
                                                                                                                     9/30/2010       ($364,833)          $435,167   Updated portfolio data from servicer
                                                        Financial                                                   11/16/2010         $100,000          $535,167   Transfer of cap due to servicing transfer
            iServe Residential Lending,                 Instrument for
1/29/2010                                 Purchase                                  $960,000     N/A                  1/6/2011                           $535,166   Updated portfolio data from servicer              $—            $—                 $—                  $—
            LLC , San Diego, CA                         Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     3/30/2011                           $535,165
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($7)         $535,158
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($6)         $535,152
                                                                                                                                                                    reallocation
                                                                                                                     3/26/2010         $160,000          $700,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010          $25,278          $725,278   Updated portfolio data from servicer
                                                                                                                      1/6/2011                           $725,277   Updated portfolio data from servicer
                                                        Financial
                                                        Instrument for                                                                                              Updated due to quarterly assessment and
1/29/2010   United Bank, Griffin, GA      Purchase                                  $540,000     N/A                 3/30/2011                           $725,276                                                  $1,000        $1,032            $3,000              $5,032
                                                        Home Loan                                                                                                   reallocation
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($11)         $725,265
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($8)         $725,257
                                                                                                                                                                    reallocation
                                                        Financial                                                    7/14/2010       $4,440,000        $5,500,000   Updated portfolio data from servicer
            Urban Trust Bank,                           Instrument for
3/3/2010                                  Purchase                                 $1,060,000    N/A                                                                                                                  $—            $—                 $—                  $—
            Lake May, FL                                Home Loan                                                    9/24/2010      ($5,500,000)               $0   Termination of SPA
                                                        Modifications
                                                                                                                     5/26/2010         $120,000       $28,160,000   Initial 2MP cap
                                                                                                                     7/14/2010     ($12,660,000)      $15,500,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010         $100,000       $15,600,000   Initial FHA-HAMP cap
                                                                                                                     9/30/2010      ($3,125,218)      $12,474,782   Updated portfolio data from servicer
                                                        Financial                                                   11/16/2010         $800,000       $13,274,782   Transfer of cap due to servicing transfer
            iServe Servicing, Inc.,                     Instrument for
3/5/2010                                  Purchase                               $28,040,000     N/A                  1/6/2011             ($20)      $13,274,762   Updated portfolio data from servicer              $—            $—                 $—                  $—
            Irving, TX                                  Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($24)      $13,274,738
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($221)      $13,274,517
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($169)      $13,274,348
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  309
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                                310
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                   7/14/2010      ($44,880,000)      $15,900,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010        $1,071,505       $16,971,505   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($23)      $16,971,482   Updated portfolio data from servicer
                                                       Financial
            Navy Federal Credit Union,                 Instrument for                                                                                              Updated due to quarterly assessment and
3/10/2010                                Purchase                               $60,780,000     N/A                3/30/2011              ($26)      $16,971,456                                                $123,165      $464,920         $342,715             $930,801
            Vienna, VA                                 Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($238)      $16,971,218
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($145)      $16,971,073
                                                                                                                                                                   reallocation
                                                                                                                   7/14/2010          $400,000          $700,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010           $25,278          $725,278   Updated portfolio data from servicer
                                                                                                                    1/6/2011                            $725,277   Updated portfolio data from servicer
                                                       Financial
            Vist Financial Corp,                       Instrument for                                                                                              Updated due to quarterly assessment and
3/10/2010                                Purchase                                  $300,000     N/A                3/30/2011                            $725,276                                                     $—            $—                 $—                  $—
            Wyomissing, PA                             Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($11)         $725,265
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012               ($8)         $725,257
                                                                                                                                                                   reallocation
                                                                                                                   7/14/2010          $300,000          $600,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010          ($19,778)         $580,222   Updated portfolio data from servicer

                                                       Financial                                                    1/6/2011                            $580,221   Updated portfolio data from servicer
            Midwest Bank and Trust                     Instrument for                                                                                              Updated due to quarterly assessment and
4/14/2010                                Purchase                                  $300,000     N/A                3/30/2011                            $580,220                                                     $—            $—                 $—                  $—
            Co., Elmwood Park, IL                      Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($8)         $580,212
                                                                                                                                                                   reallocation
                                                                                                                   7/14/2011        ($580,212)                $0   Termination of SPA
                                                                                                                   7/14/2010        ($150,000)        $6,400,000   Updated portfolio data from servicer
                                                                                                                   9/15/2010        $1,600,000        $8,000,000   Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010       ($4,352,173)       $3,647,827   Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($5)       $3,647,822   Updated portfolio data from servicer
                                                       Financial
            Wealthbridge Mortgage                      Instrument for                                                                                              Updated due to quarterly assessment and
4/14/2010                                Purchase                                 $6,550,000    N/A                3/30/2011               ($6)       $3,647,816                                                     $—            $—                 $—                  $—
            Corp, Beaverton, OR                        Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                   4/13/2011       ($3,000,000)         $647,816   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($9)         $647,807
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012               ($7)         $647,800
                                                                                                                                                                   reallocation
                                                                                                                   5/26/2010           $30,000           $40,000   Updated FHA-HAMP cap

                                                       Financial                                                   9/30/2010          $250,111          $290,111   Updated portfolio data from servicer
            Aurora Financial Group,                    Instrument for                                                                                              Updated due to quarterly assessment and
5/21/2010                                Purchase                                    $10,000    N/A         4, 8   6/29/2011           $59,889          $350,000                                                 $20,251           $—           $23,239              $43,490
            Inc., Marlton, NJ                          Home Loan                                                                                                   reallocation
                                                       Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012               ($2)         $349,998
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                          TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                    Lenders/                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                           Incentives    Incentives        Incentives           Payments
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due
                                                                                                                     6/16/2010       $3,680,000        $3,680,000
                                                                                                                                                                    to servicing transfer
                                                                                                                     8/13/2010       $3,300,000        $6,980,000   Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010       $3,043,831       $10,023,831   Updated portfolio data from servicer
                                                                                                                    10/15/2010       $1,400,000       $11,423,831   Transfer of cap due to servicing transfer
                                                                                                                      1/6/2011             ($17)      $11,423,814   Updated portfolio data from servicer
                                                                                                                     3/16/2011       $2,100,000       $13,523,814   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($24)      $13,523,790
                                                                                                                                                                    reallocation
                                                        Financial
            Selene Finance LP,                          Instrument for                                               4/13/2011       $2,900,000       $16,423,790   Transfer of cap due to servicing transfer
6/16/2010                                 Purchase                                        $—     N/A         9                                                                                                      $13,083       $36,712          $21,500              $71,295
            Houston TX                                  Home Loan                                                    6/16/2011       ($200,000)       $16,223,790   Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($273)      $16,223,517
                                                                                                                                                                    reallocation
                                                                                                                    10/14/2011        $100,000        $16,323,517   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       $1,100,000       $17,423,517   Transfer of cap due to servicing transfer
                                                                                                                     4/16/2012        $200,000        $17,623,517   Transfer of cap due to servicing transfer
                                                                                                                     5/16/2012          $10,000       $17,633,517   Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012       ($300,000)       $17,333,517   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($218)      $17,333,299
                                                                                                                                                                    reallocation
                                                                                                                     9/30/2010       $1,585,945        $2,465,945   Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($4)       $2,465,941   Updated portfolio data from servicer
                                                        Financial                                                                                                   Updated due to quarterly assessment and
            Suburban Mortgage                                                                                        3/30/2011              ($4)       $2,465,937
                                                        Instrument for                                                                                              reallocation
8/4/2010    Company of New Mexico,        Purchase                                  $880,000     N/A                                                                                                                    $—            $—                 $—                  $—
                                                        Home Loan
            Albuquerque, MN                                                                                                                                         Updated due to quarterly assessment and
                                                        Modifications                                                6/29/2011             ($40)       $2,465,897
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012             ($30)       $2,465,867
                                                                                                                                                                    reallocation
                                                                                                                     9/30/2010       $1,040,667        $1,740,667   Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($2)       $1,740,665   Updated portfolio data from servicer
                                                        Financial
                                                                                                                                                                    Updated due to quarterly assessment and
            Bramble Savings Bank,                       Instrument for                                               3/30/2011              ($3)       $1,740,662
8/20/2010                                 Purchase                                  $700,000     N/A                                                                reallocation                                        $—            $—                 $—                  $—
            Cincinati, OH                               Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($28)       $1,740,634
                                                                                                                                                                    reallocation
                                                                                                                     8/10/2011      ($1,740,634)               $0   Termination of SPA
                                                                                                                     9/30/2010       $2,181,334        $3,481,334   Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($5)       $3,481,329   Updated portfolio data from servicer
                                                        Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($6)       $3,481,323
            Pathfinder Bank,                            Instrument for                                                                                              reallocation
8/25/2010                                 Purchase                                 $1,300,000    N/A                                                                                                                 $1,917        $2,453            $4,517              $8,886
            Oswego, NY                                  Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($58)       $3,481,265
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012             ($43)       $3,481,222
                                                                                                                                                                    reallocation
                                                                                                                     9/30/2010       $7,014,337       $11,314,337   Updated portfolio data from servicer
                                                                                                                      1/6/2011             ($17)      $11,314,320   Updated portfolio data from servicer
                                                        Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($20)      $11,314,300
            First Financial Bank, N.A.,                 Instrument for                                                                                              reallocation
8/27/2010                                 Purchase                                 $4,300,000    N/A                                                                                                                    $—            $—                 $—                  $—
            Terre Haute, ID                             Home Loan
                                                        Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($192)      $11,314,108
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($144)      $11,313,964
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    311
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                               312
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                 Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                    9/30/2010         $45,056          $145,056   Updated portfolio data from servicer
                                                                                                                     1/6/2011         $34,944          $180,000   Updated portfolio data from servicer

                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011         $40,000          $220,000
            RBC Bank (USA),                            Instrument for                                                                                             reallocation
9/1/2010                                 Purchase                                  $100,000     N/A         4, 8                                                                                                    $—            $—                 $—                  $—
            Raleigh, NC                                Home Loan                                                                                                  Updated due to quarterly assessment and
                                                       Modifications                                                6/29/2011         $50,000          $270,000
                                                                                                                                                                  reallocation
                                                                                                                    3/15/2012       ($200,000)          $70,000   Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012        ($10,000)          $60,000   Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010       $5,168,169       $8,268,169   Updated portfolio data from servicer
                                                                                                                     1/6/2011            ($12)       $8,268,157   Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($15)       $8,268,142
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011        $400,000        $8,668,142   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011           ($143)       $8,667,999
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 25, 2012




                                                       Financial                                                    9/15/2011        $700,000        $9,367,999   Transfer of cap due to servicing transfer
            Fay Servicing, LLC,                        Instrument for
9/3/2010                                 Purchase                                 $3,100,000    N/A                                                                                                            $190,805      $381,596         $196,972             $769,373
            Chicago, IL                                Home Loan                                                   10/14/2011        $100,000        $9,467,999   Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                   11/16/2011        $200,000        $9,667,999   Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $1,700,000      $11,367,999   Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012       $1,600,000      $12,967,999   Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012         $40,000       $13,007,999   Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012       ($210,000)      $12,797,999   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/28/2012           ($105)      $12,797,894
                                                                                                                                                                  reallocation
                                                                                                                    9/15/2010       $1,000,000       $1,000,000   Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $450,556        $1,450,556   Updated portfolio data from servicer
                                                                                                                     1/6/2011             ($2)       $1,450,554   Updated portfolio data from servicer
                                                                                                                    2/16/2011       $3,000,000       $4,450,554   Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011      $10,200,000      $14,650,554   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                       Financial                                                    3/30/2011            ($24)      $14,650,530
                                                                                                                                                                  reallocation
            Vericrest Financial, Inc.,                 Instrument for
9/15/2010                                Purchase                                        $—     N/A         9                                                     Updated due to quarterly assessment and      $221,360      $736,559         $829,551           $1,787,470
            Oklahoma City, OK                          Home Loan                                                    6/29/2011           ($227)      $14,650,303
                                                       Modifications                                                                                              reallocation
                                                                                                                    7/14/2011      $12,000,000      $26,650,303   Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $4,100,000      $30,750,303   Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012        $900,000       $31,650,303   Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012        $300,000       $31,950,303   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/28/2012           ($266)      $31,950,037
                                                                                                                                                                  reallocation
                                                                                                                    9/30/2010        $180,222          $580,222   Updated portfolio data from servicer
                                                                                                                     1/6/2011                          $580,221   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011                          $580,220
            Midwest Community Bank,                    Instrument for                                                                                             reallocation
9/15/2010                                Purchase                                  $400,000     N/A                                                                                                              $1,000        $1,181            $2,000              $4,181
            Freeport, IL                               Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($8)         $580,212
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/28/2012             ($6)         $580,206
                                                                                                                                                                  reallocation
                                                       Financial                                                    9/30/2010         $45,056          $145,056   Updated portfolio data from servicer
            American Finance House                     Instrument for
9/24/2010                                Purchase                                  $100,000     N/A                                                                                                                 $—            $—                 $—                  $—
            LARIBA, Pasadena, CA                       Home Loan                                                     2/2/2011       ($145,056)               $0   Termination of SPA
                                                       Modifications
                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                             (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments

                                                      Financial                                                   9/30/2010         $856,056         $2,756,056   Updated portfolio data from servicer
                                                      Instrument for
9/24/2010   Centrue Bank, Ottawa, CA    Purchase                                 $1,900,000    N/A                 1/6/2011               ($4)       $2,756,052   Updated portfolio data from servicer            $—            $—                 $—                  $—
                                                      Home Loan
                                                      Modifications                                                3/9/2011       ($2,756,052)               $0   Termination of SPA
                                                      Financial                                                   9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                 Instrument for
9/30/2010                               Purchase                                  $100,000     N/A                                                                                                                $—            $—                 $—                  $—
            Columbia, SC                              Home Loan                                                   3/23/2011        ($145,056)                $0   Termination of SPA
                                                      Modifications
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            Amarillo National Bank,                   Instrument for                                              6/29/2011                            $145,055
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Amarillo, TX                              Home Loan
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
            American Financial                                                                                                                                    Updated due to quarterly assessment and
                                                      Instrument for                                              6/29/2011                            $145,055
9/30/2010   Resources Inc.,             Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
                                                      Home Loan
            Parsippany, NJ
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010         $765,945         $2,465,945   Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($3)       $2,465,942   Updated portfolio data from servicer
                                                      Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($4)       $2,465,938
            Banco Popular de Puerto                   Instrument for                                       4,                                                     reallocation
9/30/2010                               Purchase                                 $1,700,000    N/A                                                                                                                $—            $—                 $—                  $—
            Rico, San Juan, PR                        Home Loan                                            5, 8
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($36)       $2,465,902
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($30)       $2,465,872
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
            Capital International                                                                                                                                 Updated due to quarterly assessment and
                                                      Instrument for                                              6/29/2011                            $145,055
9/30/2010   Financial, Inc.,            Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
                                                      Home Loan
            Coral Gables, FL
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation

                                                      Financial                                                   9/30/2010         $360,445         $1,160,445   Updated portfolio data from servicer
            Citizens Community Bank,                  Instrument for
9/24/2010                               Purchase                                  $800,000     N/A                 1/6/2011               ($2)       $1,160,443   Updated portfolio data from servicer            $—            $—                 $—                  $—
            Freeburg, IL                              Home Loan
                                                      Modifications                                               3/23/2011       ($1,160,443)               $0   Termination of SPA
                                                                                                                  9/30/2010         $901,112         $2,901,112   Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($4)       $2,901,108   Updated portfolio data from servicer
                                                      Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($5)       $2,901,103
            Community Credit Union of                 Instrument for                                                                                              reallocation
9/30/2010                               Purchase                                 $2,000,000    N/A         6                                                                                                      $—            $—                 $—                  $—
            Florida, Rockledge, FL                    Home Loan
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($48)       $2,901,055
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($36)       $2,901,019
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            CU Mortgage Services,                     Instrument for                                              6/29/2011                            $145,055
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Inc., New Brighton, MN                    Home Loan
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation
                                                                                                                  9/30/2010           $45,056          $145,056   Updated portfolio data from servicer
                                                      Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            First Federal Bank of                     Instrument for                                              6/29/2011                            $145,055
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Florida, Lake City FL                     Home Loan
                                                      Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                  6/28/2012                            $145,054
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                              313
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                              (CONTINUED)                                                                                                                                                                             314
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                      TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                               Lenders/                             Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                              Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                       Financial
            First Mortgage                                                                                                                                        Updated due to quarterly assessment and
                                                       Instrument for                                              6/29/2011                           $145,055
9/30/2010   Corporation, Diamond,        Purchase                                  $100,000     N/A         4, 8                                                  reallocation                                 $1,000           $—             $1,000              $2,000
                                                       Home Loan
            Bar, CA
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/28/2012                           $145,054
                                                                                                                                                                  reallocation

                                                       Financial                                                   9/30/2010         $180,222          $580,222   Updated portfolio data from servicer
            First Safety Bank,                         Instrument for
9/30/2010                                Purchase                                  $400,000     N/A                 1/6/2011                           $580,221   Updated portfolio data from servicer            $—            $—                 $—                  $—
            Cincinati, OH                              Home Loan
                                                       Modifications                                               3/23/2011        ($580,221)               $0   Termination of SPA
                                                                                                                   9/30/2010         $360,445        $1,160,445   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($2)       $1,160,443   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)       $1,160,441
            Flagstar Capital Markets                   Instrument for                                                                                             reallocation
9/30/2010                                Purchase                                  $800,000     N/A         7, 8                                                                                                  $—            $—                 $—                  $—
            Corporation, Troy, MI                      Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($18)       $1,160,423
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($14)       $1,160,409
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 25, 2012




                                                                                                                                                                  reallocation
                                                                                                                   9/30/2010         $765,945        $2,465,945   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($4)       $2,465,941   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($4)       $2,465,937
            Franklin Savings,                          Instrument for                                                                                             reallocation
9/30/2010                                Purchase                                 $1,700,000    N/A         4                                                                                                    $750        $2,331            $3,000              $6,081
            Cincinati, OH                              Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($40)       $2,465,897
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($30)       $2,465,867
                                                                                                                                                                  reallocation
                                                                                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                       Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            Gateway Mortgage Group,                    Instrument for                                              6/29/2011                           $145,055
9/30/2010                                Purchase                                  $100,000     N/A         4, 8                                                  reallocation                                    $—            $—                 $—                  $—
            LLC, Tulsa, OK                             Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/28/2012                           $145,054
                                                                                                                                                                  reallocation
                                                       Financial                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
            GFA Federal Credit Union,                  Instrument for
9/30/2010                                Purchase                                  $100,000     N/A                                                                                                               $—            $—                 $—                  $—
            Gardner, MA                                Home Loan                                                   3/23/2011        ($145,056)               $0   Termination of SPA
                                                       Modifications
                                                                                                                   9/30/2010          $45,056          $145,056   Updated portfolio data from servicer
                                                       Financial
                                                                                                                                                                  Updated due to quarterly assessment and
            Guaranty Bank,                             Instrument for                                              6/29/2011                           $145,055
9/30/2010                                Purchase                                  $100,000     N/A         4, 8                                                  reallocation                                   $917           $—             $1,000              $1,917
            Saint Paul, MN                             Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/28/2012                           $145,054
                                                                                                                                                                  reallocation
                                                                                                                   9/30/2010         $135,167          $435,167   Updated portfolio data from servicer
                                                                                                                    1/6/2011                           $435,166   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011                           $435,165
            James B. Nutter &                          Instrument for                                                                                             reallocation
9/24/2010                                Purchase                                  $300,000     N/A         4, 8                                                                                                 $750           $—             $1,000              $1,750
            Company, Kansas City, MO                   Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($6)         $435,159
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($4)         $435,155
                                                                                                                                                                  reallocation
                                                                                                                   9/30/2010         $450,556        $1,450,556   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($2)       $1,450,554   Updated portfolio data from servicer
                                                       Financial                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)       $1,450,552
            Liberty Bank and Trust Co,                 Instrument for                                                                                             reallocation
9/30/2010                                Purchase                                 $1,000,000    N/A                                                                                                               $—            $—                 $—                  $—
            New Orleans, LA                            Home Loan
                                                       Modifications                                                                                              Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($23)       $1,450,529
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($17)       $1,450,512
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                            (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s     Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                       Incentives    Incentives        Incentives           Payments
                                                                                                                 9/30/2010         $315,389         $1,015,389   Updated portfolio data from servicer
                                                                                                                  1/6/2011                          $1,015,388   Updated portfolio data from servicer
                                                     Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                 3/30/2011                          $1,015,387
                                                     Instrument for                                                                                              reallocation
9/30/2010   M&T Bank, Buffalo, NY      Purchase                                  $700,000     N/A         4, 8                                                                                               $27,357           $—           $29,587              $56,944
                                                     Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011              ($11)       $1,015,376
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($11)       $1,015,365
                                                                                                                                                                 reallocation
                                                                                                                 9/30/2010         $630,778         $2,030,778   Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($3)       $2,030,775   Updated portfolio data from servicer
                                                     Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                 3/30/2011               ($3)       $2,030,772
            Magna Bank,                              Instrument for                                                                                              reallocation
9/30/2010                              Purchase                                 $1,400,000    N/A         5                                                                                                      $—            $—                 $—                  $—
            Germanton, TN                            Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011              ($33)       $2,030,739
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($25)       $2,030,714
                                                                                                                                                                 reallocation

                                                     Financial                                                   9/30/2010         $225,278           $725,278   Updated portfolio data from servicer
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                                  $500,000     N/A                 1/6/2011                            $725,277   Updated portfolio data from servicer            $—            $—                 $—                  $—
            Lexena, KS                               Home Loan
                                                     Modifications                                                3/9/2011        ($725,277)                $0   Termination of SPA
                                                                                                                 9/30/2010          $45,056           $145,056   Updated portfolio data from servicer
                                                     Financial
                                                                                                                                                                 Updated due to quarterly assessment and
            Marsh Associates, Inc.,                  Instrument for                                              6/29/2011                            $145,055
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                 $3,710           $—             $4,057              $7,767
            Charlotte, NC                            Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                 reallocation
                                                                                                                 9/30/2010       $49,915,806       $93,415,806   Updated portfolio data from servicer
                                                                                                                  1/6/2011            ($125)       $93,415,681   Updated portfolio data from servicer
                                                     Financial                                                                                                   Updated due to quarterly assessment and
            Midland Mortgage                                                                                     3/30/2011            ($139)       $93,415,542
                                                     Instrument for                                                                                              reallocation
9/30/2010   Company, Oklahoma          Purchase                               $43,500,000     N/A         4, 5                                                                                             $1,512,973     $202,355        $1,940,729          $3,656,057
                                                     Home Loan
            City, OK                                                                                                                                             Updated due to quarterly assessment and
                                                     Modifications                                               6/29/2011           ($1,223)      $93,414,319
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($797)       $93,413,522
                                                                                                                                                                 reallocation
                                                                                                                 9/30/2010          $45,056           $145,056   Updated portfolio data from servicer
                                                     Financial
                                                                                                                                                                 Updated due to quarterly assessment and
            Schmidt Mortgage                         Instrument for                                              6/29/2011                            $145,055
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Company, Rocky River, OH                 Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                 reallocation
                                                                                                                 9/30/2010          $45,056           $145,056   Updated portfolio data from servicer
                                                     Financial
                                                                                                                                                                 Updated due to quarterly assessment and
            Stockman Bank of                         Instrument for                                              6/29/2011                            $145,055
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Montana, Miles City, MT                  Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                 reallocation

                                                     Financial                                                   9/30/2010         $270,334           $870,334   Updated portfolio data from servicer
            University First Federal
                                                     Instrument for
9/30/2010   Credit Union,              Purchase                                  $600,000     N/A                 1/6/2011                            $870,333   Updated portfolio data from servicer            $—            $—                 $—                  $—
                                                     Home Loan
            Salt Lake City, UT
                                                     Modifications                                               2/17/2011        ($870,333)                $0   Termination of SPA
                                                                                                                 9/30/2010          $45,056           $145,056   Updated portfolio data from servicer
                                                     Financial
                                                                                                                                                                 Updated due to quarterly assessment and
            Weststar Mortgage, Inc.,                 Instrument for                                              6/29/2011                            $145,055
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                   reallocation                                    $—            $—                 $—                  $—
            Woodbridge, VA                           Home Loan
                                                     Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 25, 2012




                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             315
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                (CONTINUED)                                                                                                                                                                                316
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                  Lenders/                             Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s     Investors         Servicers            Incentive
Date         Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                         Incentives    Incentives        Incentives           Payments
                                                                                                                     12/15/2010       $5,000,000        $5,000,000   Updated portfolio data from servicer
                                                                                                                       1/6/2011              ($7)       $4,999,993   Updated portfolio data from servicer
                                                                                                                      2/16/2011        $500,000         $5,499,993   Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011        $100,000         $5,599,993   Transfer of cap due to servicing transfer
                                                         Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($9)       $5,599,984
             Statebridge Company, LLC,                   Instrument for                                                                                              reallocation
12/15/2010                                 Purchase                                        $—     N/A         9                                                                                                        $—            $—                 $—                  $—
             Denver, CO                                  Home Loan
                                                         Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($85)       $5,599,899
                                                                                                                                                                     reallocation
                                                                                                                     11/16/2011      ($2,500,000)       $3,099,899   Transfer of cap due to servicing transfer
                                                                                                                      3/15/2012        $200,000         $3,299,899   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($40)       $3,299,859
                                                                                                                                                                     reallocation
                                                                                                                     12/15/2010       $4,300,000        $4,300,000   Updated portfolio data from servicer

                                                         Financial                                                     1/6/2011              ($4)       $4,299,996   Updated portfolio data from servicer
             Scotiabank de Puerto Rico,                  Instrument for                                                                                              Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 25, 2012




12/15/2010                                 Purchase                                        $—     N/A         9       6/29/2011              ($5)       $4,299,991                                                $211,257      $359,748         $245,752             $816,757
             San Juan, PR                                Home Loan                                                                                                   reallocation
                                                         Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($23)       $4,299,968
                                                                                                                                                                     reallocation
                                                                                                                      4/13/2011        $200,000           $200,000   Transfer of cap due to servicing transfer
                                                                                                                      5/13/2011        $100,000           $300,000   Transfer of cap due to servicing transfer

                                                         Financial                                                    6/16/2011        $300,000           $600,000   Transfer of cap due to servicing transfer
             AmTrust Bank, A Division of
                                                         Instrument for                                                                                              Updated due to quarterly assessment and
4/13/2011    New York Community Bank,      Purchase                                        $—     N/A         9       6/29/2011              ($9)         $599,991                                                  $6,000       $26,773          $14,200              $46,973
                                                         Home Loan                                                                                                   reallocation
             Cleveland, OH
                                                         Modifications
                                                                                                                      8/16/2011        $200,000           $799,991   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012              ($7)         $799,984
                                                                                                                                                                     reallocation
                                                         Financial
             SunTrust Mortgage, Inc.,                    Instrument for
4/13/2011                                  Purchase                                        $—     N/A         9       4/13/2011        $100,000           $100,000   Transfer of cap due to servicing transfer         $—            $—                 $—                  $—
             Richmond, VA                                Home Loan
                                                         Modifications
                                                                                                                      4/13/2011       $1,000,000        $1,000,000   Transfer of cap due to servicing transfer

                                                         Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011        $233,268         $1,233,268
             Urban Partnership Bank,                     Instrument for                                                                                              reallocation
4/13/2011                                  Purchase                                        $—     N/A         9                                                                                                    $75,461      $170,651          $80,406             $326,518
             Chicago, IL                                 Home Loan                                                   11/16/2011        $100,000         $1,333,268   Transfer of cap due to servicing transfer
                                                         Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012              ($3)       $1,333,265
                                                                                                                                                                     reallocation
                                                         Financial                                                    4/13/2011        $200,000           $200,000   Transfer of cap due to servicing transfer
             Western Federal Credit                      Instrument for
4/13/2011                                  Purchase                                        $—     N/A         9                                                      Updated due to quarterly assessment and        $7,417       $24,661          $10,917              $42,995
             Union, Hawthorne, CA                        Home Loan                                                    6/29/2011          $17,687          $217,687
                                                         Modifications                                                                                               reallocation

                                                                                                                      5/13/2011        $500,000           $500,000   Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011        $100,000           $600,000   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($9)         $599,991
                                                                                                                                                                     reallocation

                                                         Financial                                                    7/14/2011        $200,000           $799,991   Transfer of cap due to servicing transfer
             FCI Lender Services, Inc.,                  Instrument for
5/13/2011                                  Purchase                                        $—     N/A         9       9/15/2011        $100,000           $899,991   Transfer of cap due to servicing transfer     $13,957       $26,218          $15,416              $55,591
             Anaheim Hills, CA                           Home Loan
                                                         Modifications                                               11/16/2011       $2,500,000        $3,399,991   Transfer of cap due to servicing transfer
                                                                                                                      5/16/2012       $1,510,000        $4,909,991   Transfer of cap due to servicing transfer
                                                                                                                      6/14/2012        $450,000         $5,359,991   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/28/2012             ($66)       $5,359,925
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2012                                                        (CONTINUED)
                  Servicer Modifying Borrowers’ Loans                                                                                                                    Adjustment Details                                                                            TARP Incentive Payments
                                                                                      Cap of Incentive
                                                                                  Payments on Behalf
                                                                                  of Borrowers and to                                                                                                                                                                     Lenders/                                 Total TARP
                                              Transaction     Investment         Servicers & Lenders/      Pricing                  Adjustment       Cap Adjustment                                                                               Borrower’s              Investors            Servicers             Incentive
Date            Name of Institution           Type            Description             Investors (Cap)1     Mechanism      Note            Date              Amount          Adjusted Cap Reason for Adjustment                                    Incentives             Incentives           Incentives            Payments
                                                                                                                                     7/14/2011              $200,000            $200,000    Transfer of cap due to servicing transfer
                                                              Financial                                                             11/16/2011              $900,000          $1,100,000    Transfer of cap due to servicing transfer
                Gregory Funding, LLC,                         Instrument for
7/14/2011                                     Purchase                                              $—     N/A            9          1/13/2012              $100,000          $1,200,000    Transfer of cap due to servicing transfer                $34,410               $73,993              $36,391              $144,794
                Beaverton, OR                                 Home Loan
                                                              Modifications
                                                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                                                     6/28/2012                    ($9)        $1,199,991
                                                                                                                                                                                            reallocation
                                                              Financial
                Bangor Savings Bank,                          Instrument for
9/15/2011                                     Purchase                                              $—     N/A            9          9/15/2011              $100,000            $100,000    Transfer of cap due to servicing transfer                     $—                    $—                   $—                       $—
                Bangor, ME                                    Home Loan
                                                              Modifications
                                                              Financial                                                              9/15/2011            $1,300,000          $1,300,000    Transfer of cap due to servicing transfer
                PHH Mortgage                                  Instrument for
9/15/2011                                     Purchase                                              $—     N/A            9                                                                 Updated due to quarterly assessment and                       $—                    $—                   $—                       $—
                Corporation, Mt. Laurel, NJ                   Home Loan                                                              6/28/2012                   ($15)        $1,299,985
                                                              Modifications                                                                                                                 reallocation

                                                                                                                                    12/15/2011              $200,000            $200,000    Transfer of cap due to servicing transfer
                                                              Financial
                Rushmore Loan
                                                              Instrument for                                                         4/16/2012              $600,000            $800,000    Transfer of cap due to servicing transfer
12/15/2011      Management Services LLC,      Purchase                                              $—     N/A            9                                                                                                                           $9,583               $61,440              $20,250               $91,274
                                                              Home Loan
                Irvine, CA                                                                                                                                                                  Updated due to quarterly assessment and
                                                              Modifications                                                          6/28/2012                    ($3)          $799,997
                                                                                                                                                                                            reallocation
                                                              Financial
                Sun West Mortgage                             Instrument for
1/13/2012                                     Purchase                                              $—     N/A            9          1/13/2012              $100,000            $100,000    Transfer of cap due to servicing transfer                     $—                    $—                   $—                       $—
                Company, Inc, Cerritos, CA                    Home Loan
                                                              Modifications
                                                              Financial
                PrimeWest Mortgage                            Instrument for
3/15/2012                                     Purchase                                              $—     N/A            9          3/15/2012              $100,000            $100,000    Transfer of cap due to servicing transfer                     $—                    $—                   $—                       $—
                Corporation, Lubbock, TX                      Home Loan
                                                              Modifications
                                                              Financial                                                              6/14/2012              $940,000            $940,000    Transfer of cap due to servicing transfer
                Resurgent Capital
                                                              Instrument for
6/14/2012       Solutions, LP,                Purchase                                              $—     N/A            9                                                                 Updated due to quarterly assessment and                       $—                    $—               $1,000                $1,000
                                                              Home Loan                                                              6/28/2012              $205,242          $1,145,242
                Greenville, SC                                                                                                                                                              reallocation
                                                              Modifications
                                                            Total Initial Cap        $23,831,570,000                    Total Cap Adjustments       $6,049,733,607                                                               Totals       $644,315,055       $1,587,471,355       $1,177,908,534         $3,409,694,944
                                                                                                                      Total Cap                    $29,881,303,607
Notes: Numbers may be affected by rounding. Data as of 6/30/2012. Numbered notes are taken verbatim from Treasury’s 7/2/2012, Transactions Report-Housing Programs.
1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and
   individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	 On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with JPMorgan Chase Bank, NA, and EMC Mortgage Corporation.
3
 	 Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
 	 Initial cap amount includes FHA-HAMP.
5
 	 Initial cap amount includes RD-HAMP.
6
 	 Initial cap amount includes 2MP.
7
 	 Initial cap amount includes FHA-2LP.
8
 	 Initial cap does not include HAMP.
9
 	 This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	The amendment reflects a change in the legal name of the institution.
11
  	MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 2/1/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
  	The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, Inc. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior prior to such merger.  
14
  	In April 2011, EMC Mortgage, an indirect subsidiary of JPMorgan Chase & Co, transferred the servicing of all loans to JPMorgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.  

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program.

Source: Treasury, Transactions Report-Housing Programs, 7/2/2012.
                                                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                                                                   317
                                                                                                                                                                                                                              318
Table D.13
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012
                   Seller
       Trade                                                                                  Transaction                                          Initial Investment           Additional       Investment   Pricing
Note   Date        Name of Institution                                                        Type          Investment Description                            Amount    Investment Amount           Amount1   Mechanism
       6/23/2010                                                                                            Financial Instrument for HHF Program      $102,800,000                     —                      N/A
2      9/23/2010   Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                  —           $34,056,581     $194,026,240    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $57,169,659                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $699,600,000                     —                      N/A
2      9/23/2010   CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                  —          $476,257,070    $1,975,334,096   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $799,477,026                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $418,000,000                     —                      N/A
2      9/23/2010   Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                  —          $238,864,755    $1,057,839,136   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $400,974,381                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $125,100,000                     —                      N/A
                   Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                        $267,766,006
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $142,666,006                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $154,500,000                     —                      N/A
2      9/23/2010   Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                  —          $128,461,559     $498,605,738    N/A
                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 25, 2012




3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $215,644,179                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $159,000,000                     —                      N/A
2      9/23/2010   North Carolina Housing Finance Agency, Raleigh, NC                         Purchase      Financial Instrument for HHF Program                  —          $120,874,221     $482,781,786    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $202,907,565                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $172,000,000                     —                      N/A
2      9/23/2010   Ohio Homeowner Assistance LLC, Columbus, OH                                Purchase      Financial Instrument for HHF Program                  —          $148,728,864     $570,395,099    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $249,666,235                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program       $88,000,000                     —                      N/A
2      9/23/2010   Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                  —           $49,294,215     $220,042,786    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $82,748,571                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program       $43,000,000                     —                      N/A
2      9/23/2010   Rhode Island Housing and Mortgage Finance Corporation, Providence, RI      Purchase      Financial Instrument for HHF Program                  —           $13,570,770      $79,351,573    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $22,780,803                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $138,000,000                     —                      N/A
2      9/23/2010   SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                  —           $58,772,347     $295,431,547    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $98,659,200                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $60,672,471                     —                      N/A
                   Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                        $162,521,345
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $101,848,874                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $55,588,050                     —                      N/A
                   Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                        $148,901,875
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $93,313,825                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $38,036,950                     —                      N/A
                   Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                        $101,888,323
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $63,851,373                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $126,650,987                     —                      N/A
                   GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                        $339,255,819
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $212,604,832                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $82,762,859                     —                      N/A
                   Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                        $221,694,139
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $138,931,280                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $166,352,726                     —                      N/A
                   Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                        $445,603,557
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $279,250,831                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $112,200,637                     —                      N/A
                   New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                Purchase                                                                                        $300,548,144
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —          $188,347,507                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program         $7,726,678                    —                      N/A
                   District of Columbia Housing Finance Agency, Washington, DC                Purchase                                                                                         $20,697,198
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —           $12,970,520                     N/A
                                                                                                                                                                                                     Continued on next page
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2012                                                                                                 (CONTINUED)
                       Seller
        Trade                                                                                            Transaction                                                    Initial Investment             Additional               Investment     Pricing
Note    Date           Name of Institution                                                               Type              Investment Description                                  Amount      Investment Amount                   Amount1     Mechanism
        9/23/2010                                                                                                          Financial Instrument for HHF Program              $81,128,260                           —                           N/A
                       Tennessee Housing Development Agency, Nashville, TN                               Purchase                                                                                                            $217,315,593
3       9/29/2010                                                                                                          Financial Instrument for HHF Program                         —             $136,187,333                             N/A
                                                                                                                                                                       Total Investment Amount                            $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 6/30/2012. Numbered notes are taken verbatim from Treasury’s 7/2/2012, Transactions Report-Housing Programs.
1
 	 The purchase will be incrementally funded up to the investment amount.
2
 	 On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
 	 On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 7/2/2012.




Table D.14
FHA SHORT REFINANCE PROGRAM, AS OF 6/30/2012
Note        Trade Date            Seller Name                      Transaction Type       Investment Description                                                                                                                     Investment Amount        Pricing Mechanism
1           9/3/2010              Citigroup, Inc., New York, NY    Purchase               Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and Citibank, N.A                       $8,117,000,000      N/A
                                                                                                                                                                                               Total Investment Amount                  $8,117,000,000
Notes: Numbers may be affected by rounding. Data as of 6/30/2012. Numbered notes are taken verbatim from Treasury’s 7/2/2012, Transactions Report-Housing Programs.
1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the
   “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the
   then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report-Housing Programs, 7/2/2012.
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 25, 2012
                                                                                                                                                                                                                                                                                     319
